<html>
<title> - THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUESTS FOR INDIAN PROGRAMS</title>
<body><pre>[Senate Hearing 115-402]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-402

  THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUESTS FOR INDIAN PROGRAMS

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 11, 2018

                               __________

         Printed for the use of the Committee on Indian Affairs
         
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
 
 
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
33-404 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a5c2d5cae5c6d0d6d1cdc0c9d58bc6cac88b">[email&#160;protected]</a>  
 


                      COMMITTEE ON INDIAN AFFAIRS

                  JOHN HOEVEN, North Dakota, Chairman
                  TOM UDALL, New Mexico, Vice Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JOHN McCAIN, Arizona                 JON TESTER, Montana,
LISA MURKOWSKI, Alaska               BRIAN SCHATZ, Hawaii
JAMES LANKFORD, Oklahoma             HEIDI HEITKAMP, North Dakota
STEVE DAINES, Montana                CATHERINE CORTEZ MASTO, Nevada
MIKE CRAPO, Idaho                    TINA SMITH, Minnesota
JERRY MORAN, Kansas
     T. Michael Andrews, Majority Staff Director and Chief Counsel
       Jennifer Romero, Minority Staff Director and Chief Counsel
                           
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 11, 2018...................................     1
Statement of Senator Cortez Masto................................    41
Statement of Senator Daines......................................    43
Statement of Senator Heitkamp....................................    35
Statement of Senator Hoeven......................................     1
Statement of Senator Murkowski...................................     3
Statement of Senator Smith.......................................    37
Statement of Senator Udall.......................................     2

                               Witnesses

McGhee, Hon. Robert, Vice President, United South and Eastern 
  Tribes.........................................................    22
    Prepared statement...........................................    24
Payment, Hon. Aaron, Vice President, National Congress of 
  American Indians (NCAI)........................................    12
    Prepared statement...........................................    14
Tahsuda, John, Principal Deputy Assistant Secretary--Indian 
  Affairs, U.S. Department of the Interior.......................     4
    Prepared statement...........................................     5
Weahkee, Rear Admiral Michael, Acting Director, Indian Health 
  Service, U.S. Department of Health and Human Services..........     8
    Prepared statement...........................................     9

                                Appendix

Herrera, Hon. Dwayne, Governor, Pueblo de Cochiti. letter........    62
James, Chris, President/CEO, National Center for American Indian 
  Enterprise Development, prepared statement.....................    54
National Indian Health Board (NIHB), prepared statement..........    57
Response to written questions submitted by Hon. John McCain to 
  John Tahsuda...................................................    65
Response to written questions submitted by Hon. Tom Udall to RADM 
  Michael Weahkee................................................    64
Rose, Ahniwake, Executive Director, National Indian Education 
  Association (NIEA), prepared statement.........................    49
Santo Domingo Tribal Council--Resolution No: 04-2018-15..........    64
Written questions submitted by Hon. Tom Udall to:
    Hon. Robert McGhee...........................................    69
    Hon. Aaron Payment...........................................    67

 
  THE PRESIDENT'S FISCAL YEAR 2019 BUDGET REQUESTS FOR INDIAN PROGRAMS

                              ----------                              


                       WEDNESDAY, APRIL 11, 2018


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:00 p.m. in room 
628, Dirksen Senate Office Building, Hon. John Hoeven, 
Chairman of the Committee, presiding.

            OPENING STATEMENT OF HON. JOHN HOEVEN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. I call this oversight hearing on the 
President's Fiscal Year 2019 budget to order.
    Today the Committee will receive testimony on the 
President's Fiscal Year 2019 budget request for Indian 
programs. On February 12th of this year, Congress received the 
President's Fiscal Year 2019 budget request. This oversight 
hearing provides an opportunity to receive important feedback 
on funding requests for Indian programs.
    The President's budget outlines the Administration's plan 
to build a safer and more prosperous Nation. As we consider the 
President's proposal, we must keep in mind both our Nation's 
fiscal state and the Federal Government's trust responsibility 
to Native Americans.
    Last month, the Committee held briefings with Federal 
agencies and tribal organizations to discuss the President's 
budget. From these briefings, two points were clear. First, as 
a Nation, we have to do a better job of living within our 
means, and we must use every taxpayer dollar responsibly and 
effectively. Second, we must balance the fiscal state of our 
Nation with the Federal Government's trust responsibility to 
Indian tribes, which includes funding key programs and services 
for Native communities.
    There were several positive recommendations put forth in 
the President's budget. The President's budget request included 
modest increases for some critical Indian programs, such as an 
increase in funds for health care and the repair and renovation 
of Bureau of Indian Education schools. However, there were also 
proposed cuts to other public safety, education and social 
services programs.
    As we think through the current state of tribal communities 
across our Nation, we must be mindful of our national debt and 
deficit as well as the needs of tribes. Additionally, we must 
discuss how we can make more effective and efficient use of 
Federal dollars in Indian Country. To that end today, we will 
hear from two key Federal agencies and two tribal organizations 
regrading the President's budget request.
    I want to thank our witnesses for being here today with us. 
I am looking forward to hearing your testimony.
    Before we turn to our witnesses, I want to recognize the 
Vice Chairman for his opening statement.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you so much, Chairman Hoeven. I really 
appreciate your calling this oversight hearing to discuss the 
Administration's budget proposal for fiscal year 2019.
    It is also a timely hearing in light of Congress' recently-
enacted Omnibus Appropriations Bill for fiscal year 2018. The 
Omnibus is a step in the right direction toward the Federal 
Government fulfilling its trust and treaty obligations to 
Indian Country. Unfortunately, the same can't be said of the 
Administration's fiscal year 2019 budget proposal.
    The Administration's rhetoric about respecting tribal 
sovereignty and investing in Indian Country simply does not 
align with this budget proposal. As the head of the Office of 
Management and Budget said recently, the Administration's 
budget proposal is only a ``messaging document.'' If that is 
the case, the Administration sent a very concerning message 
about its priorities for Indian Country in fiscal year 2019.
    It is totally inadequate, an insult to Indian Country with 
sweeping, irrational cuts to tribal programs in an effort to 
reduce the Federal Government. Particularly when programs 
within DOI and HHS, programs that Indian Country specifically 
sought increases for, were instead targeted for cuts. As you 
can see from this chart right here behind me, this 
Administration proposed gutting all of the programs that Indian 
Country identified as a priority.
    For example, the President's budget would eliminate the BIA 
Housing Improvement Program. As everyone can see from this 
photo, HIP dollars can have a huge impact in Indian Country. As 
Admiral Weahkee can attest, the housing needs at Zuni, where 
this photo was taken, are tremendous. The photo shows just how 
far HIP dollars can go to provide folks a place to call home. 
In this case, for an elderly Carla Alahuapo.
    HIP and many other BIA programs are pillars of the Federal 
Government's trust and treaty obligations. But yet again, they 
would be either significantly reduced or eliminated entirely. 
Infrastructure grant programs in Indian Country also take a 
hit, like the Indian Community Development Block Grant that 
Pueblos, including Santa Clara and Acoma use for elderly 
housing needs. Not to mention BIE and IHS construction 
backlogs, which at the Administration's proposed funding levels 
would take centuries to address.
    As you can see from these photos, infrastructure needs in 
New Mexico's tribal communities are very real. These are but a 
few examples of Indian Country's overall need. Although the 
President has made law and order a cornerstone of his political 
message, this budget would undermine public safety in Indian 
Country. Court systems and an effective police force go to the 
core of self-governance. Yet these programs don't escape this 
Administration's cuts either. Program cuts mean less money for 
housing block grants, less money for hospitals and schools, 
less money for roads, less money for managing Indian Country's 
natural resources, all critically important for economic 
development in Indian Country.
    I am proud that Senator Murkowski and I, along with other 
appropriators, Senator Hoeven is included in there, put 
together a responsible omnibus for Fiscal Year 2018 that 
acknowledges and respects tribal priorities. We increased 
funding for IHS by half a billion dollars and increased funding 
for the BIA and BIE by another $204 million. These are 
important steps toward funding levels that meet our solemn 
obligations to Indian Country.
    Thank you to our tribal witnesses for being here today. And 
thank you to the Administration for appearing here. I am glad 
the Administration will have the opportunity to hear directly 
from tribal representatives at this hearing. Thank you very 
much, Mr. Chairman.
    The Chairman. Are there other opening statements? Yes, 
Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Just very, very briefly. I appreciate 
the opportunity to highlight a couple of things where I think 
we have acknowledgement that there are some things that we 
entirely disagree with, with this proposed budget, but that 
there are some areas that I think we see some increases that I 
think are promising.
    I do have some issue with some of the proposals that the 
Administration has chosen to zero out. Many of our Alaskan 
tribes depend on programs like the Small and Needy Tribes 
funding, very, very important. Tribal Climate Resilience, you 
talk to my communities out in places like Kivalina or 
Shishmaref, those are very important. The Housing Improvement 
Program, the HIP program, critically, critically important for 
us. Johnson O'Malley, I think we also see some major deductions 
in social services programs that we have spent a lot of time 
coordinating with the agencies and the tribes to develop the 
most helpful and most effective social services programs. So I 
am going to be looking to those to make sure that we have 
appropriate funding.
    There are some areas that I do think I can certainly get 
behind. One is a proposal for a 5 percent set-aside for tribes 
from the Crime Victims Fund to provide services to crime 
victims. I think that is very important. Many say we need more 
than that. I agree with that, but I think that at least puts us 
going in the right direction.
    I do think we see the Administration placing its support 
with the need to increase the IHS. Again, in no way is it 
enough, and certainly the Vice Chairman here and my ranking 
member on Interior Appropriations, we know it is not enough. 
But again, the trend is in a much better direction. So we are 
going to look again to make sure that we do right in these 
accounts.
    One last area that I do have some concerns with is shifting 
the funding for the special, the diabetes program, the SDPI 
from mandatory to discretionary, especially when we are hearing 
from so many of our tribes the need to support mandatory 
funding for IHS programs. So I am going to ask for additional 
clarification from IHS on this proposal and why they are 
advocating that change.
    But I thank those from the agencies today, and again our 
tribal representatives. We have to get moving, as we start 
moving on the appropriations side of things. So this hearing 
kicks it off, right off the bat. So I appreciate the testimony 
and I appreciate the Chairman and the Ranking Member.
    The Chairman. Are there other opening statements? If not, 
then we will hear from our witnesses. Our witnesses today are 
Mr. John Tahsuda, Principal Deputy Assistant Secretary for 
Indian Affairs, U.S. Department of the Interior; Rear Admiral 
Michael Weahkee, Acting Director, Indian Health Service, U.S. 
Department of Health and Human Services, Rockville, Maryland; 
the Honorable Aaron Payment, Vice President, National Congress 
of American Indians, Washington, D.C.; and the Honorable Robert 
McGhee, Vice President, United South and Eastern Tribes, 
Nashville, Tennessee.
    I want to remind the witnesses that your full written 
testimony will be made part of the official record. So if you 
could, please keep your statement to no more than five minutes, 
so that members have time for questions. And then we will 
proceed with Mr. Tahsuda.

          STATEMENT OF JOHN TAHSUDA, PRINCIPAL DEPUTY 
           ASSISTANT SECRETARY--INDIAN AFFAIRS, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Mr. Tahsuda. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall, members of the Committee.
    Thank you for the opportunity to discuss the President's 
2019 budget request for Indian Affairs. I am John Tahsuda, the 
Principal Deputy Assistant Secretary for Indian Affairs at the 
Department of the Interior.
    The 2019 budget supports the Administration's commitment to 
empower tribal communities. This includes focusing on improving 
quality of life, creating educational and economic 
opportunities, promoting efficient and effective governance, 
preserving and fostering cultural heritage and being a steward 
of natural resources.
    Indian Affairs plays an important role in carrying out the 
Federal trust, treaty and other responsibilities to 573 
federally-recognized tribes. We serve more than 2 million 
American Indian and Alaska Natives in tribal and Native 
communities. Interior's programs maintain strong and productive 
government-to-government relationships with Native communities, 
helping to promote tribal nation-building and self-
determination.
    The 2019 budget reflects investments in important programs 
such as education, infrastructure and law enforcement. A major 
component of the 2019 budget is a focus on infrastructure. The 
Public Lands Infrastructure Fund legislative proposal will 
provide up to $18 billion to address Interior's deferred 
maintenance backlog in Bureau of Indian Education funded 
schools as well as national parks and wildlife refuges.
    Although many of the schools in the BIE system are operated 
by tribes, the BIE is still responsible for the oversight and 
maintenance of these school facilities. The estimated deferred 
maintenance backlog for BIE schools is $634 million, which does 
not include the cost of replacement for the schools in the 
worst condition. This is why the Bureau and the Department 
support this proposal and look forward to engaging further with 
Congress on this important issue.
    The budget also promotes tribal self-determination by 
supporting tribal government activities. This includes 
providing initial Federal support for the six Virginia tribes 
federally recognized by an act of Congress in January of this 
year, as well as fully supporting contract support costs. In 
addition to support of the Administration's domestic energy 
dominance and economic development goals, the 2019 budget 
request funds the community and economic development activity 
at $35.8 million and features investments in Indian energy 
activities, including resource management on tribal lands.
    Lastly, the 2019 budget focuses on protecting Indian 
Country. An additional $2.5 million for public safety and 
justice activities is specifically intended to address the 
opioid crisis, a top priority for the Administration. Funding 
will provide for the hiring of 17 additional drug enforcement 
officers, who will be instrumental in addressing this rising 
epidemic in Indian communities directly, and will allow us to 
strengthen the Indian Country presence within Federal drug task 
efforts, to keep drugs from entering reservation areas to begin 
with.
    In conclusion, the 2019 budget request maintains strong and 
meaningful relationships with Native communities and 
strengthens government-to-government relationships with 
federally-recognized tribes. The request delivers community 
services, restores tribal homelands, fulfills commitments 
related to water and other resource rights, executes fiduciary 
trust responsibilities, supports the stewardship of energy and 
other natural resources, creates economic opportunity and 
expands access to education.
    Thank you for the opportunity to appear before you today. I 
am happy to answer any questions the Committee may have.
    [The prepared statement of Mr. Tahsuda follows:]

    Prepared Statement of John Tahsuda, Principal Deputy Assistant 
       Secretary--Indian Affairs, U.S. Department of the Interior
    Good afternoon Chairman Hoeven, Vice Chairman Udall, and members of 
the Committee. Thank you for the opportunity to provide a statement on 
behalf of the Department of the Interior on the President's Budget 
Request for Fiscal Year 2019, presented to Congress on February 5, 
2018. The 2019 Budget Request for Indian Affairs is $2.4 billion.
    The Department of the Interior upholds the Federal Government's 
unique trust responsibilities by fostering government-to-government 
relationships between the Federal government and federally recognized 
Tribes, American Indians, and Alaska Natives. The 2019 budget addresses 
Federal responsibilities and tribal needs related to education, social 
services, infrastructure, and stewardship of land, water, and other 
natural resources. The budget prioritizes support for programs that 
serve the broadest service population rather than initiatives that are 
more narrowly focused. The President's budget maintains the 
Administration's strong support for the principle of tribal self-
determination and efforts to strengthen tribal communities across 
Indian Country. The budget calls for full funding for Contract Support 
Costs and Tribal Grant Support Costs which Tribes incur from managing 
Federal Indian programs.
    As the Principal Deputy Assistant Secretary for Indian Affairs, I 
have the responsibility to oversee the numerous programs within the 
Bureau of Indian Affairs and the Bureau of Indian Education, along with 
other programs within the immediate Office of the Assistant Secretary 
for Indian Affairs. Indian Affairs plays an important role in carrying 
out Federal trust, treaty, and other responsibilities to 573 federally 
recognized Indian Tribes. Our programs serve more than two million 
American Indians and Alaska Natives in tribal and native communities. 
The BIA provides direct services and funding for compacts and contracts 
for Tribes to deliver Federal programs for a wide range of activities 
necessary for community development including natural resource 
management, law enforcement, and social service programs, among many 
others in Indian Country. The BIE manages a school system with 169 
elementary and secondary schools and 14 dormitories providing 
educational services to 47,000 individual students in 23 States and 
supports 33 BIE-funded tribal colleges and universities. Indian 
Affairs' programs are built on strong and productive government-to-
government relations with Tribes.
Infrastructure Investment
    Public Lands Infrastructure Fund--Roughly 47,000 American Indian 
students and their families rely on Interior to deliver a quality 
education in a safe environment, but many of our schools are in poor 
condition. Some schools have structural issues, lack basic features 
like functional doors and windows, or are infested with mold.
    A major component of the 2019 budget is the Public Lands 
Infrastructure Fund legislative proposal, which will provide up to $18 
billion to address Interior's deferred maintenance backlog in Bureau of 
Indian Education-funded schools, as well as national parks and national 
wildlife refuges. Although many of the schools in the BIE system are 
operated by Tribes, BIE is still responsible for oversight and the 
maintenance of the school facilities. The estimated deferred 
maintenance backlog for BIE schools is $634 million, which does not 
include the cost of replacement for the schools in the worst condition.
    The Department is taking action to increase revenue from Federal 
energy leasing and development over 2018 budget projections and will 
keep 50 percent of additional revenue that is not allocated for other 
purposes, for Department infrastructure needs. The proposal complements 
the President's national infrastructure investment initiative and 
recognizes the strategic importance of long-term investment in 
America's treasures. This is why the Bureau and the Department strongly 
support this proposal and look forward to engaging further with the 
Congress on it.
    Construction--The 2019 request proposes $133.3 million in new 
funding for Bureau of Indian Affairs Construction activities. The 
request also assumes the cancellation of $21.4 million in prior year 
unobligated balances, for a net request of $111.9 million. The proposed 
budget includes $28.3 million for dam safety and maintenance, $6.5 
million for irrigation projects, $72.9 million for Education 
Construction, $10.4 million for Public Safety and Justice projects, and 
$12.0 million for facilities improvements related to regional and 
agency offices serving tribal programs operations in Indian Country 
including construction program management.
    Indian Country Roads--The BIA maintains nearly 29,000 miles of 
paved, gravel and earth surface roads; and more than 900 bridges. The 
2019 budget request includes a $28.3 million infrastructure investment 
in Road Maintenance.
Promote Tribal Self-Determination
    The 2019 proposed budget provides $291.5 million for programs that 
support Tribal Government activities. Within this, the request includes 
$157.8 million for self-governance compact activities for self-
governance tribes and $72.6 million to support Consolidated Tribal 
Government Programs for tribes operating under P.L. 93-638 contracts.
    New Tribes Funding--The budget requests $1.1 million to support new 
tribes. This includes $960,000 to provide initial Federal support for 
six Virginia Tribes federally recognized by an Act of Congress in 
January 2018.
    Contract Support Costs--The 2019 requested funding for Contract 
Support Costs is $231.0 million. The request fully supports estimated 
needs assuming BIA program funding at the 2019 request. The 2019 budget 
continues to request funding for CSC in a separate indefinite 
appropriations account to ensure full funding for this priority.
    Tribal Grant Support Costs--The 2019 request includes $74.0 million 
to fully fund estimated Tribal Grant Support Costs for tribes which 
choose to operate BIE-funded schools.
Protect Indian Country
    Public Safety Programs--The 2019 budget includes a request of 
$350.1 million for Public Safety and Justice Activities, of which 
$326.6 million directly supports 190 law enforcement programs and 96 
corrections programs run both by Tribes and by the BIA as direct 
services. The request also includes $22.1 million for Tribal Courts and 
$1.4 million for fire protection activities.
    Within this request is an increase of $2.5 million to address the 
opioid crisis in Indian country. Funding will provide for the hiring of 
17 additional drug enforcement officers who will be instrumental in 
addressing the rising epidemic in Indian communities directly and will 
allow us to strengthen the Indian Country presence within Federal drug 
task force efforts to keep drugs from entering reservation areas to 
begin with.
Support Indian Communities
    Support Economic Opportunities--In support of the Administration's 
domestic energy dominance and economic development goals, the 2019 
budget request funds the Community and Economic Development activity at 
$35.8 million and features investments in Indian energy activities, 
including resource management on tribal lands.
    Indian Guaranteed Loan Program--The 2019 budget request for the 
Indian Guaranteed Loan Program is $6.7 million which will guarantee or 
insure $108.6 million in loan principal to support Indian economic 
development.
    Human Services Programs--Sustaining families is critical to 
fostering thriving Indian communities. The Human Services activity 
request includes $115.4 million for programs providing social services 
which includes $65.8 million for Welfare Assistance, and $46.6 million 
for Socials Service and Indian Child Welfare Act protections.
Manage Trust Resources and Lands
    Natural Resource Programs--The 2019 budget request proposes $153.4 
million for natural resource management programs which include 
agriculture, forestry, water resources, and fish, wildlife and parks 
activities.
    The BIA helps to support the management of Indian forest lands by 
300 Tribes across 18.7 million acres. The budget request includes $48.9 
million for Forestry programs to support development, maintenance, and 
enhancement of forest resources in accordance with sustained yield 
principles included in forest management plans. The proposed budget 
includes $28.0 million for BIA's Agricultural and Range program to 
continue support for multiple use and sustained yield management on 
over 46 million acres of Indian trust land dedicated to crop and 
livestock agriculture. The request also includes $11.4 million for 
Fish, Wildlife and Parks and $8.6 million for Water Resources 
management activities.
    Real Estate Services Programs--To meet our fiduciary Trust 
responsibilities, the 2019 budget proposes $105.5 million for real 
estate services programs. The requested funding supports the processing 
of Indian trust-related documents such as land title and records and 
geospatial data to support land and water resource use, energy 
development, and protection and restoration of ecosystems and important 
lands. The proposed budget includes $11.0 million for probate services 
to determine ownership of Indian trust assets essential to economic 
development and accurate payments to beneficiaries.
Foster Tribal Student Success
    The BIE serves as a capacity builder and service provider to 
support Tribes in delivering culturally appropriate education with high 
academic standards to allow students across Indian Country to achieve 
success.. The 2019 budget request includes a total of $741.9 million 
for BIE programs. Funding includes $625.9 million for Elementary and 
Secondary programs, $92.7 million for Post-Secondary programs, and 
$23.3 million for Education Management. The budget prioritizes funding 
for core BIE school operations while giving lower priority to 
activities that do not directly support BIE-funded education programs 
or facilities.
Land and Water Claims Settlements
    The 2019 budget request prioritizes funding to meet Indian 
Settlement commitments, and proposes $45.6 million. Interior is 
committed to honoring enacted Indian land and water rights settlements. 
Settlements often end decades of controversy and contention among 
tribes and neighboring communities. Securing tribal and individual 
Indian rights to historic land and ensuring permanent access to a clean 
and reliable water supply is important to tribal nationhood, quality of 
life, economic security, and sustained fundamental cultural values. 
This request provides sufficient funding to complete those payments for 
the Navajo Trust Fund and the Navajo-Gallup Water Supply Project, both 
of which have enforceability dates in 2019 for BIA.
Conclusion
    This 2019 budget request maintains strong and meaningful 
relationships with Native communities, strengthens government-to-
government relationships with federally recognized tribes, promotes 
efficient and effective governance, and supports nation-building and 
self-determination. The request delivers community services, restores 
tribal homelands, fulfills commitments related to water and other 
resource rights, executes fiduciary trust responsibilities, supports 
the stewardship of energy and other natural resources, creates economic 
opportunity, and expands access to education.
    Thank you for the opportunity to appear before you today. I am 
happy to answer any questions the Committee may have.

    The Chairman. Rear Admiral Michael Weahkee.

  STATEMENT OF REAR ADMIRAL MICHAEL WEAHKEE, ACTING DIRECTOR, 
  INDIAN HEALTH SERVICE, U.S. DEPARTMENT OF HEALTH AND HUMAN 
                            SERVICES

    Mr. Weahkee. Good afternoon, Chairman Hoeven, Vice Chairman 
Udall and members of the Committee. My name is Michael Weahkee, 
Acting Director of the Indian Health Service.
    I want to thank you for your support and for the 
opportunity to testify on the President's Fiscal Year 2019 
budget. This budget advances our mission to raise the physical, 
mental, social and spiritual health of American Indians and 
Alaska Natives to the highest level. The IHS provides Federal 
health services to approximately 2.2 million American Indians 
and Alaska Natives from 573 federally-recognized tribes in 37 
States.
    The President's Fiscal Year 2019 budget proposes $5.4 
billion in totally discretionary budget authority for the 
Indian Health Service. This is an increase of $413 million 
above the continuing resolution amount, which was the 
comparison level at the time that the budget request was 
developed.
    This budget reflects the Administration's strong commitment 
to Indian Country by protecting direct clinical health care 
investments. It increases IHS's discretionary budget authority 
by 8 percent. In order to prioritize direct clinical health 
care services, the budget proposes to discontinue the Health 
Education Program and the Community Health Representatives 
Program. The budget request includes $58 million to address 
accreditation emergencies within IHS and to improve quality of 
care; $955 million for the Purchased and Referred Care Program; 
$80 million for construction of two facilities on the health 
care facility priority list; $159 million to staff six new or 
replacement health care facilities, including three joint 
venture projects; and an estimated $822 million for contract 
support costs, which remains a separate indefinite 
appropriation to guarantee full funding.
    The IHS remains committed to addressing behavioral health 
challenges, including high rates of alcohol and substance 
abuse, mental health disorders and suicide in Native 
communities. The proposed budget for these services is $340 
million. Further, the budget provides $10 billion in new 
resources across HHS to combat the opioid epidemic and serious 
mental illness. As part of this effort, the budget includes 
$150 million for IHS grants based on need for opioid abuse 
prevention, treatment and recovery support in Indian Country.
    The Specialty Diabetes Program for Indians is instrumental 
in improving access to diabetes treatment and prevention 
services in Indian communities. Diabetes-related health 
outcomes have improved significantly. The long-time trend of 
increasing rates of diabetes ended in 2011, and we have 
observed a 54 percent decrease in new cases of kidney failure 
due to diabetes among Native adults. The budget continues 
funding for this program at $150 million.
    We are working aggressively to address quality of care 
issues across our system. In spite of ongoing challenges, 
involving recruitment and retention of providers, aging 
infrastructure, and rural health facilities, today we are able 
to report progress. The Pine Ridge Hospital is back in 
compliance with a condition of participation for emergency 
services. The hospital is now in a reasonable assurance period, 
pending a full survey to determine if it has maintained 
compliance.
    The Rosebud Indian Hospital satisfied the requirements of 
the systems improvement agreement with CMS in September of 2017 
and we are now awaiting re-survey of that facility as well. We 
are also addressing concerns, Senator Udall, in your back yard, 
the Navajo area, in the Gallup Indian Medical Center, the Joint 
Commission and CMS surveys found the hospital emergency 
department out of compliance with standards and conditions of 
participation. We moved quickly to address the findings and 
efforts to restore accreditation of all services surveyed by 
the Joint Commission continue. The facility must now undergo a 
full CMS survey to ensure Medicare program compliance.
    We have achieved progress in the areas of oversight and 
management of quality. Key accomplishments include 
credentialing and privileging policy and process modernization, 
development of a standardized patient experience survey, 
establishment of primary care patient wait time standards. I am 
proud of the efforts and the commitment of the staff for the 
progress that has been made thus far. We are firmly committed 
to improving quality, safety and access to health care for 
American Indians and Alaska Natives.
    We appreciate all of your support and I am happy to answer 
any questions that you might have. Thank you.
    [The prepared statement of Mr. Weahkee follows:]

 Prepared Statement of Rear Admiral Michael Weahkee, Acting Director, 
  Indian Health Service, U.S. Department of Health and Human Services
    Good afternoon Chairman Hoeven and members of the Committee. I am 
Rear Admiral (RADM) Michael D. Weahkee, Acting Director of the Indian 
Health Service (IHS). Thank you for your support and for inviting me to 
speak with you this afternoon about the President's Fiscal Year (FY) 
2019 Budget Request for the IHS. This budget supports and advances our 
mission to raise the physical, mental, social, and spiritual health of 
American Indians and Alaska Natives to the highest level.
    The IHS, an agency within the Department of Health and Human 
Services (HHS), is responsible for providing federal health services to 
approximately 2.2 million American Indians and Alaska Natives from 573 
federally recognized tribes in 37 states. The IHS system consists of 12 
Area offices, which oversee 168 Service Units that provide care at the 
local level. Health services are provided through more than 850 
facilities managed directly by the IHS, by tribes and tribal 
organizations under authorities of the Indian Self-Determination and 
Education Assistance Act (ISDEAA), 41 Urban Indian health 
organizations, and through services purchased from private providers.
    Our budget plays a critical role in providing for a healthier 
future for American Indian and Alaska Native people. Likewise, it helps 
us maintain the progress we have made over the years. The President's 
FY 2019 Budget proposes $5.4 billion in total discretionary budget 
authority for IHS, which is $413 million above the FY 2018 Annualized 
Continuing Resolution. It also proposes Program Level funding of $6.6 
billion, which is $263 million above the FY 2018 Annualized Continuing 
Resolution.
Prioritizing Clinical Health Care Services
    The IHS provides comprehensive health care, including but not 
limited to primary medical services, dental care, behavioral health 
services, community health services, and public health services such as 
environmental health and sanitation facilities, through a network of 
608 hospitals, clinics, and health stations on and near Indian 
reservations. The budget reflects the Administration's strong 
commitment to Indian Country. Specifically, the budget protects direct 
clinical health care investments and increases IHS's discretionary 
budget authority by eight percent. In order to prioritize direct 
clinical health care services and the staffing of newly-constructed 
health care facilities, the budget discontinues the Health Education 
Program and Community Representatives Program.
    The budget requests an increased level of funding to address 
accreditation issues in the IHS system and improve quality of care. An 
additional $29 million is requested over the FY 2018 Annualized 
Continuing Resolution level for a total of $58 million in funding to 
assist IHS-operated hospitals that are at risk or out of compliance 
with the Centers for Medicare & Medicaid Services (CMS) Conditions of 
Participation. These funds will be used to address CMS findings and may 
be used to sustain operations of any affected service unit.
    The budget increases Purchased/Referred Care program funding that 
is essential for ensuring access to care by our patients by providing 
$955 million, which is $32 million above the FY 2018 Annualized 
Continuing Resolution. This program provides critical health care 
services through contracts with hospitals and other health care 
providers to purchase specialized or critical care when IHS and 
tribally-managed facilities are unable to provide the services 
directly. In addition, it supports high-cost medical care for 
catastrophic injuries and specialized care.
Alcohol and Substance Abuse, Mental Health Disorders, and Suicide
    The IHS remains committed to addressing behavioral health 
challenges, including high rates of alcohol and substance abuse, mental 
health disorders, and suicide in native communities. The proposed 
budget for these services is $340 million, which is $30 million above 
the FY 2018 Annualized Continuing Resolution. Further, the budget 
provides $10 billion in new resources across HHS to combat the opioid 
epidemic and address serious mental illness. As part of this effort, 
the budget includes an initial allocation of $150 million for IHS to 
provide multi-year grants based on need for opioid abuse prevention, 
treatment, and recovery support in Indian Country.
Special Diabetes Program for Indians
    The Special Diabetes Program for Indians (SDPI) provides grants for 
evidence-based diabetes treatment and prevention services across Indian 
Country. These funds have been instrumental in improving access to 
diabetes treatment and prevention services for American Indians and 
Alaska Natives. Since 1997:

  <bullet> 97 percent of American Indians and Alaska Natives have 
        access to diabetes clinical teams, a 67 percent absolute 
        percentage increase.

  <bullet> 95 percent of American Indians and Alaska Natives have 
        access to culturally tailored diabetes education programs, a 59 
        percent absolute percentage increase.

    These efforts have had an impact. Diabetes-related health outcomes 
have improved significantly in Indian communities since the inception 
of the SDPI. Within our communities, the longtime trend of increasing 
rates of diabetes ended in 2011. The diabetes program has proven 
successful and has contributed to a decline in new cases of kidney 
failure due to diabetes of 54 percent among Native adults from 1996 to 
2013. In addition, there has been an eight percent reduction in the 
average blood sugar level of American Indians and Alaska Natives with 
diagnosed diabetes between 1997 and 2015. Improved blood sugar control 
reduces complications from diabetes.
    The SDPI grant program provides funding for diabetes treatment and 
prevention to 301 IHS, tribal, and Urban Indian health programs. To 
ensure sustained and additional improvements for the health of American 
Indians and Alaska Natives, the FY 2019 Budget continues funding for 
this essential program at $150 million and shifts funding from 
mandatory to discretionary. Your continued support of these funds is 
saving lives, improving quality of life, and reducing the cost of care 
across Indian Country.
Health Insurance Reimbursements
    The budget assumes $1.2 billion in estimated health insurance 
reimbursements from third party collections. The collection of health 
insurance reimbursements for the provision of care to patients covered 
by Medicare, Medicaid, the Veterans Health Administration, and private 
insurance allows IHS and tribally-managed programs to meet 
accreditation and compliance standards. It also allows IHS to expand 
the provision of health care services by funding staff positions, 
purchasing new medical equipment, and maintaining and improving health 
care facilities.
Access to Quality Health Care Services through Improved Infrastructure
    The budget proposes $159 million for staffing of newly constructed 
health care facilities. This funding will support staffing and 
operating costs for three Joint Venture Construction Program (JVCP) 
projects: Muskogee (Creek) Nation Health Center, the Cherokee Nation 
Regional Health Center in Oklahoma, and the Yukon-Kuskokwim Primary 
Care in Alaska. Through JVCP agreements, IHS has partnered with the 
tribes to provide funds for staffing and facility operations while the 
tribes have invested in the design, construction, and equipment costs 
associated with the new facilities. These funds will allow the new 
facilities to expand access to health care.
    These funds also provide staffing for new or expanded IHS 
constructed facilities, including Hau'pal (Red Tail Hawk) Health Center 
in Arizona, the Fort Yuma Health Center Replacement, and the Northern 
California Youth Regional Treatment Center in California.
    The Health Care Facilities Construction budget includes funding to 
continue construction of two facilities on the priority list: the Alamo 
Health Center in New Mexico and the Dilkon Alternative Rural Health 
Center in Arizona. A total of $80 million is requested, $38 million 
below the FY 2018 Annualized Continuing Resolution.
Supporting Indian Self-Determination
    The budget supports self-determination by continuing the separate 
indefinite appropriation account for contract support costs (CSC) 
through FY 2019. Authorized and required by the ISDEAA, CSC funding 
supports certain operational costs of tribes and tribal organizations 
administering health care service programs under self-determination 
contracts and self-governance compacts. The budget includes an estimate 
of $822 million to fully fund CSC, which is $22 million above the FY 
2018 Annualized Continuing Resolution estimate. Maintaining the 
flexible funding authority of an indefinite appropriation allows the 
IHS to guarantee full funding of CSC, as required by the law, while 
protecting services funding for direct services tribes.
Quality of Care
    We are working aggressively to address quality of care issues 
across our system. In spite of ongoing challenges involving recruitment 
and retention of providers, aging infrastructure, and rural health 
facilities, today we are able to report progress.
    As a recent example, at the Pine Ridge Hospital, CMS notified us 
that its survey on February 13-15 found the hospital in compliance with 
the Condition of Participation for Emergency Services. Pine Ridge IHS 
Hospital is now in a ``Reasonable Assurance'' period to demonstrate the 
ability to maintain compliance. The Joint Commission will conduct a 
full survey with CMS deeming status to determine if Pine Ridge IHS 
Hospital has maintained compliance with all Medicare participation 
requirements. Pine Ridge IHS Hospital will be readmitted to participate 
in the Medicare program upon demonstrating full compliance by the 
second survey. I am proud of the efforts and commitment of the staff at 
Pine Ridge for the progress made thus far. We still have more work to 
do in the Great Plains to honor our commitment to American Indians and 
Native Alaskans, and I am reassured by the recent progress we have 
made.
    At Rosebud Hospital, after satisfying the requirements of the 
Systems Improvement Agreement with CMS in September 2017, the hospital 
is preparing for Joint Commission accreditation this spring. Our 
application for survey was submitted to the Joint Commission in 
January, and we look forward to their review.
    We are also addressing concerns in the Navajo Area at Gallup Indian 
Medical Center. Specifically, the concerns derive from a Joint 
Commission unannounced survey in November 2017 that also triggered a 
CMS survey in December 2017. The surveys found the hospital Emergency 
Department out of compliance with the Joint Commission standards and 
CMS Conditions of Participation. We moved quickly to address these 
issues, and the hospital remedied the Joint Commission's findings. 
Efforts to restore accreditation of all services surveyed by the Joint 
Commission continue. The facility also shifted under CMS's survey 
authority for Medicare Program compliance and will receive a full CMS 
survey.
    We developed the Quality Framework with tribal input, and brought 
together people and expertise from across the Department of Health and 
Human Services to focus efforts on improving the quality of care and 
patient safety. The Quality Framework has been a blueprint for system 
level improvements of processes and infrastructure to improve quality 
and safety throughout the agency. We have achieved remarkable progress 
in the areas of oversight and management of quality, modernizing 
credentialing and privileging policy and processes (aided by new, 
standardized software), accreditation master contracts for hospitals 
and ambulatory health centers, development of a standardized patient 
experience survey, and the establishment of primary care patient wait 
time standards. Following a year of implementation of the Quality 
Framework, IHS is moving toward sustainment of the gains and 
improvements with the development of a five-year strategic plan to 
enhance quality in all aspects of agency operations.
    I especially want to thank the Congress for the funding that has 
been provided for accreditation emergencies. These funds have been 
critical to giving IHS the flexibility to address quality issues at 
impacted facilities and to offset lost third-party revenue, which is 
critical to the operating tempo of our facilities. The requested $58 
million will be used to build on the improvements we have made to date. 
IHS does not have another reserve of funding to meet any significant 
emergency or emergent issues, and our existing reserves are simply not 
designed to meet a challenge of this magnitude.
    Despite all of the challenges, we are firmly committed to improving 
quality, safety, and access to health care for American Indians and 
Alaska Natives, in collaboration with our partners in HHS, across 
Indian country, and Congress. We appreciate all your efforts in helping 
us provide the best possible health care services to the people we 
serve to ensure a healthier future for all American Indians and Alaska 
Natives.
    Thank you and I am happy to answer any questions you may have.

    The Chairman. Thank you, Admiral.
    Mr. Payment?

   STATEMENT OF HON. AARON PAYMENT, VICE PRESIDENT, NATIONAL 
              CONGRESS OF AMERICAN INDIANS (NCAI)

    Mr. Payment. Chairman Hoeven, Vice Chair Udall and members 
of the Committee, on behalf of the National Congress of 
American Indians, thank you for holding this hearing on the 
President's Fiscal Year 2019 budget for Indian Programs.
    My name is Aaron Payment. I am the Chairperson for the 
Sioux Ste. Marie Tribe of Chippewa Indians and the First Vice 
President for the National Congress of American Indians. Again, 
thank you for your efforts to protect the Federal treaty and 
trust obligations in the budget in a non-partisan way. We are 
grateful that the draft administrative budget is just a 
starting point, and that Congress will have the final say.
    We once again will be counting on you as we seek the 
restoration of proposed cuts to many tribal programs, formula 
funding rather than grants for Department of Justice funding, 
set-asides for DOJ and the Crime Victims Fund, increases for 
the Census 2020 and other funding detailed in our written 
testimony. When it comes to the funding of tribal programs, we 
seek only those things promised and contractually obligated to 
us by the Constitution, treaties and agreements reached between 
tribal nations and the United States when tribal nations 
conceded to smaller land bases and the Federal Government 
proposed to safeguard our right to govern ourselves and to 
enable our nations to deliver essential services and the 
resources to do so the honor and integrity of the Federal 
Government depends on upholding these obligations.
    Many of the proposed draconian cuts in the draft budget 
threaten to limit or abrogate the treaty and trust obligation 
and is a clear retreat from the Federal commitments made to 
tribes. We support proposals that treat tribal governments 
equitably, such as the proposed tribal set-asides in the 
Department of Justice. Tribal parity should always be the 
driving principle for every Federal department or initiative, 
including addressing the opiate epidemic and the building and 
repairing of our infrastructure.
    We are also heartened to see increases requested for the 
Indian Health Service. NCAI, however, was alarmed to see the 
proposed eliminations of the Indian Community Development Block 
Grant, Johnson O'Malley, Low Income Energy Assistance Program, 
Community Development Financial Institutions, Tribal Energy 
Loan Guarantee and more. We urge Congress to restore these 
devastating cuts.
    The Administration's budget includes many drastic cuts. It 
includes 50 percent cuts to the BIA. This would take us back to 
the 2013 sequestration levels and adjusted for inflation, I 
have a graph here, this is lower than the 2003 levels and 21 
percent lower than the Fiscal Year 2010 levels. NCAI urges 
Congress to reject the reductions in the BIA's proposed budget. 
Instead, we urge the investment in the programs ranked by 
tribes as the most in need of increases as part of Fiscal Year 
2019 tribal budget formulation for which tribes from each BIA 
region outlined their top 10 budget items.
    I like that graph that was shown earlier, and I am going to 
talk about it a little bit. The results of this process show 
that the BIA, Social Services and ICWA scholarships and adult 
education, tribal court and aids to government, tribal 
government made up the top five priorities. Unfortunately, most 
of the programs identified by tribes as needing increases would 
receive reductions or eliminations in the draft budget. The top 
15 items identified by tribes are proposed to be eliminated. 
These are scholarships, adult education, JOM, Housing 
Improvement Program, Small and Needy Tribes. Social Services 
and ICWA would be cut by 37 percent and 27 percent. Both are 
disproportionately larger than the overall reductions in the 
Department of Interior.
    Further, BIA public safety programs include proposed 
underfunding for tribal law enforcement at 20 percent, tribal 
detention at 40 percent and tribal courts at 3 percent of 
proposed needs. Further, NCAI recommends that DOJ eliminate the 
competitive grant process that pits tribes against each other. 
We recommend using appropriations as a base funding for tribes 
to determine their own priorities. NCAI has long advocated for 
a 10 percent set-aside in OJP funding that would streamline the 
Federal funding process by which tribes receive resources.
    We were grateful to see the 3 percent tribal set-aside out 
of the Crime Victims Fund in the Fiscal Year 2018 Omnibus. We 
are hoping and looking for at least a 5 percent increase in the 
2019 budget.
    Our funding pursuant to our Constitution and treaty and 
trust responsibilities is not welfare. Reparations are based on 
race, but was prepaid by the blood, sweat and tears of our 
ancestors and the millions of acres of land, as memorialized in 
treaties and contracts that pledge health, education and social 
welfare into perpetuity. We look forward to working with this 
Committee on the Fiscal Year 2019 budget as it moves through 
Congress, to ensure Federal commitment made to tribes are 
honored in the budget.
    Megwich, thank you, and I welcome any questions you might 
have.
    [The prepared statement of Mr. Payment follows:]

  Prepared Statement of Hon. Aaron Payment, Vice President, National 
                  Congress of American Indians (NCAI)
    On behalf of the National Congress of American Indians (NCAI), 
thank you for holding a hearing on the President's FY 2019 Budget 
Request for Indian Programs. Overall, NCAI calls for restoration of 
cuts to many tribal programs, formula funding rather than grants for 
both Justice funding and opioids, a set-aside in the Crime Victims 
Fund, increases for Census 2020, and others listed below in our 
testimony.
Federal Commitments Funded in the Budget
    Tribes seek only those things promised to us and every citizen by 
the Constitution, and the solemn treaties and agreements reached 
between our tribal nations and the United States. At the founding, the 
United States dealt with our tribal governments as sovereign equals. In 
exchange for Federal protection and the promise of certain benefits our 
ancestors gave forever to the people of the United States title to the 
very soil of our beloved country. To settle the process for admission 
of new states, the thirteen original states agreed to transfer western 
land claims to the United States under the principles in the Northwest 
Ordinance, including:

         The utmost good faith shall always be observed towards the 
        Indians; their land and property shall never be taken from them 
        without their consent; and, in their property, rights, and 
        liberty, they shall never be invaded or disturbed, unless in 
        just and lawful wars authorized by Congress; but laws founded 
        in justice and humanity, shall from time to time be made for 
        preventing wrongs being done to them, and for preserving peace 
        and friendship with them.

    These provisions signify the intent of the Framers to provide for 
the governance of Indian country, a compact between the original States 
and all that followed. We have never asked anything except that these 
protections be continued. Many of the proposed deep reductions in the 
President's Budget threaten to limit this protection and these 
benefits. The proposed budget cuts to tribal governmental services, if 
enacted, would represent a clear retreat from the federal commitments 
and treaty promises made to tribes.
    The President's budget would cut the Bureau of Indian Affairs (BIA) 
by about half a billion dollars, or 15 percent. BIA Social Services 
would be reduced by more than a third, Indian Child Welfare by more 
than a quarter, and critical human services programs, law enforcement 
and courts programs, environmental protection, housing, and education 
programs would face unconscionable reductions. Infrastructure programs, 
such as the Indian Community Development Block Grant would be 
eliminated, and the Indian Housing Block Grant and road maintenance 
would be reduced.
    We support proposals that treat tribal governments equitably, such 
as the proposed set-asides in the Department of Justice for tribes. 
Tribal parity should be a principle for every other department or 
initiative as well, including addressing the opioid epidemic and 
building and repairing infrastructure. We are also heartened to see 
increases requested for the Indian Health Service (IHS).
    Throughout our testimony, we call on Congress to uphold the federal 
government's trust responsibility to tribal nations. When tribal 
nations agreed to accept a smaller land base, the federal government 
promised to safeguard our right to govern ourselves and to enable 
tribal governments to deliver essential services and provide them 
resources to do so effectively. That is the trust relationship embodied 
in the U.S. Constitution. Congress and the Administration is 
responsible for carrying out that trust in the federal budget.
Summary of Major Changes
    As Congress has the final say on discretionary spending, NCAI notes 
the following proposals in the President's budget as significant. Some 
of the proposed eliminations include:

    Eliminations

  <bullet> Indian Community Development Block Grant (in Housing and 
        Urban Development)
  <bullet> Low Income Home Energy Assistance Program (LIHEAP)
  <bullet> Indian and Native American Program (INAP in Department of 
        Labor)
  <bullet> Community Development Financial Institutions, Native 
        American program (Treasury)
  <bullet> Tribal Energy Loan Guarantee Program
  <bullet> Eliminations within BIA include:

          --Small and Needy Tribes
          --Housing Improvement Program ($10 million)
          --Tribal Climate Resilience
          --Alaska Native Programs
          --Johnson O'Malley Program ($15 million)
          --Scholarships and Adult education ($35 million)

    NCAI requests that Congress restore these eliminations. When 
programs are zeroed out in the President's budget, even if they are 
eventually restored, holdbacks of zeroed out programs cause a 
disruption of high priority programs throughout Indian Country.
Major Reductions
  <bullet> Native American Housing Block Grant cut from $654 million to 
        $600 million, -8.2 percent

  <bullet> Bureau of Indian Affairs cut by $433 million, or -15.6 
        percent

        Major Reductions in BIA include

          --Social Services cut by $19 million, or -37 percent
          --Indian Child Welfare Act cut by $5 million, or -27 percent
          --Welfare Assistance cut by $8.4 million, or -11 percent
          --Rights Protection Implementation cut by $14.7 million, or -
        37 percent
          --Job Placement and Training cut by $4.4 million, or -35 
        percent

    NCAI requests that Congress reject these proposed reductions. It is 
a particular concern that some proposed cuts target the programs 
identified by tribes through budget formulation as top ranked programs 
needing increases.

Proposed Increases
  <bullet> Indian Health Service Clinical Services, increase of $353 
        million to expand direct health care services.

  <bullet> IHS would receive $150 million for Opioid multi-year 
        competitive grants based on need; this is out of the $10 
        billion proposal for opioid funding.

  <bullet> In the Department of Justice, the budget proposes:

          --$115 million for Indian tribes through a 5 percent set-
        aside from the Crime Victims Fund for providing services to 
        crime victims. Indian tribes have never directly received 
        funding from the Crime Victims Fund;

          --A 7 percent set-aside from across the Office of Justice 
        Programs totaling $93.8 million for tribal assistance.

Bureau of Indian Affairs

    The 2019 President's budget for Indian Affairs is $2.4 billion in 
current appropriations, a 15.6 percent decrease from the FY 2018 CR 
level. Nearly every line item in the BIA budget would see reductions in 
the FY 2019 budget request. One increase would be $2.5 million to fight 
the opioid epidemic, to ``expand BIA capacity to address the increase 
in drug-related activities through interdiction programs to reduce drug 
use, distribution, and drug related crime.'' The BIA's budget provides 
funding for tribal base operations, including social services, 
education, road maintenance, water resources, forestry, law 
enforcement, tribal courts, and many other core governmental services.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    The proposed overall level for BIA/BIE would take funding in 
nominal dollars back to the FY 2013 sequestration levels. However, 
adjusted for inflation, the proposed funding is lower than any enacted 
amount going back to FY 2003, and 21 percent lower than the level in FY 
2010.
    NCAI urges Congress to reject the steep reductions in the BIA's 
proposed budget and instead invest in the programs ranked as most in 
need of increases as a part of the FY 2019 tribal budget formulation 
process. Figure 2 shows the roll up of the top 19 preferred programs 
identified by tribes as part of the Tribal Interior Budget Council 
(TIBC). \1\
---------------------------------------------------------------------------
    \1\ Indian Affairs Fiscal Year 2019 Budget Formulation Guidelines, 
October 2016, accessible at http://www.ncai.org/
2019_IA_Budget_Formulation_Guide_-3-.pdf
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    As part of the FY 2019 budget formulation process, tribes from each 
BIA region completed a survey to outline which 10 budget lines they 
would prefer to provide increased funding to and why. The results of 
this process show that BIA Social Services, Indian Child Welfare Act 
(ICWA), Scholarships and Adult Education, Tribal Courts, an Aid to 
Tribal Government made up the top five.
    Unfortunately, most of the programs identified by tribes as needing 
increases in FY 2019 would receive reductions in the FY 2019 
President's Budget Request.
    Four programs in the top 15 identified by tribes were proposed to 
be eliminated in the President's Budget: Scholarships and Adult 
Education, Housing Improvement Program, Johnson O'Malley Program, and 
Small and Needy Tribes.
    Social Services and ICWA would be cut 37 percent and 27 percent 
respectively, both cuts disproportionately larger than the overall 
reduction for the Department of the Interior, which would see a 
reduction of 16.8 percent.
    For Public Safety and Justice Programs, Indian Country faces 
funding shortfalls in a number of areas while at the same time facing 
increased need due to a climbing drug trend. The BIA submitted a report 
to Congress in 2016 estimating that to provide a minimum base level of 
service to all federally-recognized tribes, $1 billion is needed for 
tribal law enforcement, $1 billion is needed for tribal courts, and 
$222.8 million is needed to adequately fund existing detention centers. 
Based on recent appropriation levels, BIA is generally funding tribal 
law enforcement at about 20 percent of estimated need, tribal detention 
at about 40 percent of estimated need, and tribal courts at a dismal 3 
percent of estimated need.
    The BIA Office of Justice Services (OJS) reports that at the end of 
2014 and into 2015, Indian Country faced a drastic increase in violent 
crime, partially due to a change in Uniform Crime Reporting (UCR) 
definitions, but also due to increasing drug trends. \2\ Anytime the 
drug trend climbs, so does violent crime and property crime. In 2016 
OJS had an increase in methamphetamine seizures of 106 percent over the 
year before and an increase of opioid seizures of 56 percent. With 
about 30 BIA criminal investigators nationwide to address that, the 
opioid and meth trends require a much higher level of staffing to 
adequately address the issue. NCAI recommends an increase in funding 
for BIA law enforcement and detention of $353 million for FY 2019.
---------------------------------------------------------------------------
    \2\ Bureau of Indian Affairs, Office of Justice Services, 
Presentation 
November 8-9, 2017 to the Tribal Interior Budget Council http://
www.ncai.org/PS-J_Presentation_TIBC_Nov_2017.pptx
---------------------------------------------------------------------------
    Similarly, BIA Social Services help to address the underlying such 
as drug addiction, poverty, and violence that tend to create and 
perpetuate the circumstances that produce victims. Sub-activities 
include services in the areas of family and domestic violence, child 
abuse and neglect, and protective services. However, many tribes' 
Social Services departments are understaffed and experience high 
turnover rate. As an example, in FY 2017, Osage Nation case workers 
averaged 25-30 cases a month each. This exceeds the standard of one 
case worker for every 15 cases administered. A lack of increased yearly 
funding tends to hinder these protective services.
    With child welfare, tribal governments receive approximately one-
half of one percent of all federal child welfare funds while their 
children represent approximately 2 percent of the United States 
population under the age of 18 and 4 percent of the child welfare 
population. \3\ ICWA funding is the foundation of most tribal child 
welfare programs. In order for AI/AN children and families to get the 
best possible services at home and in state systems and allow tribes to 
assist state agencies and courts, adequate funding must be provided to 
tribal governments to support their child welfare programs. At the time 
that ICWA was passed in 1978, Congress estimated that between $26 
million-$62 million would be required to fully fund tribal child 
welfare programs on or near reservations.45 Even after recent increases 
in FY 2015, current funding levels fall far short of this estimate--
especially after adjusting for inflation.
---------------------------------------------------------------------------
    \3\ Stoltzfus, E. (2014). Child welfare: An overview of federal 
programs and their current funding. Washington, DC: Congressional 
Research Service. Retrieved from http://digitalcommons.ilr.cornell.edu/
cgi/viewcontent.cgi?article=2327&context=key_workplace
---------------------------------------------------------------------------
    The need for every other program listed in the Figure 2 has similar 
levels of shortfall. NCAI urges Congress to invest in these areas as 
well as providing an overall increase to the BIA's budget to support 
the base budget for core tribal programs.

Indian Health Service

    One agency that would receive increases in the President's budget 
is the Indian Health Service. Indian Health Service (IHS). Overall, IHS 
would receive $5.4 billion, $413 million over FY 2018 CR and an 8 
percent increase over the current FY 2018 CR. However, the proposal 
would also cut or eliminate several important programs at IHS. To put 
the request in context, the IHS Tribal Budget Formulation Workgroup 
recommended $6.4 billion in FY 2019.
    A troubling proposal would be to move the Special Diabetes Program 
for Indians (SDPI) from mandatory to discretionary. Congress would 
provide funding to SDPI through the annual appropriations process. This 
proposal moves in opposite policy direction of what tribes have been 
calling for--to make the entire IHS budget mandatory instead of 
discretionary. \4\
---------------------------------------------------------------------------
    \4\ NCAI Resolution MKE-17-011, Reclassification of IHS Budget to 
Mandatory Spending Program, accessible at http://www.ncai.org/
resources/resolutions/reclassification-of-ihs-budget-to-mandatory-
spending-program
---------------------------------------------------------------------------
    The President's Budget includes $10 billion to combat the opioid 
epidemic. IHS would receive $150 million ``to provide multi-year 
competitive grants based on need for opioid abuse prevention, 
treatment, and recovery support in Indian Country.'' \5\ Competitive 
grants are not the best way to administer this funding, and we instead 
request formula funding.
---------------------------------------------------------------------------
    \5\ U.S. Department of Health and Human Services FY 2019 Budget in 
Brief.
---------------------------------------------------------------------------
    While the opioid crisis is plaguing communities across the country, 
studies indicate that American Indians and Alaska Natives (AI/ANs) are 
impacted at a higher rate than other groups. According to the Centers 
for Disease Control, the drug overdose death rates for AI/ANs in 
nonmetropolitan areas increased by more than 500 percent between 1999 
and 2015. In addition, pregnant AI/AN women are nearly 9 times more 
likely than others to be diagnosed with opioid dependency or abuse. The 
epidemic has even led several tribal communities to declare public 
health emergencies.
    Indian Country is resilient and determined to eliminate this deadly 
crisis from our communities. Many tribal nations have invested their 
own limited resources on prevention, treatment, recovery, and public 
safety. However, Indian Country needs Congress to uphold its trust and 
treaty responsibility. Congress missed a significant opportunity when 
it failed to provide direct funding to tribal communities in the 21st 
Century Cures Act. While we work diligently to remedy that situation, 
Congress has the chance to do the right thing at the outset as it 
finalizes funding for fiscal year 2018.
    Accordingly, it is critical that Congress allocates a portion of 
the $6 billion for combatting the opioid epidemic that was included in 
the recent budget agreement to address the unique needs of Indian 
Country. NCAI strongly encourages Congress to allocate funding directly 
to tribal communities in order to address this crisis in a flexible and 
culturally relevant manner.

Department of Justice

    The President's budget proposal for FY 2019 includes funding for 
several tribal programs at DOJ. Specifically, funding in the bill 
includes:

  <bullet> $115 million for Indian tribes through a 5 percent set-aside 
        from the Crime Victims Fund for providing services to crime 
        victims. Indian tribes have never directly received funding 
        from the Crime Victims Fund;

  <bullet> A 7 percent set-aside from across the Office of Justice 
        Programs totaling $93.8 million for tribal assistance. This 
        compares to a 7 percent set-aside from certain OJP and OJJDP 
        programs for FY 17 and is a significant increase in funding 
        overall over FY 17 levels;

  <bullet> $10 million for Community Oriented Policing Services Tribal 
        Law Enforcement. In FY 16, this was funded at $30 million. For 
        FY 17, the Attorney General has the discretion to take up to 7 
        percent from COPS programs overall for tribal assistance. The 
        FY 19 budget proposal eliminates the COPS Office and merges the 
        program into the Office for Justice Programs (OJP).

  <bullet> An estimated $39.25 million for the Office on Violence 
        Against Women's (OVW) Grants to Tribal Governments Program 
        through statutory set-asides from other appropriated programs. 
        This is a slight increase over FY17 funding levels.

  <bullet> An estimated $6.739 million for OVW's Tribal Coalitions 
        Program through statutory set-asides from other OVW 
        appropriations. This is a slight decrease from FY17 funding 
        levels.

  <bullet> An estimated $3.5 million for OVW's Tribal Sexual Assault 
        Services Program through statutory set-asides from other OVW 
        appropriations. This is the same level of funding as FY 17.

  <bullet> $4 million for implementation of Special Domestic Violence 
        Criminal Jurisdiction. This is the same level of funding as FY 
        17.

  <bullet> $1 million for research on violence against Native women. 
        This is the same level of funding as FY 17.

  <bullet> $500,000 for the National Indian Country Clearinghouse on 
        Sexual Assault. This is the same level of funding as FY 17.

Tribal Grants across the Department of Justice
    NCAI recommends that DOJ eliminate competitive grant funding 
process and utilize Justice Department appropriations as base funding 
where tribes and tribal courts themselves determine their own 
priorities.
    One of the most significant issues with DOJ funding is that it is 
competitive funding awarded at the discretion of DOJ. In order to 
obtain this funding, tribes--on behalf of their justice systems--must 
compete against each other under DOJ's priorities and guidelines. In 
the end, often the tribes that have the financial and human resources 
to employ experienced grant writers end up receiving funding, while the 
under-resourced tribes may be left without. Moreover, tribes cannot 
count on funding continuing beyond the current grant period, and Indian 
Country has numerous stories of successful programs disappearing at the 
end of a two- or three-year grant cycle.
    Tribal governments have been asking for reforms to the DOJ grant 
making process for years in order to reduce administrative 
inefficiencies, improve program effectiveness, and increase the ability 
of tribal governments to leverage available DOI and DOJ funding to best 
address the comprehensive public safety and justice needs in their 
communities. Beginning in 2012, Congress has responded to this request 
from tribal leaders by appropriating a fixed amount for ``tribal 
assistance'' rather than appropriating funds for specifically 
authorized tribal programs. This approach gives DOJ considerable 
flexibility to work with tribal governments to determine how best to 
administer the appropriated funds. In FY 17, Congress shifted from a 
lump sum for tribal assistance to a percentage set-aside model for the 
first time, creating a 7 percent tribal set-aside from some COPS and 
OJP programs. Appropriators carved out several of the largest 
appropriation lines from the tribal allocation, however, resulting in 
an overall tribal funding decrease from FY16 levels. Both the House and 
Senate CJS bills for FY18 that are currently pending include a 7 
percent tribal allocation from across a wider range of OJP and COPS 
programs. If enacted, this would help restore funding levels for DOJ 
tribal justice programs to a more appropriate level.
    DOJ is currently engaged in government-to-government consultation 
with Indian tribes about its grant-making process, which we hope will 
improve the effectiveness of DOJ funding in tribal communities.
OJP Tribal Set-Aside
    A flexible tribal set-aside from across OJP programs would allow 
for a more flexible funding structure at DOJ. In 2010, the Department 
of Justice launched its Coordinated Tribal Assistance Solicitation 
(CTAS). CTAS attempts to streamline the grant application process for 
tribes, enabling them to submit a single application for DOJ programs, 
as opposed to previous years in which they were required to submit 
multiple grant applications. However, this streamlined application 
model still results in multiple grant awards with separate reporting 
requirements, award periods, and grant managers. CTAS will not achieve 
its intended purpose of streamlining tribal grants until it is 
accompanied by a streamlined funding mechanism.
    NCAI has been advocating for a 10 percent OJP tribal set-aside that 
would streamline the federal funding process by which tribes receive 
resources to establish tribal courts; assist in developing detention 
facilities; provide legal assistance; develop and maintain juvenile 
delinquency prevention programs; and provide substance abuse prevention 
programs. Further, the tribal set-aside gives tribes the flexibility to 
develop a comprehensive strategy on how best to spend those resources. 
It would also create new possibilities for coordinating BIA and DOJ 
funding to reduce inefficiencies and unnecessary administrative costs.
Crime Victims Fund 5 percent set-aside
    The Victims of Crime Act (VOCA) is the largest source of federal 
funding for crime victims. Currently, the Crime Victims Fund (CVF) 
contains more than $12 billion collected as fines and penalties in 
federal criminal cases. In FY 2015, distributions from the Crime 
Victims Fund were increased more than three times to over $2.3 billion. 
In FY 2016 2017, distributions increased again to more than $3 billion. 
Despite having the highest rates of crime victimization in the country, 
none of these funds are directed to tribal governments. Instead, tribal 
governments are forced to rely on pass-through funding from the states. 
Over the past five years, states have passed-through less than 0.5 
percent of available funds. NCAI recommends that 5 percent of CVF 
distributions should be directed to tribal governments in order to 
ensure that tribal crime victims are able to access victim services and 
victim compensation.
Department of Labor, Employment and Training
    The President's proposed FY 2019 budget zeroes out funding for the 
Department of Labor's Division of Indian and Native American Programs 
(DINAP). DINAP is a vital workforce development division specifically 
dedicated to working with tribal nations and Native organizations--
specifically Workforce Innovation and Opportunity Act (WIOA) Section 
166 grantees--to support the provision of quality employment and 
training services to unemployed and low-income Native people. As the 
only federal employment and job training program that serves American 
Indians and Alaska Natives who reside both on and off reservations, it 
is imperative that funding be maintained at an adequate level for the 
WIOA Section 166 program.
Department of the Treasury
    Of great concern to Indian Country is the President's proposal to 
eliminate funding for Community Development Financial Institutions 
(CDFIs) through the CDFI Fund. In FY17, Congress appropriated $15.5 
million for the Native American CDFI Assistance (NACA) Program, which, 
according to the Treasury Department, translates to $15.395 million in 
annualized CR funding for FY18. The President's FY19 Request would 
eliminate funding for the NACA program and the three other 
discretionary CDFI grant programs.
    The Native Initiative of the CDFI Fund is an important program that 
expands access to capital for individuals and small businesses in 
Indian Country. The NACA program makes awards that assist community 
development financial institutions (CDFIs) in increasing their lending 
services and financial products, and in building their own internal 
capacity to serve their target markets. Native CDFIs provide a wide 
range of low interest loans to microenterprises, small businesses, 
consumers, and for housing and homeownership. Native CDFIs also offer 
financial education and entrepreneurial development training, homebuyer 
education and foreclosure prevention counseling, credit counseling, 
small business planning, debt relief counseling, counseling to improve 
financial capability, match savings programs called Individual 
Development Accounts, and free tax preparation services in Native 
communities across the country. NCAI urges Congress to restore the 
Native American CDFI Assistance program and appropriate $16 million for 
the program in FY 2019.
Department of Energy

------------------------------------------------------------------------
                                                                 FY2019
      (Dollars in millions)        FY 2017   FY 2018   FY 2019     v.
                                   Enacted    Est.     Request   FY2017
------------------------------------------------------------------------
Office of Indian Energy Policy          18        10        10        -8
 and Programs (DA)
Tribal Indian Energy Loan                9         9         0        -9
 Guarantee Program
------------------------------------------------------------------------

    The Office of Indian Energy Policy and Programs provides technical 
assistance, education and capacity building, and financial assistance 
to tribal governments. It also coordinates activities across the 
Department, and works with tribes, tribal organizations, and other 
agencies to promote tribal energy initiatives.
    In FY19, the Department of Energy would receive $10 million to fund 
the Office of Indian Energy Policy and Programs. This marks a 
significant budgetary cut of $8 million dollars compared to FY2017 
levels. An $8 million dollar reduction further limits the services and 
amount of resources available to tribes who are planning energy and 
infrastructure projects. Limitations on tribal energy development 
continue to be problematic for many tribes due to a lack of access to 
capital, capacity issues, and the complicated legal and regulatory 
structure governing the use of Indian lands.
    The Tribal Indian Energy Loan Guarantee Program, which was 
authorized by the Energy Policy Act of 2005, received an appropriation 
for the first time in FY17. Congress provided $8.5 million for the loan 
guarantee and $500,000 for administrative expenses. The President's 
Request would eliminate funding for this program.
Census Bureau and the 2020 Census
    The U.S. population is enumerated every 10 years and census data 
are used to allocate Congressional seats, electoral votes, and is the 
basis for funding allocations for federally funded programs. Federal 
funding for Indian schools, Indian education programs, Indian health 
programs, Indian housing programs, water and sewage projects, roads and 
economic development are based on data collected by the Census Bureau 
every ten (10) years. The allocation of congressional seats across the 
United States are directly tied to data collected by the U.S. Census. 
Public Law No. 94-171 data is used for redistricting at the federal, 
state, and local levels and an accurate count is necessary to ensure 
that American Indian and Alaska Native voters have an equal voice in 
the political process of non-tribal elections.
    However, in the 2010 Census, the Census Bureau estimates that 
American Indians and Alaska Natives living on reservations or in Native 
villages were undercounted by approximately 4.9 percent, more than 
double the undercount rate of the next closest population group. 
Additionally, uncertainty about FY 2017 funding levels and lack of 
appropriations resulted in the Census Bureau canceling planned field 
tests on the Standing Rock Reservation in North and South Dakota and 
the Colville Reservation and Off-Reservation Trust land in Washington 
State, which eliminated critical testing of methods for the 2020 Census 
for counting people in tribal areas lacking street addresses, testing 
methods of making in-person counts in Native households, and 
determining where and how to use oversampling to counteract the 
undercount facing Native people living on reservations and in Native 
villages. Inadequate funding has compelled the Census Bureau to 
announce ``pauses'' and modifications for key 2020 Census activities, 
which could greatly diminish the Bureau's ability to take an accurate, 
cost-effective census and is expected to increase the disproportionate 
undercount of American Indian and Alaska Natives, especially those 
living in rural, low-income, geographically isolated, and/or 
linguistically isolated households.
    The Census Bureau must have a significant funding ramp-up and 
receive the funding on time for the next two years, to ensure a fair 
and accurate census--one that counts all communities including Indian 
County.
    To keep 2020 Census preparations on track and preserve other vital 
Census Bureau data, Congress should allocate $4.735 billion for the 
U.S. Census Bureau in FY2019, which is $933.5 million above the 
president's request, but only $475.5 million above the Commerce 
Department's own cost estimate for 2020 Census activities. Here's the 
breakdown of our FY2019 funding recommendation (compared to the 
president's request):

  <bullet> +$912.5 million for 2020 Census preparations and early 
        implementation, for a total of $3.928 billion

  <bullet> +$21 million to restore vital ongoing economic and 
        demographic surveys to their FY2017 funding level of $270 
        million in the Current Population and Surveys account

Conclusion
    For a nation that bases its greatness to a significant degree on 
its rule of law, treaties and intergovernmental agreements carry 
paramount importance. We look forward to working with this Committee as 
the FY 2019 budget moves through Congress to ensure federal commitments 
made to tribes are honored in the FY 2019 budget.

    The Chairman. Thank you, Mr. Payment.
    Mr. McGhee?

 STATEMENT OF HON. ROBERT McGHEE, VICE PRESIDENT, UNITED SOUTH 
                       AND EASTERN TRIBES

    Mr. McGhee. Chairman Hoeven, Vice Chairman Udall and 
members of the Committee, thank you for the opportunity to 
testify today and for your willingness to conduct an oversight 
hearing on the President's budget request for Fiscal Year 2019.
    My name is Robert McGhee, Vice President of the Porch Band 
of Creek Indians. I am here today in my capacity as the Vice 
President of the United South and Eastern Tribes Sovereignty 
Protection Fund. As is acknowledged by the 100th Congress, the 
United States owes an historical debt to tribal nations. This 
debt includes many injustices that Native people have suffered 
as a result of Federal policy, including Federal actions that 
sought to terminate tribal nations and assimilate Native 
people.
    It also involves a ceding of our land holding and natural 
resource, oftentimes by force, to the United States, resulting 
in perpetual trust obligation to tribal nations. These 
resources are the very foundation of this Nation and have 
allowed the United States to become the wealthiest and the 
strongest world power in history. Federal appropriations to 
Indian Country are simply a repayment on this debt.
    This is not merely a question about addressing poverty or 
needs. Our relationship is more than this. This is ultimately a 
question about honor, about fulfilling commitments and 
promises. A great nation keeps its word. America must fulfill 
its promise to us in not just words, but action.
    While this Administration claims to prioritize Indian 
Country, this budget request reveals otherwise. It proposes 
deep cuts to the Bureau of Indian Affairs, eliminates and makes 
changes to the Indian Health Service programs without 
consultation, and a host of other eliminations and cuts, both 
directly and indirectly impacting Indian Country.
    Like Senator Udall mentioned, we are being told that this 
request is just a messaging document, and that if Indian 
Country does not agree with its proposals, we should look to 
Congress to ensure the trust responsibility is delivered upon. 
While we understand that only Congress has the power to 
appropriate funds, the Administration is sending a powerful 
negative message to Indian Country. In reducing, eliminating 
and calling into question the constitutionality of Federal 
Indian programs, this Administration is ignoring and 
undermining its trust responsibility to tribal nations. This is 
unacceptable.
    Because of our history and our unique relationship with the 
United States, the trust obligation of the Federal Government 
to Native peoples, as reflected in the Federal budget, is 
fundamentally different from ordinary discretionary spending 
and should be considered mandatory in nature. Recently, some in 
Congress have called for mandatory funding for IHS. We strongly 
support this proposal, which is more consistent with the 
Federal trust obligation, and urge that this be expanded to 
include all Federal Indian programs.
    Continued underfunding results in tribal nations having to 
subsidize greater and greater levels of the trust obligation, a 
violation of our sacred agreement that has persisted, 
regardless of Administration. We urge this Committee and 
Congressional appropriators, as they have previously, to reject 
the deep cuts found in this President's request and work to 
fund the trust obligation.
    Now I would like to turn to some of the specific comments 
we have on the President's budget request. Regarding the 
proposals for infrastructure package, it is critical that 
tribal nations have direct access to funding available via any 
infrastructure package. While we acknowledge that the 
President's infrastructure plan does state that some money will 
be set aside for tribal nations, additional details remain 
unclear. The President's plan also proposes to streamline 
infrastructure permitting.
    We are concerned that without strong tribal consultation 
and cultural review requirements, these proposals could serve 
to undermine tribal sovereignty and the protection of cultural 
resources and public health.
    The request also allocates funding from the BIA budget for 
the reorganization of the Department of Interior. The Secretary 
has yet to significantly consult with or provide much detail to 
tribal nations on the reorganization of the Department. All 
that we are aware of is meetings held with Federal employees 
and other units of government, as well as draft regional plans.
    The request for Indian Affairs is a 15.6 percent decrease 
from the Fiscal Year 2018 CR and a 20 percent decrease from the 
Omnibus. Nearly every line item in the BIA budget would see 
reductions. However, the Interior's budget justification 
describes the request in the following way: ``The 2019 budget 
supports the Administration's commitment to help promote tribal 
nation-building and self-determination, empower tribal 
communities, foster tribal self-sufficiency, create educational 
and economic opportunities, ensure safe Indian communities, 
preserve and foster cultural heritage, and steward natural 
resources.'' From our perspective, it is difficult to see how 
any of this can be true, considering the deep reductions and 
eliminations found in the request.
    The Fiscal Year 2019 budget request for IHS is 8 percent 
above the 2018 CR, a slight decrease from the Omnibus. We 
strongly support the increases to the chronically under-funded 
agency. Despite these increases, we and others in Indian 
Country are strongly opposed to the elimination of the 
Community Health Representatives Program, as well as other 
eliminations and decreases found in the request. Finally, the 
request also proposes to move Special Diabetes Programs from 
mandatory to discretionary spending.
    In closing, while we take a firm position that all members 
of Congress have an obligation to tribal nations, the members 
of this Committee have a greater role in understanding and 
working toward fulfilment of this obligation. As leaders who 
have consistently demonstrated a true understanding of this 
commitment, we implore this Committee to lead the change within 
Congress that is necessary to improve how the United States 
views, honors and fulfills its promises to Indian Country. The 
Federal budget is a reflection of this commitment. We 
recognizes that there are many causes and issues that this body 
considers. However, we ask that you always remember to seek and 
deliver upon this Nation's first promise to its First People, 
the trust obligation. Thank you.
    [The prepared statement of Mr. McGhee follows:]

Prepared Statement of Hon. Robert McGhee, Vice President, United South 
                           and Eastern Tribes
    Chairman Hoeven, Vice Chairman Udall, and members of the Senate 
Committee on Indian Affairs (SCIA): thank you for the opportunity to 
testify today and for your willingness to conduct an oversight hearing 
on the President's shameful Budget Request for Fiscal Year (FY) 2019. 
My name is Robert McGhee, Vice Chairman of the Poarch Band of Creek 
Indians. I am here today in my capacity as Vice President of the 
Executive Officers Committee of the Board of Directors for United South 
and Eastern Tribes Sovereignty Protection Fund (USET SPF).
    USET SPF represents 27 federally-recognized Tribal Nations from 
Texas to Florida to Maine. \1\ USET SPF member Tribal Nations are 
within the Eastern Region and Southern Plains Region of the Bureau of 
Indian Affairs (BIA) and the Nashville Area of the Indian Health 
Service (IHS), covering a large expanse of land compared to other 
regions. Due to this large geographic area, USET SPF Tribal Nations 
have great diversity in cultural traditions, land holdings, and 
resources. This allows our region to mirror the great diversity found 
in Indian Country nationwide.
---------------------------------------------------------------------------
    \1\ USET SPF member Tribal Nations include: Alabama-Coushatta Tribe 
of Texas (TX), Aroostook Band of Micmac Indians (ME), Catawba Indian 
Nation (SC), Cayuga Nation (NY), Chitimacha Tribe of Louisiana (LA), 
Coushatta Tribe of Louisiana (LA), Eastern Band of Cherokee Indians 
(NC), Houlton Band of Maliseet Indians (ME), Jena Band of Choctaw 
Indians (LA), Mashantucket Pequot Indian Tribe (CT), Mashpee Wampanoag 
Tribe (MA), Miccosukee Tribe of Indians of Florida (FL), Mississippi 
Band of Choctaw Indians (MS), Mohegan Tribe of Indians of Connecticut 
(CT), Narragansett Indian Tribe (RI), Oneida Indian Nation (NY), 
Pamunkey Indian Tribe (VA), Passamaquoddy Tribe at Indian Township 
(ME), Passamaquoddy Tribe at Pleasant Point (ME), Penobscot Indian 
Nation (ME), Poarch Band of Creek Indians (AL), Saint Regis Mohawk 
Tribe (NY), Seminole Tribe of Florida (FL), Seneca Nation of Indians 
(NY), Shinnecock Indian Nation (NY), Tunica-Biloxi Tribe of Louisiana 
(LA), and the Wampanoag Tribe of Gay Head (Aquinnah) (MA).
---------------------------------------------------------------------------
Legal and Constitutional Basis for the Fiduciary Trust Responsibility
    From the earliest days of the United States, the Founders 
recognized the importance of America's relationship with Tribal Nations 
and Native peoples. They wove important references to those 
relationships into the Constitution (e.g., Art. I, Section 8, Cl. 3 
(Indian Commerce Clause); Article II, Section 2, Cl. 2 (Treaty Clause).
    Tribal Nations influenced the Founders in the development of the 
Constitution as recognized by the 100th Congress, when the Senate and 
the House passed a concurrent resolution acknowledging the ``historical 
debt'' the United States owes to Tribal Nations.

         ''[O]n the occasion of the 200th Anniversary of the signing of 
        the United States Constitution, acknowledges the historical 
        debt which this Republic of the United States of America owes 
        to the Iroquois Confederacy and other Indian Nations for their 
        demonstration of enlightened, democratic principles of 
        government and their example of a free association of 
        independent Indian nations;. . . .'' \2\
---------------------------------------------------------------------------
    \2\ S. Con. Res. 76, 100th Congress.

    One has only to walk the halls of the Capitol to see many works of 
art and sculpture that depict the central role that Tribal Nations have 
played in the development of America's national identity. Not depicted 
on the walls of the Capitol are many of the injustices that Native 
peoples have suffered as a result of federal policy, including federal 
actions that sought to terminate Tribal Nations, assimilate Native 
people, and to erode Tribal territories, learning, and cultures. Where 
these injustices are depicted, our tragedies are romanticized \3\ and 
told through a revisionist lens. The true story involves the cession of 
vast land holdings and natural resources, oftentimes by force, to the 
United States out of which grew an obligation to provide benefits and 
services in perpetuity to Tribal Nations. These resources are the very 
foundation of this nation, and have allowed the United States to become 
the wealthiest and strongest world power in history. Federal 
appropriations to Tribal Nations and Native people are simply a 
repayment on this perpetual debt.
---------------------------------------------------------------------------
    \3\ See https://www.aoc.gov/capitol-hill/native-americans-art
---------------------------------------------------------------------------
    The Indian provisions in the Constitution were given immediate life 
in treaties that the United States entered into with Tribal Nations 
beginning with the Treaty with the Delaware in 1778 and continuing 
through another 373 treaties. Additionally, in the first decades of the 
United States, numerous laws were enacted addressing the details of the 
Federal-Tribal relationship (e.g., Trade and Intercourse Acts of 1790, 
1793, 1796, 1799, 1802, and 1834), even as the Federal courts defined 
the Federal government's trust obligation to Indian nations (e.g., 
Cherokee Nation v. Georgia (1831)). This period reflected an 
acknowledgement of and respect for our independent and sovereign 
existence, with the United States taking action within our lands only 
after securing our consent, including through treaty-making.
    As it became more powerful and maintaining strong relations with us 
became less necessary, the United States quickly moved from an approach 
based on consent to an approach based upon the notion of domestic 
dependency and plenary authority. Notwithstanding the Constitutional 
foundation, the federal government engaged in many actions that 
betrayed the treaties and trust obligation to Tribal Nations, such as 
the seizure of Tribal lands and the forced assimilation efforts of the 
Indian boarding school system. Fortunately, Tribal efforts to exert our 
sovereign rights in collaboration with our federal partners have led to 
more enlightened policies since the boarding school era, reflected in a 
host of laws that support Tribal sovereignty and are critical to the 
vitality and well-being of Tribal communities. Regrettably, these laws 
are rarely funded to the level necessary to achieve their intended 
purposes.
    The chronic underfunding of federal Indian programs continues to 
have disastrous impacts upon Tribal governments and Native peoples. As 
the United States continues to break its promises to us, Indian Country 
and Tribal citizens experience some of the greatest disparities among 
all populations in this country--including those in health, economic 
status, education, and housing. The 2003 ``Quiet Crisis'' report issued 
by the U.S. Commission on Civil Rights (USCCR) revealed deep 
disparities in funding the federal trust responsibility, and was meant 
to galvanize action on the part of Congress and the Executive Branch. 
15 years later, very little has changed. Though there was an effort to 
reissue the report in 2016, USCCR faced its own funding and 
infrastructure issues, and this was never accomplished. Nonetheless, 
USET SPF expects an updated report would likely have mirrored its 
earlier version. This is not a question about addressing poverty and 
needs across Indian Country. Our relationship is much more than this. 
This is ultimately a question about honor, about fulfilling commitments 
and promises. A nation's exceptionalism is grounded in these 
principles.
The Unique Role of the Senate Committee on Indian Affairs
    While USET SPF takes a firm position that all members of Congress 
have an obligation to Tribal Nations, the members of this Committee 
have a greater role in understanding and working toward fulfillment of 
this obligation. As members of the only full Congressional Committee 
charged with, ``study[ing] the unique problems of American Indian, 
Native Hawaiian, and Alaska Native peoples and. . .propos[ing] 
legislation to alleviate these difficulties,'' it is incumbent upon 
every Senator on this dais to advocate for and demand the inclusion of 
Indian Country's priorities in all relevant legislation before the 
Senate. While we appreciate the amplification of these priorities 
through the work of the Committee via hearings, letters, and relevant 
legislation, it is equally, if not more, important, that the Members of 
this Committee use this role to elevate our voices in Congress' other 
Committees, as well as on the Senate floor. Indian Country expects and 
demands that you carry our messages into conversations with colleagues 
who may be less familiar with the trust obligation.
    As leaders who have consistently demonstrated a true understanding 
of this commitment and obligation, we implore you to lead the change 
within Congress that is necessary to improve how the United States 
views, honors, and fulfills its promises to Indian Country. The federal 
budget is a reflection of this commitment. We recognize that there are 
many causes and issues that this body considers. However, we ask that 
you always remember this nation's first promise to its First People--
the promise that resulted in an exchange responsible for the vast 
wealth, power, and influence of this country.
The President's FY 2019 Request for Indian Programs Violates the Trust 
        Responsibility
    In his 2017 Native American Heritage Month proclamation, the 
President stated,

         ''My Administration is committed to tribal sovereignty and 
        self-determination. A great Nation keeps its word, and this 
        Administration will continue to uphold and defend its 
        responsibilities to American Indians and Alaska Natives. 
        Together, we will strengthen the relationship between the 
        United States Government and Native Americans.''

    A great nation does keep its word. The first step toward 
fulfillment of America's promises is not just words, but action. While 
this Administration professes to prioritize Indian Country, this Budget 
Request reveals otherwise. At all levels of the Administration, from 
the Office of Management and Budget (OMB) to BIA to IHS, Tribal Nations 
and others objecting to this draconian budget request are being told 
that the request is just a ``messaging document.''
    While we understand that only Congress has the power to appropriate 
funds, the Administration is sending a powerfully negative message to 
Indian Country. In reducing, eliminating, and calling into question the 
constitutionality of federal Indian programs, this Administration is 
ignoring and undermining its trust responsibility to Tribal Nations. 
Moreover, the message that this sends to all American citizens is one 
of disregard and dishonor, further exacerbating the challenges we face 
in educating the nation on our history, sovereignty, and the continued 
obligation to Tribal Nations. Finally, the agencies most directly 
charged with delivering on the fiduciary trust responsibility--BIA and 
IHS--are demonstrating no accountability for budget request numbers and 
instead, are directing Tribal Nations to advocate for funding with 
Congress. This is a failure on the part of the Administration to take 
seriously its role as trustee.
Funding Requests and Mechanism do not Reflect Trust Obligations
    Because of our history and unique relationship with the United 
States, the trust obligation of the federal government to Native 
peoples, as reflected in the federal budget, is fundamentally different 
from ordinary discretionary spending and should be considered mandatory 
in nature. Inadequate funding to Indian Country needs to be viewed as 
unfilled treaty and trust obligations and should not be vulnerable to 
year to year ``discretionary'' decisions by appropriators. Recently, 
some in Congress have called for mandatory funding for IHS. USET SPF 
strongly supports this proposal, which is more consistent with the 
federal trust obligation, and urges that this be expanded to include 
all federal Indian programs.
    We further note the long-lasting effects of continued underfunding 
for federal Indian programs. The FY 2019 Budget Request fails to 
reflect a prioritization of trust obligations and the related promises 
that are at the core of our special and unique relationship. These 
unfulfilled treaty and trust obligations will ultimately lead to 
hearings by this very Committee, as the consequences of this Request 
results in the problems and difficulties that SCIA is charged with 
addressing.
Constitutionality of Federal Indian Programs
    Several times now, this Administration has called into question the 
constitutionality of programs or targeted accommodations for American 
Indians and Alaska Natives (AI/AN). As this Committee well knows, all 
federal Indian programs are based on a political, government-to-
government relationship between the U.S. and Tribal Nations. 
Appropriations that support programs and services such as this are 
provided in perpetuity in exchange for the millions of acres of land 
and natural resources ceded, often times by force, to the U.S. In 
addition, the Executive Branch, regardless of party, has a decades-long 
history of policy-making that includes exemptions or accommodations 
from federal actions for Tribal Nations and Native people.
Infrastructure Plan
    For generations, the federal government--despite abiding trust and 
treaty obligations--has substantially under-invested in Indian 
Country's infrastructure, evident in the breadth and severity of its 
unmet infrastructure needs as compared to the rest of the nation. While 
the United States faces crumbling infrastructure nationally, there are 
many in Indian Country who lack even basic infrastructure, such as 
running water and passable roads. According to a report released in 
2017 by National Congress of American Indians, there exists at least 
$50 billion in unmet infrastructure obligations across Indian Country. 
Decades of chronic underfunding of the federal government's trust 
obligations has resulted both in a dangerous lack of infrastructure, as 
well as infrastructure that is severely degraded.
    If this Congress and Administration intend to modernize and repair 
infrastructure throughout the country, the deep infrastructure needs of 
Indian Country must be addressed. It is critical that Tribal Nations 
have direct access to any funding available via an infrastructure 
package. We must not be restricted to partnering or competing with 
another entity in order to be in receipt of infrastructure dollars. 
Additionally, in support of Tribal self-determination, these dollars 
should be eligible for inclusion in Self-governance contracts and 
compacts.
    While we acknowledge that the President's infrastructure plan does 
state that some funding will be set aside for Tribal Nations within its 
proposed Rural Infrastructure Program, it remains unclear exactly how 
much funding is being proposed and whether Tribal Nations would have 
access to other parts of the President's plan. With a renewed focus on 
domestic issues and putting America first, this focus must also include 
a commitment to rebuilding the sovereign Tribal Nations that exist 
within the domestic borders of the United States. Much like the U.S. 
investment in the rebuilding European nations following World War II 
via the Marshall Plan, this Congress and Administration should commit 
to the same level of responsibility to assisting in the rebuilding of 
Tribal Nations, as our current circumstances are, in large part, 
directly attributable to the shameful acts and policies of the United 
States.
    The President's plan also proposes to streamline infrastructure 
permitting processes. While there remain many unknowns associated with 
these streamlining measures, USET SPF is concerned that these proposals 
could serve to undermine Tribal sovereignty, and the protection of 
cultural resources and public health. We note that the Federal 
Communications Commission is already planning to move forward, over the 
strong objections of Tribal Nations, with a Report and Order this week 
that restricts Tribal cultural reviews and illegally redefines the 
meaning of `federal undertaking' under the National Environmental 
Policy Act and the National Historic Preservation Act.
    Tribal governments must be consulted in any infrastructure project 
planning or permitting on ancestral lands. Any infrastructure build-out 
in Indian Country and beyond must not occur at the expense of Tribal 
consultation, sovereignty, sacred sites, or public health. Consultation 
must include Tribal consent for projects that significantly impact or 
threaten Tribal interests. This point should be strengthened in the 
law, and not just in regulations. In the short term, we must move 
beyond the requirement for Tribal consultation via Executive Order to a 
strengthened model achieved via statute. In the long term, we must 
return to the achievement of Tribal Nation consent for federal action 
as a recognition of sovereign equality.
Interior Reorganization
    USET SPF is deeply concerned that the reorganization of the 
Department of the Interior is moving forward in the absence of Tribal 
consultation. Although Interior Secretary Ryan Zinke recently stated, 
``we're going to go into consultation, as we should, and it's really up 
to the tribes whether they're going to participate or not, and I 
respect sovereignty,'' a consultation has yet to be initiated on the 
specifics of the reorganization plan. The Secretary has yet to 
significantly consult with or provide much detail to Tribal Nations on 
the reorganization of the Department, although we are aware of meetings 
held with federal employees and other units of government. Yet, we note 
that new DOI regions have been proposed and there is $900,000 set aside 
in the BIA Budget Request for its share of initial pre-planning 
responsibilities (with the knowledge that this figure will increase 
significantly in the out years). USET SPF urges this Committee and this 
Congress to withhold any funding for Interior reorganization pending 
confirmation that the Reorganization will not impact funding to Tribal 
Nations or inherent federal functions, as well as meaningful 
consultation with Tribal Nations resulting in consent for or an 
exemption from the reorganization.
Role of Office of Management and Budget in Inadequate Budget Requests
    The Office of Management and Budget (OMB) asserts that over $21 
billion in federal dollars funds Indian Country annually. From the 
perspective of Tribal advocates, including those who serve on budget 
formulation committees for federal agencies, this number seems to be an 
over-estimate, with far less actually reaching Tribal Nations and 
Tribal citizens. We suspect that OMB arrives at this figure by tallying 
the amount for which Tribal Nations and entities are eligible, 
regardless of whether these dollars actually reach Indian Country. The 
Tribal Interior Budget Council has asked OMB for a full accounting of 
federal funding distributed to Indian Country. To date, OMB has not 
responded to this request and continues to take the position that as an 
extension of the Executive Branch, it does not have the same 
consultative responsibilities as other federal agencies. USET SPF 
requests that in the spirit of transparency, this Committee consider 
supporting report language that would ensure OMB provides Indian 
Country with an accurate inventory of its own federal funding on an 
annual basis. In addition, USET SPF contends that Indian Country would 
be better-served by an Indian-specific desk at OMB rather than analysts 
with portfolios that include other interests.
FY 2019 Request for the Bureau of Indian Affairs
    The FY 2019 President's Budget Request for Indian Affairs is $2.4 
billion in current appropriations, a 15.6 percent decrease from the FY 
2018 CR level. Nearly every line item in the BIA budget would see 
reductions in the FY 2019 budget request. However, Interior's Budget 
Justification describes the Request in the following way,

         ''The 2019 budget supports the Administration's commitment to 
        help promote tribal nation-building and self-determination, 
        empower tribal communities, foster tribal self-sufficiency, 
        create educational and economic opportunities, ensure safe 
        Indian communities, preserve and foster cultural heritage, and 
        steward natural resources. Indian Affairs programs deliver 
        community services, restore tribal homelands, fulfill 
        commitments related to water and other resource rights, execute 
        fiduciary trust responsibilities, support the stewardship of 
        energy and other natural resources, create economic 
        opportunity, and expand access to education.''

    It is difficult to see how any of this could be true, considering 
the deep reductions and eliminations found in the Request. Moreover, on 
a February 12th conference call, Tribal leaders and advocates were told 
that the BIA budget request supports the ``core mission'' of the 
Agency, but with nearly every line item receiving a decrease, it is 
impossible to determine what the Administration deems its ``core 
mission.'' According to the BIA's website, its mission is, ``to enhance 
the quality of life, to promote economic opportunity, and to carry out 
the responsibility to protect and improve the trust assets of American 
Indians, Indian tribes and Alaska Natives.'' By any measure, this 
Budget Request fails to uphold these words.
    As National Congress of American Indians notes, overall, Human 
Services programs would fall by 27 percent, Natural Resource programs 
by 23 percent, Public Safety and Justice by 9 percent, and the Bureau 
of Indian Education by 16 percent. Similarly, the top priorities 
identified by the Tribal Nations of the Eastern Region for FY 2019 
would all see drastic reductions or eliminations:

  <bullet> Social Services--cut by 37%
  <bullet> Scholarships and Adult Education--eliminated
  <bullet> Indian Child Welfare Act--cut by 27%
  <bullet> Tribal Courts--cut by 28%
  <bullet> Aid to Tribal Government--cut by 10%

    One of the few increases would be $2.5 million in the Law 
Enforcement Special Initiatives budget to fight the opioid epidemic by, 
``expand[ing] BIA capacity to address the increase in drug-related 
activities through interdiction programs to reduce drug use, 
distribution, and drug related crime.'' While USET SPF welcomes any 
funding provided directly to Indian Country to combat the opioid 
epidemic in our communities, including for law enforcement, $2.5 
million in what may be one-time funding falls short. To increase the 
number of BIA drug enforcement officers, USET SPF has requested no less 
than $11 million annually.
FY 2019 Request for the Indian Health Service
    The FY 2019 Budget Request would include $5.4 billion for IHS, $413 
million or 8 percent above the FY 2018 Continuing Resolution. While we 
acknowledge and support increases to this chronically underfunded 
agency, we also note that for FY 2019, the Tribal Budget Formulation 
Workgroup (TBFWG) which meets annually and is comprised of Tribal 
leader representatives from each of the 12 IHS Areas, recommended $6.4 
billion.
    While we continue to await the IHS' full FY 2019 Congressional 
Justification, we support increases to several critical IHS line items: 
an increase for clinical services, including an increase of $268 
million for Hospitals and Clinics for a total funding amount of $2.1; 
increase of $32 million for purchased/referred care (PRC) for total 
funding of $955 million; and increase of $340 million for Mental 
Health, and Alcohol and Substance Abuse Programs, which is $30 million 
above current spending levels. These line items were the top four 
funding priorities of Tribal Nations in the Nashville Area of IHS. 
However, as with overall funding for IHS, it is important to recognize 
that these increases fall far short of IHS' obligation to the health of 
Tribal Nations, as well as the TBFWG's recommendations. We continue to 
support and urge the adoption of a plan to phase-in full funding for 
IHS. USET SPF maintains that until Congress fully funds the IHS, the 
Indian Health System will never be able to fully overcome its 
challenges and fulfill its trust obligations.
    Despite these increases, the President's Budget also proposes cuts 
and eliminations to other parts of the IHS budget. USET SPF and others 
in Indian Country are strongly opposed to the elimination of the 
Community Health Representatives program and health facilities 
construction, as well as other eliminations found in the Request.
    The Budget Request proposes a total $10 billion in new funding to 
combat the opioid epidemic. Under the proposal, IHS would receive $150 
million ``to provide multi-year competitive grants based on need for 
opioid abuse prevention, treatment, and recovery support in Indian 
Country.'' Considering the disproportionate levels of opioid abuse and 
mortality in Tribal communities, a small amount of funding delivered 
through competitive grants, while welcome, does not even begin to 
scratch the surface. Further, the source of this funding remains 
unclear. USET SPF calls upon this Committee and this Congress to 
prioritize substantial direct funding to Tribal Nations as it seeks to 
address the opioid crisis. Among the direct funding proposals we 
support are: S. 2270, the Mitigating METH Act, S. 2545, the Native 
Health Access Improvement Act, and S. 2437, the Opioid Response 
Enhancement Act.
    The Request also proposes to move the Special Diabetes Program for 
Indians (SDPI) from mandatory to discretionary spending. When asked for 
an explanation on an ``All-Tribes'' call, IHS indicated that all health 
extenders are proposed to be moved from mandatory to discretionary. 
This proposal has not received any Tribal consultation, in violation of 
IHS' & HHS' Tribal consultation policies. From USET SPF's perspective, 
this proposal represents the exact opposite of what we are trying to 
achieve--which is mandatory funding for all federal Indian programs.
FY 2019 Request for Other Agencies, Operating Divisions, and Line Items
    While some may view ``federal Indian programs,'' as limited to 
those administered by BIA and IHS, USET SPF maintains that all federal 
agencies have a trust responsibility to Tribal Nations. In addition and 
as a practical matter, it is important to recognize that Tribal Nations 
access funding from nearly every federal agency. Reductions and 
eliminations at other agencies and operating divisions, then, would 
have significant impacts in Indian Country and further compound cuts at 
BIA and IHS. This Administration and Congress must recognize that the 
President's Budget Request as whole reflects its commitment to Indian 
Country and the trust obligation. While by no means an exhaustive list 
of priorities, we would like to highlight funding levels for some 
additional agencies, operating divisions, and line items.
Centers for Disease Control and Prevention (CDC)
    Outside of IHS, Tribal Nations receive a significant amount of 
funding from the CDC for public health promotion and surveillance, 
disease prevention, vaccinations, and other purposes. As such, the 
overall 12 percent cut to CDC is troubling. We are especially opposed 
to the proposed elimination of Good Health and Wellness in Indian 
Country (GHWIC), a $78 million initiative that started in 2014 and 
continues through 2019, supporting the health surveillance and 
promotion work of Tribal Nations, Tribal organizations, and Tribal 
epidemiology centers (TECs). USET's TEC and 5 subawardees are supported 
in part through this initiative. GHWIC interventions focus on reducing 
tobacco use and exposure, improving nutrition and physical activity, 
increasing support for breastfeeding, increasing health literacy, and 
strengthening team-based health care and community-clinical links. 
While FY 2019 proposes to be the final year of a 5-year funding cycle, 
we expect that participating Tribal Nations will continue to sustain 
health promotion efforts at its conclusion.
Medicaid Block Grants and Changes to the Affordable Care Act
    The FY 2019 budget request proposes to make major changes to 
programs authorized under the Patient Protection and Affordable Care 
Act (ACA). Under the Request, Medicaid spending would be replaced with 
a block grant to states leading to the elimination of the ACA's 
Medicaid expansion and drastic cuts in Medicaid over the next decade. 
As this Committee is well aware, Indian Country is universally opposed 
to this type of proposal, as it would create barriers to AI/AN Medicaid 
access, violating the trust responsibility to provide health care and 
resulting in deep cuts in 3rd party revenue to the already chronically 
underfunded Indian Health System. In addition, the Request proposes to 
eliminate subsidies for the ACA's health insurance marketplace, which 
would pose further barriers to health care access and vital 3rd party 
dollars.
Administration on Children and Families
    The Administration has zeroed out funding for the Rural Community 
Facilities line item in the ACF account. The Administration argues that 
this program is duplicative and that grantees under this program 
continue to receive funding in spite of underperformance. However, this 
grant is one of the only sources of funding available to Indian Country 
to provide Tribal-specific water and wastewater operator training, 
including that provided by USET. When Tribal community members are 
trained as operators, the result is operational continuity, cultural 
competency, and self-determination. Without this funding, Tribes will 
have to turn to state-certified operators who are unlikely to be 
members of the community, unlikely to stay in the job for very long, 
and do not have knowledge of the unique jurisdictional and legal 
framework that applies to Tribal water systems. We urge appropriators 
to once again provide funds for this invaluable program.
Department of Justice
    USET SPF was pleased to see and strongly supports a 5 percent 
Tribal set-aside from the Crime Victims Fund in the Request for the 
Department of Justice. In addition, while we are glad to see support 
for the Tribal Access to Crime Information Program (TAP) in the 
Request, we note that up to $3 million in funding would be sourced from 
existing Tribal dollars. Indian Country must not be forced to choose 
among critically important Tribal justice programs. TAP funding must be 
appropriated separately.
Department of Homeland Security
    Despite a responsibility for emergency management and response in 
Indian Country, Tribal Nations and Tribal emergency management 
organizations have limited access to direct funding from the Department 
of Homeland Security (DHS), as the current funding mechanisms require 
Tribal Nations and their emergency management organizations to seek 
funds through state governments. USET SPF calls upon appropriators to 
work with Tribal Nations to to identify and eliminate both procedural 
and current eligibility impediments to additional direct DHS funding 
for Tribal governments.
Environmental Protection Agency (EPA)
    USET SPF also opposes reductions in funding to Tribal Nations found 
in the FY 2019 Budget Request for EPA. Although the Administration 
continues request increases and a Tribal set aside in the Clean Water 
State Revolving Fund program, the Request proposes a nearly $575 
million cut to State and Tribal Assistance Grants. While some of this 
funding was restored in an addendum, it remains troubling that a number 
of line items specific to Tribal Nations were targeted.
Department of Commerce
    The Budget requests $9.8 billion for the Department of Commerce, a 
$546 million or 6 percent increase from the 2017 enacted level. 
However, the Budget would eliminate the Economic Development 
Administration, which is a primary source of funding for economic 
development activities in Indian Country, including USET's own Economic 
Development Department. The Budget also proposes to reduce funding for 
the Minority Business Development Agency from $34 million in FY17 
($33.769 FY18 CR) to $10 million in FY19, which includes funding and 
direct services to Tribal Nations and Native people.
Department of Treasury
    USET SPF opposes in the strongest possible terms the elimination of 
funding for Community Development Financial Institutions (CDFIs) 
through the CDFI Fund, including the elimination of the Native American 
CDFI Assistance (NACA) Program. While this Administration purports to 
prioritize the creation jobs and economic opportunities in Indian 
Country, elimination of the NACA program would prove otherwise. As USET 
works to establish the first Native CDFI serving our entire region, we 
urge this Congress to ensure our funding is maintained.
Conclusion
    While USET SPF recognizes this Committee's strong, long-standing 
commitment to Indian Country, we cannot accept funding for federal 
Indian programs that continues to fall far short of fiduciary trust 
obligations. This Committee must use its influence to ensure that 
Congressional appropriators uphold the fiduciary trust obligation to 
Tribal Nations in FY 2019 and beyond. In pursuit of a relationship more 
reflective of this obligation, USET SPF urges this Committee, Congress, 
and all branches of the federal government to ensure that full funding 
for the trust obligation is realized in our lifetimes. USET SPF looks 
forward to partnering with the Committee to bring this to fruition.

    The Chairman. Thank you, Mr. McGhee. We will have five-
minute rounds of questioning.
    First, for Mr. Tahsuda. There is funding in the budget for 
repair of BIE schools, which is good. The 2019 budget request 
has $18 billion in the public lands infrastructure funds to 
address public lands issues and needed repairs at BIE schools. 
Talk to me about how you are going to consult with tribes in 
determining which projects are selected, and prioritizing the 
needs and so forth for the schools.
    Mr. Tahsuda. Thank you, Chairman. We are going through the 
process now, as we did with preparing for the budget, of 
looking at the priority list for deferred maintenance. From 
that, determining what would be priorities as far as adding to 
the 2016 list. We already have--actually, let me back up. We 
already have one priority list, 2016, which we hope to finish 
out first as far as construction of new schools.
    Following up on that would be a determination from the 
deferred maintenance backlog as to which schools would be more 
appropriate to just be replaced. We would consult with the 
tribes, obviously, in doing that. But we have a significant 
level of information about the condition of the schools and 
hopefully, the Congress passes this and we would then be able 
to address all these schools over a short period of years, 
instead of having to continually add to new priority lists.
    The Chairman. In the 114th Congress, I introduced, and we 
passed, the Native American Children's Safety Act. In the 2019 
budget, there is a proposed cut of $19.4 million for Social 
Services programs. My question is, how are you going to be able 
to not only enforce that law, but also what impact would that 
reduction have on making sure that we are keeping Indian 
children safe in their communities, and certainly in foster 
homes?
    Mr. Tahsuda. Thank you, Chairman. When Congress passed the 
Native American Child Safety Act, it didn't specify any 
additional funding for that. So for us, it is an unfunded 
mandate, which we are working to meet. A lot of the work will 
also be on the tribal side of that, and we are in the process 
of finalizing guidelines that they will use as far as meeting 
the new statute.
    And we work with them through the current programs they 
have to provide, from their side, to provide the training that 
they need. We provide training through our staff as it is now. 
This has been part of the process f working through the 
consultations, developing the guidelines. We have planned out, 
after the guidelines become final, I believe it is June 3rd, 
under the statute, we have several months planned of training 
with the tribes, so that they will be able to implement these 
new guidelines in short order.
    But we have to work within the funding that we have for 
that.
    The Chairman. Mr. Weahkee, the Fiscal Year 2019 budget does 
propose $340 million for mental health, alcohol and substance 
abuse programs. How would you use this? There is an increase 
there. How would you propose to use that? Also, last month our 
Committee held a hearing on opioid abuse. How do you propose to 
do more to address the opioid crisis?
    Mr. Weahkee. Thank you, Chairman Hoeven. I believe our 
first step needs to be to sit down and consult with the tribes 
on where the priority areas are in both mental health and in 
opioids. So our plan would be to initiate consultation to 
discuss where the tribal priorities are. We still have 
significant issues with suicide, with alcohol, substance abuse, 
methamphetamine use, heroin use and the targeted opioid funding 
is meant to address prevention, treatment and recovery support 
services. That is step one, let's sit down with the tribes and 
determine what their priorities are.
    The Chairman. Mr. Payment, talk to me for a minute about 
the importance of the Small and Needy Tribes program, if you 
would.
    Mr. Payment. First, I really appreciate Senator Murkowski's 
reference to Alaska Natives. Too often they get left behind. I 
have made it my personal mission to advocate for them. All 
tribes have been in a similar situation with having lack of 
resources. So our small and needy tribes, the funding is 
proposed to be cut, actually zeroed out in this draft budget. 
The President's priority is to zero out the Small and Needy 
Tribes proposal.
    Tribes that need it the most are the ones that are small 
and needy in rural communities. So I don't support that, NCAI 
doesn't support that. We stand in unison with our small and 
needy tribes in rural communities.
    The Chairman. Also, you mentioned several others like 
Johnson O'Malley, adult education, some others. Talk to me 
about the importance and the effectiveness of those programs.
    Mr. Payment. Johnson O'Malley goes back to right after the 
enactment of the Indian Reorganization Act as a way of trying 
to undo what the Federal Government did with forced 
assimilation and boarding schools, and bringing back culture 
and opportunities for tribes to program that, so they can bring 
back self-esteem and so that people can, our people can exceed 
at all levels. Johnson O'Malley is a big part of that, and 
adult education is a big part of that, so we can become self-
determined.
    In 1974, we passed the Self-Determination Act. It was a 
dedication and a pledge to move forward, to undo the past and 
to provide for tribes to be able to provide for themselves. So 
those are critically important programs.
    I would note, there is a real disconnect between the 
increases that we see that we are grateful for in the IHS 
budget and some of the real serious, and I use the word 
draconian, cuts in the BIA side. I know both are not headed up 
by tribal leaders yet, and we are looking forward to filling 
those positions as soon as possible.
    But there are some real serious and alarming cuts coming 
out of the BIA. We believe it is because of a lack of 
leadership in the Asia position.
    The Chairman. Both IHS and BIA are two areas where we push 
for more funding, obviously health care and education being so 
important.
    Mr. Payment. It seems to be registering right now in this 
Administration in the IHS portion, but not so much on the BIA 
side.
    The Chairman. Yes, okay.
    Vice Chairman Udall?
    Senator Udall. Thank you very much, Chairman Hoeven. As I 
said in my opening, the Administration's budget simply does not 
reflect Indian Country's priorities. What results is a 
``messaging document'' that tells Indian Country their concerns 
have fallen on deaf ears. Vice President Payment, NCAI's 
testimony really highlights how this Administration hasn't just 
ignored Indian Country priorities, but actually cut or 
eliminated every single priority funding area. It appears the 
Administration's consultation with HHS and the Tribal-Interior 
Budget Council was just a check the box exercise.
    Vice President Payment, do you agree?
    Mr. Payment. I would say that for Interior, yes, I think 
that the obligation to proceed with the Tribal-Interior budget 
committee process, for which I served as an alternate for the 
Midwest Region, was a check the box. When you look at the 
sheet, and I really appreciate this graph, because a picture 
says a thousand words. You see the priorities that tribes 
identify in your graph here. And then you see the cuts, 100 
percent cuts to scholarships and adult education, housing 
improvement, Johnson O'Malley, small and needy tribes.
    Then you see 30 percent cuts. We are losing ground, going 
back to the Self-Determination Act. So somehow, with these 
consultations of reorganizing the BIA, maybe more attention 
should have been paid to listening to tribal leaders and our 
needs and trying to propose funding that meets our needs.
    Earlier, we heard Mr. Tahsuda saying they are trying to do 
with what they have. Well, that is not the job of the trustee. 
The trustee is to advocate to meet the needs of the tribes. If 
it is not coming out of the trustee, where can it come from? 
Thankfully, Congress has a role in this.
    Senator Udall. Thank you. The chart you are referring to I 
think are the ones also we have up here on the left hand side 
of the dais.
    The Administration's budget cuts are deep and wide and 
almost no area is spared, including infrastructure. It 
eliminates Indian Country development block grants, reduces 
Indian housing block grants and cuts road maintenance and 
funding for important water projects. The Administration 
proposes to make up for these cuts through other proposals, 
like the Infrastructure fund.
    Mr. Tahsuda, it is my understanding that this fund is 
supposed to address the $600 million BIE maintenance backlog. 
Is that right?
    Mr. Tahsuda. Yes, sir. Senator, the fund will address that. 
But the proposal is relatively broad, though. I think we would 
be happy to work with Congress to expand it. Again, there are a 
number of schools that it would be more fiscally responsible to 
replace than continue to keep maintenance going on. That would 
be something we would appreciate working with Congress on, to 
have the authority to do that as well.
    Mr. Udall. When we talk about addressing the backlog, the 
Administration's proposed fund doesn't address the $4.1 billion 
BIE construction backlog, is that correct?
    Mr. Tahsuda. I am not sure where that number comes from. We 
have the deferred maintenance backlog and we have the remaining 
schools on the 2016 priority list.
    Senator Udall. That number that I used, Mr. Tahsuda, that 
number was given to us by the BIE director at the briefing 
where they briefed us. So that is your Interior Department 
number. You have proposed here a $600 million BIE maintenance 
backlog. But in fact, the actual construction backlog is $4.1 
billion, is that correct? That is the number we were given. I 
just need a yes or no answer on that.
    Mr. Tahsuda. If you wrap that all together with all the 
replacement schools, including the ones that are currently on 
the list, that is probably close to the number.
    Senator Udall. For Vice President Payment, do you support 
cutting infrastructure line items and replacing them with this 
fund?
    Mr. Payment. I support funding the need as identified 
through budget priorities, through past testimony, on the 
record. It almost feels like a bait and switch. So I don't 
support the promise of something else down the road in exchange 
for not funding it now. I believe that we have identified the 
priorities in past Administrations and in this Administration, 
and funding it now, not on the promise that we might fund it 
some day."
    Senator Udall. Vice President McGhee, what priority areas 
would you want this infrastructure fund to include?
    Mr. McGhee. The USET tribes have looked at various ways, we 
are pleased that there is BIE education money in there and 
health facilities money. But we shouldn't have to choose. We 
have priorities all across there. So the tribal infrastructure 
that we are looking at is physical infrastructure, jobs, public 
safety, justice infrastructure, communications and such. There 
are many more concerns than just those two that were funded 
within this fund. I think it is one of those things that we 
shouldn't have to decide between the two. Infrastructure 
funding is necessary, but it is not about two programs. It is 
about across Indian Country and the Federal obligation to help 
us build those infrastructures.
    Senator Udall. Thank you very much. I yield back to Senator 
Murkowski.
    Senator Murkowski. [Presiding.] Thank you. Since I have the 
gavel and I am generous and magnanimous, I am turning to 
Senator Heitkamp.

               STATEMENT OF HON. HEIDI HEITKAMP, 
                 U.S. SENATOR FROM NORTH DAKOTA

    Senator Heitkamp. I want to thank my colleagues, Senator 
Murkowski, but I also want to greatly thank my colleagues, 
Senator Smith and Senator Cortez Masto. I have another 
appointment and I of course always have burning questions. I 
promise they will be questions, not diatribes.
    I want to start with one of my greatest concerns, as you 
know, which is public safety. I have had a chance to visit with 
a lot of you, addressing the challenges. I understand your 
staffing and your challenging needs.
    But I don't understand this budget. So in 2016 BIA 
submitted a report to Congress estimating that to provide a 
minimum, a minimum, base level of public safety and judicial 
services to all federally-recognized tribes, it would cost 
approximately $2.3 billion. And so currently, BIA has only met 
a fraction of that.
    If BIA knows that we need additional increased funding, and 
that we haven't met that need, to meet baseline, and that is 
the words of BIA, are we sending a message to our tribes that 
their public safety isn't as important as the public safety of 
any other citizen in this Country? We will start with you, Mr. 
Tahsuda.
    Mr. Tahsuda. Thank you, Senator. Law enforcement is 
obviously a very important priority for this Administration. It 
is obviously important for those who live on reservation 
communities. The number that you cited I think includes a broad 
range of situations that exist around Indian Country. As you 
know, the jurisdictional map that is Indian Country varies 
greatly. And so we have some large land-based reservations----
    Senator Heitkamp. Can I just interrupt? I don't have a lot 
of time. How can you possibly say you are getting enough to 
protect Native women, Native children and Native people when 
you are actually looking at almost a decrease in public safety?
    Mr. Tahsuda. Well, we are focusing on the----
    Senator Heitkamp. No, these numbers are yours.
    Mr. Tahsuda. Yes.
    Senator Heitkamp. Two point three billion, that is your 
number, that is BIA's number. So if that is your number for 
baseline support, then why isn't that in the budget? Why isn't 
that number the request for the budget? Because the biggest 
challenge that I have in my State is public safety. I just 
talked to the police chief of Belcourt. He is begging, begging 
for help. I have people all over North Dakota in Indian Country 
begging for help.
    I need you guys to be the advocates. I need you guys to 
say, we are going to do the minimal amount that we need to 
provide public safety, and that includes places where people 
can be incarcerated.
    So I don't want to hear about how it can't get done. I want 
to hear how you are advocating. I think Mr. Payment made a 
great point, which is, you are the trustee. You should be the 
advocate. I get that you may not want to fund housing, or you 
may not want to fund education, but fundamentally, keeping 
people safe has to be the highest priority. Security has to be 
the highest priority. Without that, we don't have the 
opportunity for anything else.
    And we need an advocate. Can you promise me, and I know 
this is tough, we need to take it back to the Secretary, we 
need to take it back to Mulvaney. I have talked to the Attorney 
General, Jeff Sessions, about this. This cannot get ignored. 
The Department of Justice needs to step up, BIA needs to step 
up if we are going to protect women and children in Indian 
Country.
    And if we are not willing to step up, then let's just admit 
that they are second class citizens. They aren't entitled to 
the same protection that people in this Country are entitled 
to.
    Can you say you are going to take our concerns back?
    Mr. Tahsuda. I will take your concerns back. They are part 
of the discussion that we have. And again, we are trying to 
focus on, and I can't speak to what happened before I came to 
the Department, but----
    Senator Heitkamp. Do you agree, do you personally agree 
with the $2.3 billion?
    Mr. Tahsuda. I would have to go back, I am not sure where 
that number came from. I know there were prior efforts to put 
funding into area where we don't have clear law enforcement 
jurisdiction. I am not sure if that is part of what was in that 
number. But we also have core responsibilities, including core 
jurisdictional responsibilities.
    Senator Heitkamp. If you don't agree with that number, can 
you get me the number that you think? Can you give me a needs 
assessment, talking to, in consultation with all the other 
tribes on what it is going to take to get basic law enforcement 
services in Indian Country in this Country?
    Mr. Tahsuda. Well, I think our budget reflects two goals, 
one of which is to strengthen law enforcement in the areas 
where we have clear jurisdiction, and we are, as you know, on 
several of your reservations, we don't have the sufficient 
force there to do that. That is something we are working 
strongly on, as you suggested in our phone call the other day. 
We are turning over the rock the fifth time in certain matters. 
Part of this is training and getting more officers through our 
system.
    So it is not a simple answer of just saying, throw more 
money at it. It is trying to analyze how we are doing the job 
most efficiently and are we putting those resources to the best 
use. That is what we are trying to do.
    Senator Heitkamp. If you can just indulge me, one more 
question. Would you agree that right today, in North Dakota, 
which is what I know the most about, we have inadequate, 
grossly inadequate law enforcement services in Indian Country?
    Mr. Tahsuda. I think we have some difficulties, I will 
admit. It is a challenging environment. Again, we struggle to 
get people through the system and to identify where they can 
go, where they will be most effective. So it is also, in Indian 
Country, a march. We have a force that is probably less than 
most other law enforcement agencies deal with, and we have the 
greater territories to cover. More scarce populations. So that 
is a factor that --
    Senator Heitkamp. And some of the highest rates of violent 
crime in this Country.
    Mr. Tahsuda. Yes.
    Senator Heitkamp. The highest rates of drug use.
    Mr. Tahsuda. Yes.
    Senator Heitkamp. The highest rates of criminality and the 
lowest rates of protection by law enforcement. That is what I 
see in my State. So we have to fix this, and we need an 
advocate in your job. Thank you.
    Mr. Tahsuda. Toward that end, Senator, we have in the 
budget funding for an additional 17 drug enforcement officers. 
I hope that we get support for that.
    Senator Heitkamp. [Remark off microphone.]
    Mr. Tahsuda. Yes. Yes, they work in concert with other drug 
enforcement task forces.
    Senator Heitkamp. I could use 17 just in North Dakota.
    Senator Murkowski. Well, and not to pile on here, but it is 
one thing to have drug enforcement agents. But if you have 
nobody that is able to follow through with the prosecution, 
what happens in my State, because we don't have sufficient law 
enforcement, because we do not have the protection and public 
safety that Senator Heitkamp has been talking about, the bad 
guys come in and get away with bloody murder because they can, 
because we don't have the resources to follow through with the 
protection.
    I am going to turn to Senator Smith, because I know that 
she also has to go to another hearing.

                 STATEMENT OF HON. TINA SMITH, 
                  U.S. SENATOR FROM MINNESOTA

    Senator Smith. Thank you very much, Chair Murkowski. I 
would just note that I am hearing on both sides of the aisle 
here a sense of real concern about the budget levels and this 
overall budget. I am not going to go down that path again as 
everyone else has.
    Though I really have to say, I note with great interest the 
message that Vice President Payment and Vice President McGhee 
bring, which is that this is not just a question of priorities 
and scarce resources. This is a question of the solemn trust 
and obligation and agreement between the United States and our 
tribal nations. I think that is the message that I have here, 
not a message document that is a budget. So I want to say I 
really appreciate that, very much appreciate that.
    But I want to ask about something actually that Senator 
Murkowski brought up at the beginning. I would like to go back 
to the Special Diabetes Program funding. This is something of 
great interest to me because I am interested in taking this 
model, which I understand has been so successful, and applying 
it to the terrible challenges that we have with opioid and 
treatment and recovery in Indian Country. I am working with 
members of this Committee to develop legislation that would 
create a special behavioral health program, so that tribes can 
access the resources that they need, and using that diabetes 
program as a model for that strategy, so that we can have good, 
strong, locally-driven, culturally-specific and results and 
evidence-based programs.
    So my question to you is, can you tell us, I am kind of 
looking at you, Vice President Payment, but anybody can 
respond. We are concerned, of course, about this shift from 
mandatory to discretionary funding. Could either of you just 
give me a sense of what impact that would have? What would be 
different if we made that shift?
    Mr. Payment. First of all, earlier, so we get glows and 
grows, and I talked very favorably about some of the proposed 
increases in IHS. So it is not an attack on IHS. Four years ago 
I testified in this Committee on the need to make Special 
Diabetes permanently reauthorized, mandatory and advanced 
appropriations for our health services. So we prepaid health, 
the health portion of health, education and social welfare is 
embodied in the treaties. And we prepaid that with our land.
    So the Special Diabetes is one of the best-ranked, 
evaluated programs in terms of its return on investment, mainly 
because it empowers people to take care of their own health and 
acknowledge the types of statistics and data they should be 
looking at. So it is one of the very best programs that we have 
seen.
    I don't support means testing for Indian programs and 
services, but I would say that Special Diabetes would meet 
anybody's means test.
    In looking at the budget, Interior and IHS, it is 
inconsistent. There is almost a schizophrenic approach to 
proposing this budget. So going backward in time, making it 
from mandatory to discretionary, is not consistent with tribal 
leaders. I said previously on HHS Secretary Tribal Advisory, it 
is something we have been advising this Administration and the 
past Administration that it has needed to be mandatory and 
advance appropriated.
    So I would like to hear how that changed and like to hear 
if tribal leaders have expressed at the tribal HHS Secretary 
Advisory Council if something has changed, or what 
fundamentally changed at IHS that they have a different 
position on it now. It is not what tribes want.
    Senator Smith. Would either of you like to respond to that 
and help me understand why there would be a shift from 
mandatory to discretionary?
    Mr. Weahkee. Thank you, Senator Smith, I think that is in 
our ball park.
    In the Special Diabetes Program for Indians, it is the only 
mandatory line that we have within the Indian Health Service 
budget. It is part of a greater Administration decision to move 
a number of different programs from the mandatory to 
discretionary side of the budget. So it is an Administration 
policy decision.
    Senator Smith. Fundamentally, that would probably relate in 
less resources for the Special Diabetes Program, yes?
    Mr. Weahkee. The Administration supports the amount, which 
is $150 million. I think that in terms of how this would impact 
programming, there are concerns with funding level, if it goes 
into discretionary, impacts from continuing resolutions, 
planning, ability to plan for grants. These were some of the 
things that tribal leaders have expressed to me as concerns. 
But the movement would enable the Administration to make 
choices about their priorities and putting the dollars into 
their area of highest priority.
    Senator Smith. I see I am out of time. I want to thank you 
for your responses, but I am not convinced that this is a good 
idea, to make a move from mandatory to discretionary. It 
strikes me that it will end up in less support for something we 
know works very well.
    Thank you very much, Madam Chair.
    Senator Murkowski. Thank you, Senator Smith.
    Mr. Weahkee, you mentioned that one of the reasons behind 
this move from mandatory to discretionary was that you have 
effectively seen that the program has been working, that you 
are seeing a leveling of the diabetes. I have asked to get some 
better statistics within the Alaska Native community. Because 
it is my understanding that we are still faced with very, very 
serious issues as it relates to diabetes, both Type I and Type 
II.
    So this is the first I have heard that we are actually 
getting to a better place. So if you have any information that 
you can share with us, I would certainly appreciate that.
    I wanted to ask a question of you, Mr. Tahsuda. This 
relates to housing. Several of us mentioned the reduction in 
the BIA Housing Improvement Program, the HIP program. I don't 
think that we are unique in Alaska when it comes to the 
situation of housing. We just completed a statewide housing 
assessment and the percentage of overcrowded homes is twice the 
national average. There are more than 79,000 households that 
spend more than 30 percent of their income on housing, 
approximately 14,600 homes that are energy-inefficient, meaning 
they are burdened with high energy costs.
    We then get the health impact study back that shows us what 
is happening with a deteriorating level of health within 
crowded households. When you have 15 people in a two-bedroom 
home, the spread of disease. When you have the example that I 
was using is, somebody is doing small engine repair in the 
middle of the house because it is winter time and you need to 
be inside, you have chemicals, you have issues that are in your 
air that is just wrong and unhealthy.
    The need is just so critical. The need, everywhere that I 
go, in every community, is almost staggering in some places.
    So we keep hearing the benefits of this program. And yet we 
zero it out within this particular budget. What is the logic 
here?
    Mr. Tahsuda. Thank you, Senator. One of the efforts that we 
have made in the Department in this Administration is to focus 
on our core responsibilities, core operations first and 
identify how we can best meet those.
    I think it is no secret that the Bureau of Indian Affairs 
has struggled over the years in adequately meeting even its 
core responsibilities. That is something we are committed to.
    Things like housing programs, there is a whole department 
that is dedicated to that. For us to put resources into 
something that is a very small part of our programs, but not be 
focused on our core operations is something that we have 
identified that we need to do better. We are looking at doing 
that, both through the budget and how we administer the 
program.
    Senator Murkowski. And I would challenge you on this. I 
take it back to a trip that I took with a Secretary of 
Education, this was Rod Paige back in the Bush days. He was up 
in the State to look specifically to education. He came out in 
a very rural, very remote place called Gambell, Alaska, out on 
St. Lawrence Island in the middle of the Bering Sea. He looked 
around and realized that, if I don't have housing for teachers, 
I can't keep a teacher in a school, which means the kids can't 
get educated. If I don't have adequate housing, I have disease, 
I have issues that relate to health that increases my costs 
here. If I don't have adequate housing--we moved forward on a 
housing initiative a dozen years ago. But it was multi-agency, 
it was multi-department. Because everything was so inextricably 
tied back to adequate housing.
    SO I hear what you are saying about core functions. I don't 
disagree. But I also think that you need to look outside of the 
silos, all of you, when we are thinking about how we provide 
for the health, safety and well-being. And Admiral, you say you 
want, this budget provides for the physical, the mental, the 
spiritual health to the highest level. Well, think about it as 
it encompasses so many different aspects.
    Very quickly, because my time is just about out, and this 
is to you, Rear Admiral, YKHC is building a facility in Bethel. 
You know this is going to require a large staffing package. 
Your budget includes the staffing package for Fiscal Year 2019 
at about $60 million.
    The reason I am asking this question is because the Fiscal 
Year 2018 initial budget request was way off in its estimate of 
total need. You originally requested $20 million, but the need 
was roughly $60 million. As Chair of that Interior 
Appropriations Committee, we are paying pretty close attention 
to that. So I am asking for the assurance that the amount you 
are requesting for Fiscal Year 2019, including the funds that 
YKHC is looking for, fully meets the staffing needs for the 
facilities that you anticipate to open in Fiscal Year 2019?
    Mr. Weahkee. Thank you, Senator, and yes, ma'am, these 
numbers are updated, assuming there are no slips in opening 
dates, beneficial occupancy dates. Those numbers are projected 
to meet all the needs for staffing currently.
    Senator Murkowski. We sure hope you are right on that. 
Thank you, Mr. Chairman.
    The Chairman. [Presiding.] Thank you, Senator Murkowski, 
and thank you for presiding. I appreciate it.
    Senator Cortez Masto.

           STATEMENT OF HON. CATHERINE CORTEZ MASTO, 
                    U.S. SENATOR FROM NEVADA

    Senator Cortez Masto. Thank you. Let me follow up on some 
of the concerns with affordable housing. In Nevada, this is a 
crisis. It is happening in Nevada in not only our urban but 
rural areas and our tribal communities as well. Obviously, it 
is an issue across the Country.
    One of my primary concerns, however, is also with the HUD 
VASH vouchers. Mr. Tahsuda, and I will ask Mr. Payment as well. 
The President's budget proposes a nearly 50 percent cut to the 
HUD VASH vouchers for Native Americans, to $3 million. Yet in 
2015 alone, Nevada received HUD VASH vouchers worth more than 
$2 million. Can you please tell me the potential impact these 
cuts would have on our veterans and your concerns or thoughts 
on how you are going to address it?
    Mr. Payment, I don't know if you would like to go first.
    Mr. Payment. Sure. Again, I earlier talked about this 
inconsistency, or almost schizophrenic approach to proposing a 
Federal budget. We hear a lot from the Administration about the 
needs and concerns of our veterans. We serve the Nation at the 
highest rate of any racial-ethnic population, as part of our 
warrior tradition. As such, we have advocated for HUD VASH so 
that we can address those needs in our tribal communities. Our 
veterans are equal veterans as everybody else. This program is 
critically needed. We fought for it, we won it in the 
reauthorization of NAHASDA if that ever happens.
    So I do think it is a retreat from the commitment to our 
veterans, for sure.
    Senator Cortez Masto. Mr. Tahsuda?
    Mr. Tahsuda. That is not a program that is part of our 
portfolio.
    Senator Cortez Masto. Thank you. So let me ask you this, 
then. There are also concerns about Native American housing, 
the block grants by $54 million. The concerns that I have there 
that I am hearing from this Administration. Again, affordable 
housing across this Country, this is something that we have 
seen, whether it is workforce housing or needs in our tribal 
communities. I don't understand how we are putting forth a 
budget that is going to cut any type of needs in our community.
    Let me move on, because I know something, Mr. Tahsuda, that 
is in your wheelhouse. I constantly hear, but I have not seen 
any discussion, but I heard a little bit about this from Mr. 
McGhee, which is, the DOI reorganization effort.
    One thing I do know about it is BIA budget includes 
$900,000 to support the DOI reorganization effort. But what I 
just heard from, I believe it was either Mr. McGhee or Mr. 
Payment, the tribal communities have not been brought into the 
discussion on what this looks like. I know I have not, and many 
people in my community have concerns about the reorganization 
and its impact.
    Can you enlighten me? What is the reorganization? What is 
the $900,000 used to support it? What are we looking at?
    Mr. Tahsuda. Thank you, Senator. The reorganization is 
department-wide. It would be the largest reorganization of the 
department at least since Teddy Roosevelt was President. Our 
part in that obviously has to do with the relationship with the 
tribes and sort of how we geographically administer our 
responsibilities to them.
    So the Secretary is committed from day one that the tribes 
would be consulted with, and they would not only get to look at 
the maps that everybody has but we will discuss with them how -
    Senator Cortez Masto. Have you consulted with them yet?
    Mr. Tahsuda. We have not.
    Senator Cortez Masto. Do you intend to?
    Mr. Tahsuda. We do. In fact we are finalizing plans to go 
out in a few months and start this process. This is not 
something that happens overnight. We wanted to proceed sort of 
carefully.
    We also have been talking internally with our regional 
directors, who work very closely with the tribal leaders in 
their regions to try to identify some things that would be good 
to discuss at a consultation. So that will be prepared and be 
going out in a few weeks through the tribal leaders with some 
suggested dates and locations to do that consultation.
    The $900,000 is in some ways a placeholder. One of the 
concepts in the reorganization is unified regions where you 
could have some common leadership in a region across the 
bureaus that are in that region. To do that requires little bit 
of planning.
    Senator Cortez Masto. Are these management areas that I 
hear about, common management areas?
    Mr. Tahsuda. Yes, that is one way to describe them. But it 
would be really to get better decision-making when you have 
different bureaus that weigh in on a particular matter that is 
before the Department. We often have that, where you have BLM 
land next to a tribal reservation or something, we have to do.
    So the idea is that that would be a more efficient way to 
reach the decision-making on behalf of everybody.
    Senator Cortez Masto. Thank you. I know my time is about 
up. Let me just add one additional thing. I was just out at a 
Moapa Indian reservation in Southern Nevada. Same thing, 
concerns that I hear that I understand my colleagues talked 
about were the cuts to our law enforcement and basic law 
enforcement needs in our tribal communities. I cannot think of 
better use of this money than going into more money for victims 
of crime, more money for law enforcement, more money for the 
needs of our tribal communities who quite often are left behind 
when it comes to their law enforcement needs.
    So I am hoping that as we look at this and we are looking 
at putting money back into this that the opportunity to 
continue to support our tribal communities, our women and our 
children and victims and law enforcement, is something that the 
agencies are going to focus on as well. So thank you. I know my 
time is up.
    The Chairman. Vice Chairman, do you have any further 
questions for the witness?
    Senator Udall. Yes, since we are on the second round, and 
we have Senator Daines here. We have to take care of him on the 
first round, right?
    The Chairman. Yes, Senator Daines, pardon me. I am sorry. 
Take six minutes.
    [Laughter.]

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman and Ranking Member 
Udall. I was certainly very pleased last month when Secretary 
Zinke visited the Blackfeet Reservation to authorize the first 
transfer of funds for the Blackfeet Water Rights Settlement. It 
was a long time coming. I worked with Secretary Zinke back when 
he was Congressman Zinke, when he was in the House, I was in 
the Senate. We got that across the finish line.
    As you know, though, in order for the settlement to be 
effective, all funds must be appropriated by the 2025 deadline. 
Unfortunately, we won't get there on the current rate of 
funding proposed in the President's budget. To get back on 
track, over $50 million must be appropriated for the settlement 
each year.
    Mr. Tahsuda, will the Department of Interior work with me 
to secure as much funding as possible to implement the 
settlement so it can become enforceable by the 2025 deadline?
    Mr. Tahsuda. Thank you, Senator. Yes, implementation of the 
Blackfeet Water Settlement is a high priority for the 
Secretary. As you know, and to be supportive of your efforts in 
any way that we can to make sure that access to those 
settlements funds are appropriated in a timely fashion.
    We generally do that across the board, because you know we 
have statutory deadlines like that that come up with various 
water settlements as they come up. We work to try to meet 
those.
    Senator Daines. Can I also get your commitment to propose 
more funding for the settlement in both the Bureau of 
Reclamation and Bureau of Indian Affairs accounts in future 
budget requests, to ensure the settlement is implemented in a 
timely manner?
    Mr. Tahsuda. Well, Bureau of Rec is a little out of my 
league, but I will certainly bring that back to the Secretary. 
I know we have a commitment from our Bureau, at least, in 
working on that. I am sure Bureau of Rec will be interested in 
working on that as well.
    Senator Daines. I appreciate it. It is going to take a team 
effort, combined effort of the Administration, as well as the 
Montana Congressional delegation, to finally see this 
settlement put into action. Thanks for your help on that.
    I would like to turn now to the physical maintenance needs 
in a certain school in the Northern Cheyenne Tribal 
Reservation, and that is in Busby, Montana. Specifically, it 
has rusty pipes, a dysfunctional kitchen where they can't cook 
the kids' food, the asbestos in the building. And because of it 
all, the low morale among the students and teachers.
    And it really begs the question, how can we expect Native 
students to succeed if we can't create the most basic 
environment that promotes learning?
    My question is, Mr. Tahsuda, will the Department support a 
legislative proposal consistent with the proposed Public Lands 
Infrastructure Fund in the President's budget request to 
support the repair and replacement of BIE schools that are in 
poor condition?
    Mr. Tahsuda. Thank you, Senator. Yes, I think we are happy 
to work with Congress to determine the best way to implement 
that. As I mentioned earlier, we have the $634 million backlog 
on deferred maintenance. So in the best fiscally responsible 
manner, it would probably be appropriate to look at some of 
those schools and replace them rather than keep up with 
deferred maintenance, which ends up being more expensive than 
having a new school facility.
    So certainly, we are happy to work with you and the 
Chairman and Vice Chairman and the Congress to give us the 
authority we need to address the schools in the best way 
possible. The Secretary cares very much about this. As you 
know, he has been to several tribal schools now. It is a high 
priority.
    Senator Daines. Yes. What are the needs the Department sees 
as most pressing as you look across the BIA system? I know you 
have mentioned 2016 and other lists in response to Chairman 
Hoeven. But I am looking for more detail.
    Mr. Tahsuda. For the BIE system?
    Senator Daines. Right.
    Mr. Tahsuda. Clearly, infrastructure is the most pressing. 
But we also have a need to address teacher recruitment, 
infrastructure for teachers. As you know, many of the schools 
are in very rural locations. Getting good, qualified teachers 
to go to those locations often requires having housing 
available for them as well. So being able to provide the 
facilities for the kids, facilities for the teachers.
    And we have some internal ideas about how we can do a 
better job of recruiting teachers as well. I don't think 
historically the BIE has been able, through its own internal 
policies, has been able to do the best job of recruiting the 
teachers that we need.
    Senator Daines. Lastly, I am going to take the Chairman up 
on this extra minute, the BIA proposed budget also includes 
$2.5 million to address the opioid crisis in Indian Country. In 
Montana, and among Montana's Indian tribes, meth is actually 
more of our issue. They are both a problem; meth is the bigger 
problem. The Fort Belknap Indian Community, for example, is in 
a state of emergency over the meth epidemic. In fact, the Crow 
Tribe saw a meth-fueled triple homicide just last summer.
    Mr. Tahsuda, will this funding also be used to combat the 
meth crisis?
    Mr. Tahsuda. Thank you, Senator, are you talking about the 
$2.5 million?
    Senator Daines. Yes. So along with the opioid questions, 
will you also address the meth issue?
    Mr. Tahsuda. Yes, Senator. I would say, yes, we will be. 
Senator, as you know, the drugs don't separate themselves out 
when they come in. They often come in together. And in fact, I 
don't know if you saw earlier today, but the Secretary, along 
with the White House, made an announcement last week, we ran a 
major interdiction effort in New Mexico. In addition to other 
drugs, 48 pounds of meth was part of the confiscation.
    So certainly, while you call it an opioid effort, our 
attention is to address the drug epidemic in general on the 
reservations, particularly with our law enforcement resources.
    Senator Daines. Thank you very much. Thanks, Mr. Chairman.
    The Chairman. Vice Chairman Udall?
    Senator Udall. Thank you, Mr. Chairman.
    Tribes are disproportionately impacted by rapidly-changing 
climates. I see that in New Mexico with my tribes. The tribes, 
I really feel, in many cases, on some of my visits, the tribes 
are at ground zero for things like drought, wildfires, fishery 
disasters. These things are happening all across the United 
States.
    So given that tribes play a vital role in adapting to 
climate change, and given that 95 million acres of land managed 
either by tribes or for the benefit of tribes by the United 
States, and mind you, that is 11 million more acres than the 
entire National Park Service manages, Mr. Tahsuda, given the 
important role tribes can play in addressing climate change, 
why did Interior eliminate the Tribal Climate Resilience 
Program?
    Mr. Tahsuda. Thank you, Vice Chair. Again, the primary 
thrust of the budget, the underlying theme is focusing on our 
core operations, core priorities.
    Senator Udall. This is a core priority for tribes.
    Mr. Tahsuda. What is a core priority, I think, Senator, is 
addressing the impacts. We have, we follow the science and the 
law when it comes to these matters. We have a responsibility to 
address the situation on the ground. We provide resources to 
the tribes to do that. We provide them through, for grazing 
lands, we have, again, we try to help the tribes address those. 
In most instances, they are best addressed, they are in the 
best position to identify those impacts. Our job really is to 
assist them in addressing those. That is what we see as one of 
our core, not just a core priority but a trust responsibility.
    Senator Udall. I can just tell you from the things that I 
see on the ground in New Mexico, the resources are not there in 
any of the programs. This is severely, severely, underfunded. 
So eliminating a program like this Tribal Climate Resilience 
Program really hits to the heart of what tribes are trying to 
do to survive and continue their way of life.
    The Centers for Disease Control and Prevention recently 
reported that the rate of Hepatitis C infection tripled between 
2010 and 2015, mostly due to the use of needles by a growing 
number of drug users. These secondary health complications of 
substance abuse, things like increased rates of bloodborne 
infectious disease and of neonatal abstinence syndrome can 
prove just as costly to treat and just as deadly for many 
Native communities.
    Mr. Weahkee, does IHS have any data on changing numbers of 
IHS patients presenting with opioid use-related bloodborne 
infectious diseases like Hepatitis C and HIV-AIDS, or house 
statistics on rates of neonatal abstinence syndrome?
    Mr. Weahkee. Thank you, Senator Udall, for the question. 
With regard to Hepatitis C infection rates, we know nationally 
that approximately one in 30 baby boomers is infected. Our 
initial data tells us that we have approximately 34,000 
patients in Indian Country infected with Hepatitis C. We know 
it is very costly to treat.
    We are just now beginning to look at the tie between opioid 
use and rates of Hepatitis C and HIV-AIDS. So we are gathering 
the body of evidence to be able to come back and provide you 
with more finite information.
    Senator Udall. Please do that and give us a very full 
answer in the record. We would really appreciate that.
    Vice Chairman McGhee, do you believe that IHS and other 
agencies at HHS are requesting enough funding resources to deal 
with these related health complications in tribal communities 
we were just talking about?
    Mr. McGhee. Even though we have had some increases, of 
course those increases are not enough. We talked about the 
increases, but yet we have also eliminated certain programs. We 
eliminated the Community Health program, that is a program that 
is vital to our Tribe, we use that program a lot. And if we are 
looking at the opioid crisis, if we are looking at these drug 
epidemics, like the meth problem that Senator Daines was 
talking about, there are various programs that all could work 
together. The other one is the Health Education Program that 
was eliminated, too.
    All these programs could work together for us to determine 
what the issues are and how can we impact those issues. We need 
to look at the possibility of saying, okay, these programs are 
needed. We appreciate the increase that were made, but these 
programs that were eliminated are needed because they were 
doing an effective job by going into the community and 
addressing the problems and seeing what they are.
    So I think, as Senator Murkowski related, all these things 
are connected. When you look at all of things, you have to look 
at the holistic approach to the issues that are impacting 
tribal nations, especially when it comes to health care. And it 
is holistic. We cannot look at one without looking at the other 
one.
    I think this goes back to, she was talking about housing 
needs, she was talking about infrastructure needs. All of these 
have an impact, so when there is a cut or elimination of a 
program, you are impacting the tribes.
    Senator Udall. Vice President Payment, do you have any 
thoughts on this same issue?
    Mr. Payment. We were talking about the reductions and the 
incidence of Hepatitis C. I was just thinking, I am from a 
large family; I have three brothers that have Hepatitis C and 
two are deceased. So I think the urgency might be lost in the 
statistics a little bit.
    Again, the budget proposal is good. So in some ways, there 
is a term in public policy called satisfice. And satisficing, 
because it is better than what we have had. But if you look at 
the budget formulation and self-governance committees and 
direct service tribes' groups and the advocacy of what is 
actually needed to fulfill the trust responsibility. We are 
only scratching the surface.
    So certainly, any kind of cuts to programs and services 
that have demonstrated their utility is not warranted and not 
supported by tribal Indian Country.
    Senator Udall. Thank you. I want to express my thanks to 
the entire panel today. Thank you very much, Mr. Chairman.
    The Chairman. I would also like to express my thanks to all 
of you for being here today.
    With that, if there are no more questions, then we will 
conclude the hearing. The hearing record will be open for two 
weeks and members can submit additional questions in writing. 
We would ask that you respond to them as promptly as you can.
    With that, again, thank you, and we are adjourned.
    [Whereupon, at 4:22 p.m., the Committee was adjourned.]

                            A P P E N D I X

   Prepared Statement of Ahniwake Rose, Executive Director, National 
                  Indian Education Association (NIEA)
    Dear Chairman Hoeven:
    On behalf of the National Indian Education Association (NIEA), I 
respectfully submit the following comments in response to the 
President's Fiscal Year (FY) 2019 Budget Request for programs that 
impact Native students.
    NIEA is the most inclusive national organization advocating for 
improved educational opportunities for American Indian, Alaska Native, 
and Native Hawaiian students. Our mission centers on ensuring that 
Native students have access to a high-quality academic and cultural 
education, a goal that is only possible if Congress upholds the federal 
trust responsibility to tribes.
The Federal Trust Relationship
    Congress has a federal trust responsibility for the education of 
Native students. Established through treaties, federal law, and U.S. 
Supreme Court decisions, the federal government's trust responsibility 
to tribes includes the obligation to provide parity in access and equal 
resources to all American Indian and Alaska Native students, regardless 
of where they attend school. The President's Budget Request for FY 2019 
represents a rupture in the federal trust responsibility, an obligation 
shared between the Congress and the Administration for federally-
recognized tribes.
The President's FY 2019 Budget for Native Education Programs
    NIEA has significant concerns regarding the proposed budgets for 
the Department of Interior and the Bureau of Indian Education (BIE) as 
well as the Department of Education (DoED). Overall, the President's 
Budget for FY 2019 proposed a 19 percent cut to the BIE and a five (5) 
percent cut to the DoED. These cuts disproportionately impact Native 
students, reducing tribal funding for resources and programs that 
support college, career, and community readiness.
    The Administration's budget reflects steep cuts of over $172 
million in funding for BIE education programs and $165 million for BIE 
school construction and facilities improvement. Severe cuts and 
elimination of key programs, including the Johnson-O'Malley program, 
ISEP formula funds, post-secondary scholarships, early childhood 
education, and juvenile justice detention centers, represent a failure 
to uphold the BIE's fiduciary responsibility through the federal trust 
relationship.
    Despite estimates of over $1.3 billion in need for construction at 
Bureau funded schools, the President's Budget completely eliminates 
funding for school and education facilities construction. Instead, the 
budget proposes $72.8 million to repair existing schools, which 
currently have a maintenance backlog of over $640 million. Such steep 
cuts to funding for safe and healthy classrooms for Native students 
amount to extreme neglect of Native students and families.
    Similarly, the President's Budget for FY 2019 fails the 92 percent 
of Native students in public schools by cutting over $602 million from 
programs that impact Native students. The proposed budget slashes and 
eliminates critical education programs in Native communities, including 
Title VI Indian Education Grants, Native Hawaiian and Alaska Native 
education programs, Tribal Colleges and Universities, Impact Aid, and 
Title I.
    The BIE and DoED must uphold their constitutional obligations to 
tribal nations by fully funding programs that serve the unique academic 
and cultural needs of Native students. Tribes and Native communities 
must have access to the resources necessary for Native students to 
engage and thrive in the classroom and beyond. The following funding 
levels for key federal education programs would promote Native student 
success in the classroom and beyond:
DEPARTMENT OF THE INTERIOR
               interior--environment appropriations bill
    Education Construction--Provide $430 million for Bureau of Indian 
Education (BIE) school construction and repair. An increase of $191.7 
million above FY 2018 enacted.

  <bullet> This funding category includes school construction, 
        facilities improvement and repair, and replacement school 
        construction.

  <bullet> The Department of the Interior's Office of Inspector General 
        published in September of 2016, an evaluation titled 
        ``Condition of Indian School Facilities,'' estimated the cost 
        of fixing the dilapidated BIE schools, concluding that more 
        than $430 million would be needed to fix the problems already 
        identified.

    Broadband Internet Access--Provide $40 million to extend broadband 
Internet access. An increase of $21.15 million above FY 2018 enacted.

  <bullet> Less than ten percent of Indian Country has access to 
        broadband Internet technology and 60 percent of BIE schools do 
        not have adequate digital broadband access, or computer access, 
        to be aligned with college and career readiness standards.

  <bullet> Expand e-rate for BIE schools, Native majority schools and 
        Tribal Colleges and Universities.

    Johnson O'Malley--Provide $42 million for full funding. An increase 
of $27.1 million above FY 2018 enacted.

  <bullet> The Johnson O'Malley program has provided grants to 
        supplement basic student needs by assisting with the unique 
        academic and cultural needs of Native students since 1934.

  <bullet> The federal government allocated $125 per student in JOM 
        funding in 1995. Current funds (FY 2017) provide less than 
        $63.80 per student, which are often the only source through 
        which Native students--including those in public schools--can 
        engage in basic education activities.

    Juvenile Detention Education--Provide $620,000 for juvenile 
detention education in BIA-funded facilities. An increase of $120,000 
above FY 2018 enacted.

  <bullet> This essential funding is used to provide educational 
        services to detained and incarcerated youth at 24 BIA-funded 
        juvenile detention facilities.

  <bullet> One of the best methods to rehabilitate individuals is 
        through education and eliminating this program creates 
        additional costs by increasing the rate of criminal recidivism.

    Student Transportation--Provide $73 million for student 
transportation in the BIE system. An increase of $16 million above FY 
2018 enacted.

  <bullet> BIE schools incur disproportionately high costs in 
        transporting Native students to and from school due to the 
        often-rural location of BIE facilities.

  <bullet> These high costs often lead to funding shortfalls, which 
        then must either go unpaid or funded by diverting funds from 
        other education programs.

    Tribal Grant Support Costs--Provide $90 million for tribal grant 
support costs for tribally-operated schools. An increase of $9 million 
above FY 2018 enacted levels.

  <bullet> Tribal Grant Support Costs fund the administrative costs of 
        existing tribally-operated schools.

  <bullet> Full funding is critical as these funds help tribes expand 
        self-governance and tribal control over education programs. 
        Schools must divert critical teaching and learning funding to 
        cover any shortfalls in operational costs.

    Facilities Operations--Provide $109 million for BIE facilities 
operations. An increase of $42.4 million above FY 2018 enacted.

  <bullet> BIE schools use this funding for costs such as electricity, 
        heating fuels, communications, GSA vehicle rentals, custodial 
        services, and other vital operating expenses.

  <bullet> For years, schools have only received roughly 50 percent of 
        funding needed for these expenses. This shortfall is 
        unacceptable as costs continue to rise for vital services.

    Facilities Maintenance--Provide $76 million for BIE facilities 
maintenance. An increase of $16.5 million above FY 2018 enacted.

  <bullet> BIE schools use this funding for the preventative and 
        routine upkeep, as well as for unscheduled maintenance of 
        school buildings, grounds, and utility systems.

  <bullet> Underfunding of maintenance continues to be an issue as 
        buildings are in poor conditions and cannot maintain proper 
        standards.

    Indian School Equalization Program (ISEP)--Provide $431 million for 
the Indian School Equalization Program. An increase of $24 million 
above FY 2018 enacted.

  <bullet> These funds provide the core budget account for BIE 
        elementary and secondary schools by covering teacher salaries, 
        aides, principals, and other personnel.

  <bullet> ISEP funds are often reallocated to cover the program cuts 
        in other areas of education.

  <bullet> ISEP must have adequate funding to ensure all program needs 
        are fulfilled and must not be reduced to provide funds for new 
        initiatives that have not been vetted by tribes.

    Bureau of Indian Education Immersion Demonstration Grants--Provide 
$5 million for BIE immersion programs. An increase of $3 million above 
FY 2018 enacted.

  <bullet> According to UNESCO, 74 Native languages stand to disappear 
        in the next decade, with only 20 Native languages being spoken 
        by 2050.

  <bullet> Providing Immersion Demonstration Grant funds protects the 
        cultural and linguistic heritage of Native students in 
        education systems by providing Native students immersion 
        learning in order to strengthen language, improve academic 
        outcomes, and become future leaders of their tribes.

    Tribal Education Agencies/Departments--Provide $10 million to fund 
Tribal Education Agencies/Departments. An increase of $7.5 million 
above FY 2018 enacted.

  <bullet> This funding assists Tribal Education Agencies (TEAs), who 
        are uniquely situated at the local level to implement 
        innovative education programs that improve Native education.

  <bullet> TEAs would use this much-needed funding to develop academic 
        standards, assess student progress, and create math and science 
        programs that require high academic standards for students in 
        tribal, public, and BIE schools.

    Institute of American Indian Arts (IAIA) and Center for Lifelong 
Education--Provide $9.9 million to the Center & Museum under the 
American Indian, Alaska Native, and Native Hawaiian Culture and Art 
Development Act. Level funding with FY 2018.

  <bullet> IAIA is the only fine arts institution that awards bachelor 
        and master degrees devoted to the study of contemporary Native 
        American and Alaska Native arts.

  <bullet> IAIA has graduated more than 3,800 students from federally-
        recognized tribes and beyond. Of the $16.9 million requested, 
        provide $11.8 million.

    Haskell Indian Nations University (HINU) and Southwestern Indian 
Polytechnic (SIPI)--Provide $25.0 million to HINU and SIPI under the 
Snyder Act. An increase of $6.7 million above FY 2018 enacted.

  <bullet> These institutions are federally chartered and funded 
        separately from the other tribal higher education institutions 
        and require additional funding considerations.

  <bullet> Of the $37.8 million requested, a one-time payment of $14.8 
        million is needed to forward fund these institutions, so that 
        they can receive their institutional operating funds on an 
        academic calendar (July 1), rather than the federal fiscal year 
        (October 1).

DEPARTMENT OF EDUCATION
   labor, health and human services and education appropriations bill
    ESSA Title I, Part A: Local Education Agency Grants--Provide $20 
billion for Title I, Part A. An increase of $4.2 billion above FY 2018 
enacted.

  <bullet> Title I of the Every Student Succeeds Act (ESSA) provides 
        critical financial assistance to local educational agencies and 
        schools with high percentages of children from low- income 
        families that ensure all children meet challenging state 
        academic standards.

  <bullet> ESSA's appropriation for FY2018 is $15.5 billion. However, 
        in order to counter annual inflation and sequestration, a 
        drastic increase in funding is needed to meet the needs of 
        Native students and students from low-income families.

    ESSA Title VI: Indian Education Formula Grants--Provide $198 
million for Title VI, Part A. An increase of $92.7 million above FY 
2018 enacted. Authorized funding for Title VI, Part A for FY2017 is 
$105.3 million. Increases are needed as this critical grant funding is 
designed to supplement the regular school program and assist Native 
students so they have the opportunity to achieve the same educational 
standards and attain parity with their non-Native peers.

  <bullet> Title VI funds support early-childhood and family programs, 
        academic enrichment programs, curriculum development, 
        professional development, and culturally-related activities.

  <bullet> As Native students lag far behind their non-Native peers in 
        educational achievement, increased funding is necessary to 
        address this substantial gap.

    ESSA Title VI, Part A, Subpart 2: Special Programs and Projects to 
Improve Educational Opportunities for Indian Children--Provide $67.9 
million for Title VI, Part A, Subpart 2: Special Programs and Projects 
to Improve Educational Opportunities for Indian Children.

  <bullet> ED's Native Youth Community Projects initiative provides 
        better comprehensive, community-driven strategies to improve 
        college and career-readiness of Native youth.

    ESSA Title VI, Part A, Subpart 3: Language Immersion and National 
Activities--Provide $10 million for Title VI, Part A, Subpart 3. An 
increase of $3.1 million above FY 2017 enacted.

  <bullet> Under the ESSA, language immersion programs are funded in 
        public schools. It is well documented that Native students are 
        more likely to thrive in environments that align with their 
        language and culture.

    ESSA Title VI, Part B: Native Hawaiian Education Program--Provide 
$36.4 million Title VI, Part B.

  <bullet> The Native Hawaiian Education program empowers innovative 
        culturally appropriate programs to enhance the quality of 
        education for Native Hawaiians. When establishing the Native 
        Hawaiian Education Program, Congress acknowledged the trust 
        relationship between the Native Hawaiian people and the United 
        States.

  <bullet> These programs strengthen the Native Hawaiian culture and 
        improve educational attainment, both of which are correlated 
        with positive economic outcomes.

    ESSA Title VI, Part C: Alaska Native Education Equity Assistance 
Program--Provide $36.4 million for Title VI, Part C.

  <bullet> Alaska does not receive any BIE funding, making this source 
        of funding the only resource available for Alaska Native tribes 
        and organizations to provide supplemental programs that address 
        the achievement gap for Alaska Native students.

  <bullet> This funding is crucial to closing the gap between Alaska 
        Native students and their non- Native peers as eligible 
        activities include professional development for educators, 
        activities carried out through Even Start programs and Head 
        Start programs, family literacy services, and dropout 
        prevention programs.

    ESSA Title VII: Impact Aid--Provide $2 billion for Title VII. An 
increase of $589 million above FY 2018 enacted.

  <bullet> Impact Aid provides direct payments to public school 
        districts as reimbursement for the loss of traditional property 
        taxes due to a federal presence or activity, including the 
        existence of an Indian reservation.

  <bullet> With nearly 93 percent of Native students enrolling in 
        public schools, Impact Aid provides essential funding for 
        schools serving Native students.

    School Construction--Provide $500 million for school construction. 
Provide funding for school construction consistent with the Trump 
Administration's focus on infrastructure by providing funding in 
communities where significant concentrations of Native students attend 
public schools.

  <bullet> With 93 percent of Native students in public schools and 
        more than 40 percent of Native students in rural communities 
        with limited capacity for bonding, investing in Indian Country 
        via schools will help prepare Native students for the 21st 
        century economy.

    HEA Title III: Tribal Colleges and Universities--Provide $65 
million ($30 million in discretionary funding and $30 million in 
mandatory funding) for Title III-A grants under the Higher Education 
Act for Tribal Colleges and Universities.

  <bullet> Titles III and V of the Higher Education Act, known as Aid 
        for Institutional Development programs, support institutions 
        with a large proportion of financially disadvantaged students 
        and low cost-per-student expenditures.

    HEA Title III: Tribal Colleges and Universities: Adult/Basic 
Education--Provide $8 million for American Indian Adult/Basic Education 
at Tribal Colleges and Universities, from existing funds appropriated 
for state block grant funding. No such set-aside from existing funds 
included in FY 2018 enacted.

  <bullet> Despite an absence of dedicated funding, TCUs must find ways 
        to continue to provide basic adult education classes for those 
        American Indians that the present K-12 Indian education system 
        has failed.

  <bullet> There is a wide-ranging need for adult basic education and 
        literacy programs and TCUs need adequate funding to support the 
        ever increasing demand for adult education and remediation 
        program services.

    HEA Title III, Part F: Native American-Serving, non-Tribal 
Institutions--Provide $10 million for non-tribal, Native-serving 
institutions of higher education. An increase of $1.7 million above FY 
2018 enacted.

  <bullet> Funds provided under this line item serve as the primary 
        source of federal funding for Native-serving, non-tribal 
        institutions of higher education.

  <bullet> With nearly 100 institutions potentially qualifying as 
        Native-serving, non-tribal institutions, an increase in funding 
        will provide the opportunity for more Native-serving 
        institutions to better serve their students and increase 
        graduation rates among Native students.

    Perkins: Tribally Controlled Post-Secondary Career and Technical 
Institutions--Provide $10 million for postsecondary career and 
technical institutions program funds under Carl Perkins Technical and 
Career Education Act. An increase of $1.7 million above FY 2018 
enacted.

  <bullet> Vocational education/training programs are very expensive to 
        conduct, but are vital to preparing a future workforce that 
        will operate safely and efficiently contributing greatly to the 
        global economy.

  <bullet> Currently, two TCUs participate in this funding program: 
        United Tribes Technical College in North Dakota, and Navajo 
        Technical University in New Mexico. The TCUs urge Congress to 
        appropriate $10 million for Sec. 117 of the Act.

Infrastructure Proposal for BIE School Construction
    Though NIEA is pleased to see BIE schools included in the $18 
billion ``Public Lands Infrastructure Fund'' proposal from President 
Trump, we remain concerned that the means for obtaining funds could 
infringe on public lands. If the proposal were to fully respect tribal 
sovereignty and provide the full funding that BIE schools need--more 
than $640 million in immediate funding and at least $1.3 billion in 
funding for construction and maintenance--then NIEA will of course be 
interested in learning more about the proposal. If, however, the 
proposal is for funding that does not respect the inherent sovereignty 
of tribes, we could not support it.
    NIEA is concerned about steep cuts to education construction for 
BIE schools without any details or tribal input regarding the current 
infrastructure proposal. As expressed by Chairman Payment of the Sault 
Ste. Marie Tribe of Chippewa Indians during the hearing, the 
Administration has slashed critical construction and maintenance 
funding for the BIE in exchange for the possibility of future funding 
in the infrastructure proposal. The proposed infrastructure package 
does not abrogate the federal trust responsibility to fund construction 
for BIE schools in the federal budget. Though current funding levels 
fail to fully address the $640 million need for construction, the need 
for construction and repair in BIE schools is too great to wait for a 
possible infrastructure package without ongoing funding to address 
construction needs. Native students must have access safe and healthy 
classrooms where they can learn and thrive.
Conclusion
    With these concerns and through these recommendations on the 
President's FY 2019 Budget Request for Indian programs, NIEA looks 
forward to working with the Chairman to pass a budget that serves the 
unique needs of the only students that the federal government has a 
direct responsibility to educate--Native students.
                                 ______
                                 
 Prepared Statement of Chris James, President/CEO, National Center for 
                 American Indian Enterprise Development
    The National Center for American Indian Enterprise Development 
(``The National Center'' or ``NCAIED'') appreciates this opportunity to 
present our views on the President's Budget Requests for Fiscal Year 
(FY) 2019 for Indian Programs that most directly affect business, 
economic and energy development in Indian Country.
    With over 40 years of assisting American Indian Tribes and their 
enterprises with business and economic development, the National Center 
has evolved into the largest national Indian specific business 
organization in the United States. Driven by our motto--''We Mean 
Business of Indian Country''--we are actively engaged in helping Tribes 
and native enterprises and entrepreneurs realize their business goals. 
We fulfill our mission by assisting with business, financing and 
contracting needs, including trainings, business development and other 
guidance, marketing tools, access to capital, and procurement technical 
assistance. In addition to our American Indian Procurement Technical 
Assistance Center (AIPTAC), we will be expanding our procurement and 
technical assistance to new areas and developing the Native Edge 
Institute to offer one-on-one counseling to Native businesses and 
entrepreneurs. We are revamping our Native Edge online portal and will 
add a lending component through participation of Community Development 
Financial Institutions (CDFIs). Our growing annual Reservation Economic 
Summits (RES) will continue to offer conference sessions, training 
workshops, Buy Native Procurement Matchmaking, Trade Show, and other 
networking opportunities.
Overview of FY 2019 Budget Requests for Indian Programs
    The National Center views many of the FY 2019 Budget Requests for 
Indian Programs with skepticism and opposes the deep cuts or 
elimination of several key programs that support business, economic, 
housing and community development in Indian Country. Programs that 
should be strengthened, not eliminated, include HUD's Indian Community 
Development Block Grant Program, and Labor's Indian and Native American 
(Jobs) Program. Given the federal trust obligations to sovereign tribal 
governments, the federal budget must provide the essential support that 
federal offices and programs need to fulfill those obligations, and 
that means maintaining current or increasing funding levels. Our 
recommendations include examples of the programs worthy of greater 
resources because of their targeted support for tribes and Indian 
communities specifically.
Federal Support as Leverage for Business and Economic Development in 
        Indian Country
    The National Center's previous budget views on the FY 2017 and 2018 
Budget Requests noted many of the programs that address our key 
priorities. We are pleased that the FY 2018 Omnibus Appropriations 
agreement increased funding for advance several of our priorities, but 
the FY 2019 Budget Requests propose cuts, some drastic, to these 
important programs. We urge the Senate Committee on Indian Affairs to 
consider our recommendations below and incorporate them into its own 
recommendations to the Senate Budget and Appropriations Committees:
Business and Procurement Technical Assistance
  <bullet> Procurement Technical Assistance Program: In the FY 2019 
        Department of Defense (DOD) appropriations for Title III, 
        Operations and Maintenance--Defense-Wide, Congress should 
        provide the FY 2018 enacted level of $38.5 million for the 
        Defense Logistics Agency's Procurement Technical Assistance 
        Cooperative Agreement Program to support the Procurement 
        Technical Assistance Centers (PTACs) that operate across the 
        country, and continue to set aside a specific amount for 
        American Indian PTACs (AIPTACs). This funding helps leverage 
        private matching funds of PTACs and AIPTACs to provide 
        procurement technical assistance to small business contractors 
        seeking contracts with federal, state, local and tribal 
        governments. To enable AIPTACs to assist contractors seeking 
        opportunities afforded by hikes in defense spending, and to 
        match the authorized funding level for AIPTACs, our FY 2019 
        recommendation: At least $38.5 million for all PTACs, including 
        $4.5 million for AIPTACs.

  <bullet> 5 percent Indian Incentive Program: Congress should continue 
        to include in Defense Appropriations, Title VIII--General 
        Provisions, mandatory funding for this important program that 
        supports defense procurement objectives by affording eligible 
        DOD prime and higher-tier contractors an incentive payment of 5 
        percent of the value of contract work awarded to and performed 
        by subcontractors owned by American Indian, Alaska Native, or 
        Native Hawaiian individuals or communities. Prior years' 
        funding of $15 million annual resulted in $1.7 billion worth of 
        work subcontracted to native-owned companies, yet a substantial 
        backlog remains (well over $30 million in qualified incentive 
        payment requests). Working down this backlog will require a 
        sustained funding effort, and the $20 million just approved for 
        FY 2018 is a first step in that direction. To keep decreasing 
        the backlog, and align with higher DOD procurement spending, 
        our FY 2019 recommendation: $20 million for the 5 percent 
        Indian Incentive Program.

  <bullet> Minority Business Development Agency: The FY 2019 Budget 
        Request proposes $10 million for the MBDA at the Department of 
        Commerce, and reform of its service delivery model and re-
        orient its focus on policy, advocacy research and public/
        private partnership.
         Operating as an Executive Order agency, MBDA has funded some 
        Native American-focused MBDA Centers and has provided the only 
        funding ever made available for the statutorily authorized 
        Office of Native American Business Development (ONABD). The FY 
        2018 enacted level for MBDA is $39 million for MBDA, with 
        conference report language directing that no less than 50 
        percent of its funding be awarded through competitive 
        agreements, external awards and grants. Just as level funding 
        for MBDA is important, we strongly believe, as noted below on 
        p. 4, that funding should be provided for the ONABD as 
        authorized in the Senate-passed ``Indian Community Economic 
        Enhancement Act'' (S. 1116). That bill places the ONABD within 
        the Office of the Secretary of Commerce where it belongs, not 
        under the purview of the MBDA. Our FY 2019 recommendation: $39 
        million for MBDA, with more support for Native-focused Business 
        Centers.

  <bullet> Administration for Native Americans: We are pleased that the 
        FY 2019 Budget Request proposes $52 million for ANA, including 
        its effective competitive grant program to implement Social and 
        Economic Development Strategies (SEDS), and that the Senate 
        just passed S. 1116 to reauthorize ANA and enhance the SEDs 
        program. Our FY 2019 recommendation: At least $52 million for 
        ANA.
Leveraging Federal Funds to Increase Access to Capital
  <bullet> Indian Loan Guarantee Program: Once again, needed funding 
        for this key DOI loan guarantee program faces a proposed cut 
        for FY 2019, down to $6.597 million with a cap of $108.55 
        million in aggregate loan value. Congress has been adding funds 
        to this essential program, just approving $9.27 million for FY 
        2018, with a higher aggregate loan cap of $123.6 million, to 
        help meet Indian Country's financing needs. This program 
        successfully incentivizes and leverages private sector lending 
        for tribal, tribal enterprise and other native business 
        projects for business expansion, economic or energy 
        development. With a great track record of successful projects, 
        the program produces a $16 return on each $1 of the federal 
        investment. Our FY 2019 recommendation: $15 million to support 
        as much as $250 million in private sector financing for Indian 
        Country projects, including small infrastructure projects.

  <bullet> Tribal Energy Loan Guarantee Program: After many years, 
        Congress finally appropriated $9 million for FY 2017 for this 
        important program to leverage private financing for energy 
        project development in Indian Country. Sadly, the $9 million 
        was rescinded, but Congress approved $1 million for FY 2018 and 
        the Department of Energy's Loan Programs Office is conducting 
        listening sessions to arrive at the best approach to 
        implementing the Tribal Energy Loan Guarantee Program, even 
        though the FY19 Budget Request proposes to eliminate it. Our FY 
        2019 recommendation: $9 million to implement this key program.

  <bullet> Native CDFIs: The FY 2019 Budget Request proposes to 
        eliminate funding for Community Development Financial 
        Institutions (CDFI) Fund grants, including grants for Native 
        CDFIs as part of the Native American CDFI Assistance 
        initiative, and provide only limited funding to support 
        management of the CDFI Bond Guarantee Program, New Market Tax 
        Credits, and certification and compliance for Native and other 
        CDFIs. As barriers to capital access are nowhere more steep 
        than in Indian Country, greater support (not less) for Native 
        CDFI grants is critically necessary to make available more 
        small and micro loans for individuals and small businesses, and 
        to facilitate financial literacy and more entrepreneurial 
        development training, in Indian communities. Congress just 
        approved $250 million for the CDFI Fund, and of the $161 
        million for financial and technical assistance grants, $16 
        million was provided for Native CDFIs as well as a waiver of 
        the non-federal match requirement. Our FY 2019 recommendation: 
        $20 million for Native CDFI grant funding.

  <bullet> New Market Tax Credits: The FY 2019 Budget Request proposes 
        insufficient support for the CDFI Fund generally, and for the 
        New Market Tax Credit (NMTC) program. What should be provided 
        is a set aside for, or emphasis on investments into, 
        underserved tribal communities as the National Center and other 
        national native organizations have urged. Our FY 2019 
        recommendation: Increased support for NMTCs and set aside of 
        NMTC allocations for project development in Indian Country.
Support for High Level Federal Offices Focused on Native American 
        Affairs
    As noted in our previous years' budget recommendations, the 
National Center is convinced that business, economic, community and 
energy development advances in Indian Country when there is a high 
level Office within a key federal department or agency to focus its 
resources on Native American initiatives. Most of the key federal 
departments have supported such a high level office, although the FY 
2019 Budget Request reduces that support. Most unfortunate, the 
Department of Commerce (DOC) still has no operational Office of Native 
American Business Development (ONABD), as authorized in Public Law 106-
464, to help facilitate access to the Department's plentiful resources 
to promote commerce, international trade and tourism for Indian 
Country. As already noted, we strongly support speedy enactment of S. 
1116 to elevate and fund this Office so that it can coordinate all of 
Commerce's programmatic activities, as well as initiatives with other 
key federal departments, to increase business and economic development, 
trade and tourism in Indian Country!
    Below are the National Center's views on funding for these 
essential Offices:

  <bullet> Commerce--Office of Native American Business Development: 
        The ONABD should be placed in the office of the Secretary, with 
        a $2 million budget, as authorized in Senate-passed S. 1116. 
        Our FY 2019 recommendation: $61 million for DOC's Departmental 
        Management, within which $2 million should be set aside for the 
        ONABD.

  <bullet> DOI--Office of Indian Energy and Economic Development: The 
        FY 2019 Budget Request continues to underfund the economic 
        development activities of this important office. In addition to 
        funds for energy development-related initiatives, funding 
        should be increased for the Economic Development Division of 
        OIEED so that it can enhance its economic development 
        initiatives and implement programming for Native Business 
        Incubators, as proposed in Senate-passed S. 607. Our FY 2019 
        recommendation: $7 million more for OIEED.

  <bullet> SBA--Office of Native American Affairs: The FY 2019 Budget 
        Request includes $1.5 million for Native American Outreach, 
        down from $2 million enacted for FY 2018. This line item 
        supports SBA's Office of Native American Affairs, headed by an 
        Assistant Administrator to manage the outreach activities. Such 
        activities include multi-agency workshops, Native supplier 
        events, and facilitation of Native contractors' participation 
        in SBA's 8(a), HUBZone, women-owned business, veteran and 
        service disabled veteran-owned, and other small business 
        contracting programs. Our FY 2019 recommendation: $2 million 
        for Native American Outreach.

  <bullet> USDA--Office of Tribal Relations: The FY 2019 Budget Request 
        proposes $2 million for the Office of Partnerships and Public 
        Engagement, into which USDA has lumped four previously separate 
        programs, including the statutorily authorized Office of Tribal 
        Relations (OTR), previously funded at $500,000 or higher. The 
        OTR has led many successfully initiatives to coordinate USDA 
        programs to assist tribes and native agricultural enterprises, 
        and target USDA's assistance to enhance agricultural financing 
        and market access, and promote business, economic, community 
        and infrastructure development in Indian Country. We are 
        pleased that Congress continued at least level funding of 
        USDA's Rural Development programs that have so effectively 
        provided assistance to Indian communities, but we oppose the 
        cuts proposed in the FY 2019 Budget Requests. Our FY 2019 
        recommendation: $500,000 at least for the OTR specifically, and 
        preserve funding for the RD programs that best assist Indian 
        community development.

  <bullet> DOE--Office of Indian Energy Policy and Programs: The FY 
        2019 Budget Request of $10 million falls woefully short of what 
        the OIEPP needs and the level of $18 million provided for FY 
        2018. We commend this Committee for having endorsed a higher 
        funding level for this important office, and urge it to do so 
        again. Our FY 2019 recommendation: $20 million for the OIEPP.

    Thank you for the opportunity to present these views and reiterate 
our requests to increase support for the above programs that invest 
federal dollars as leverage to multiply exponentially the amount of 
tribal and private capital invested in Indian Country.
                                 ______
                                 
     Prepared Statement of the National Indian Health Board (NIHB)
    Chairman Hoeven, Vice Chairman Udall, and Members of the Committee, 
the National Indian Health Board (NIHB) thanks you for holding the 
hearing, ``The President's FY2019 Budget Request for Indian Programs.'' 
On behalf of NIHB and the 573 federally-recognized Tribes we serve the 
National Indian Health Board (NIHB) submits this testimony for the 
record. NIHB is a 501(c)3, not for profit, national Tribal organization 
founded by the Tribes in 1972 to serve as the unified, national voice 
for American Indian and Alaska Native (AI/AN) health in the policy-
making arena. Our Board of Directors is comprised of distinguished and 
highly respected Tribal leaders in AI/AN health. They are elected by 
the Tribes in each region to be the voice of the Tribes at the national 
level.
The Federal Trust Responsibility
    The federal promise to provide Indian health services was made long 
ago. Since the earliest days of the Republic, all branches of the 
federal government have acknowledged the nation's obligations to the 
Tribes and the unique trust relationship between the United States and 
Tribes.
    The Indian Health Service is the primary agency by which the 
Federal Government meets the trust responsibility for direct health 
services. IHS provides services in a variety of ways: directly, through 
agency-operated programs and through Tribally-contracted and operated 
health programs; and indirectly through services purchased from private 
providers. IHS also provides limited funding for urban Indian health 
programs that serve AI/ANs living outside of reservations. Tribes may 
choose to receive services directly from IHS, run their own programs 
through contracting or compacting agreements, or they may combine these 
options based on their needs and preferences.
    Today the Indian healthcare system includes 46 Indian hospitals 
(\1/3\ of which are Tribally operated) and nearly 630 Indian health 
centers, clinics, and health stations (80 percent of which are Tribally 
operated). When specialized services are not available at these sites, 
health services are purchased from public and private providers through 
the IHS-funded purchased/referred care (PRC) program. Additionally, 34 
urban programs offer services ranging from community health to 
comprehensive primary care. To ensure accountability and provide 
greater access for Tribal input, IHS is divided into 12 geographic 
Service Areas, each serving the Tribes within the Area. It is important 
to note that Congress has funded IHS at a level far below patient need 
since the agency's creation in 1955. In FY 2017, national health 
spending was $9,207 per capita while IHS spending was only $3,332 per 
patient.
    The Federal Government has yet to live up to the trust 
responsibility to provide adequate health services to our nation's 
indigenous peoples. Historical trauma, poverty, lack of access to 
healthy foods, loss of culture and many other social, economic and 
environmental determinants of health as well as lack of a developed 
public health infrastructure in Indian Country all contribute to the 
poor state of American Indian and Alaska Native (AI/AN) health. This 
underfunding of the IHS is clearly visible when examining the health 
disparities for AI/ANs. Among AI/ANs, the rate of drug overdose deaths 
is twice that of the general population, according to the IHS. Deaths 
from prescription opioid overdoses increased four-fold from 1999 to 
2013 among AI/ANs. According to the Office of Minority Health, from 
2009-2013, AI/AN men were almost twice as likely to have liver and 
inflammatory bowel disease (IBD) cancer as non-Hispanic White men and 
are 1.6 times as likely to have stomach cancer as non-Hispanic White 
men, and are over twice as likely to die from the same disease. AI/AN 
women are 2.5 times more likely to have, and almost twice as likely to 
die from, liver and IBD cancer, as compared to non-Hispanic White 
women. In 2015, AI/ANs were three times more likely to die from 
hepatitis C than non-Hispanic whites, and twice as likely to die from 
hepatitis B. In 2014, suicide was the second leading cause of death for 
AI/ANs between the ages of 10 and 34 and adolescent AI/AN females have 
death rates at almost four times the rate for White females in the same 
age groups. \1\
---------------------------------------------------------------------------
    \1\ Office of Minority Health. Minority Population Profiles, 
American Indian and Alaska Natives. https://minorityhealth.hhs.gov/omh/
browse.aspx?lvl=4&lvlid=39. Accessed on March 21, 2018.
---------------------------------------------------------------------------
    In FY 2017, the IHS per capita expenditures for patient health 
services were just $3,332, compared to $9,207 per person for health 
care spending nationally. Even other federally funded health systems do 
better than IHS. The Veterans' Health Administration's direct health 
care budget is 14 times that of the IHS yet served only 4 times the 
population with direct care services.
    Tribes are grateful for the recent increases to the IHS 
Appropriation over the last several years, but note that the increases 
have not allowed for significantly expanded services or improvements in 
equipment, buildings or staffing. While the IHS annual appropriated 
budget has increased by $2.2 billion (about 52 percent) since FY 2008 
much of this increases simply covers needs associated with population 
growth, inflation, full funding of Contract Support Costs and 
maintaining current services. This leaves little extra money for making 
actual improvements in health services or to build public health 
infrastructure for American Indians and Alaska Natives. We are only 2 
percent of the population. Congress, please take the courageous and 
ethical step of adequately funding health care for this country's first 
peoples.
    The following testimony reflects the IHS Tribal Budget Formulation 
Workgroup recommendations for FY 2019. \2\ The Tribal workgroup is 
comprised of American Indian and Alaska Native Tribal leaders, 
technicians and researchers, nationwide, who come together each year to 
form Indian Country's priorities as they relate to IHS. Through this 
process and product, this testimony reflects, therefore, the national 
Tribal voice.
---------------------------------------------------------------------------
    \2\ The full FY 2019 Tribal Budget Request is available at http://
nihb.org/legislative/budget_formulation.php
---------------------------------------------------------------------------
Indian Health Service Budget
    Tribes recommend $32 billion to fully fund IHS, to be phased in 
over 12 years. This includes amounts for personal health services, 
wrap-around community health services, facilities, and capital 
investments. Within this $32 billion is: $17.37 billion for Medical 
Services; $1.82 billion for Dental and Vision Services; $4.07 billion 
for Community and Public Health Services; $8.77 billion for facility 
upgrades and upfront costs (non-recurring investments). The Workgroup's 
top 5 areas for program expansion at IHS for FY 2019 include:

        1) Hospitals and Clinics
        2) Purchased/Referred Care
        3) Mental Health
        4) Alcohol and Substance Abuse and
        5) Dental Services

    Hospitals and Clinics--In FY 2018, Tribes recommend $2.3 billion 
for Hospitals and Clinics (H&C) which is $246 million over the FY 2018 
enacted level. Adequate funding for the Hospitals & Clinics (H&C) line 
item is the top priority for fiscal year 2020, as it provides the base 
funding for the 650 hospitals, clinics, and health programs that 
operate on Indian reservations, predominantly in rural and frontier 
settings. This is the core funding that makes available direct medical 
care services to AI/ANs. Increasing H&C funding is necessary as it 
supports medical care services provided at IHS and Tribally-operated 
facilities, including emergency care, inpatient and outpatient care, 
medically necessary support services, such as laboratory, pharmacy, 
digital imaging, information technology, medical records and other 
ancillary services. In addition, H&C funds provide the greatest 
flexibility to support the required range of services needed to target 
chronic health conditions affecting AI/ANs such heart disease and 
diabetes, treatment and rehabilitation due to injuries, maternal and 
child health care and communicable diseases including influenza, HIV/
AIDS, and hepatitis.
    Health IT--One area within the H&C line item is the area of Health 
Information Technology (HIT). IHS does not receive dedicated and 
sustainable funding for the agency to adequately support health IT 
infrastructure, including full deployment of electronic health records 
(EHRs). The current Resource and Patient Management System (RPMS), is a 
comprehensive suite of applications that supports virtually all 
clinical and business operations at IHS and most Tribal facilities. No 
new funds have been appropriated to support operations and maintenance 
for the RPMS suite. This has resulted in a mass exodus of Self 
Governance Tribes who have opted to withdraw their IT shares to seek 
other commercial HIT solutions which promise to more readily address 
their needs. In fact, this has caused a domino effect in that the IHS 
agency technology budget is decreasing more rapidly because of the 
withdrawal of these shares. Without a viable solution, IHS Health IT 
system will be left behind, and IHS patients will be put at risk. With 
the VA's announcement to move toward a commercial-off the shelf EHR, it 
is critical that IHS receive parallel appropriations to facilitate the 
replacement of RPMS, since our system is based on VA's VistA program.
    Purchased/Referred Care--In FY 2019, Tribes recommend $1.2 billion 
for the Purchased/Referred Care (PRC) program. This is $282 million 
above the FY 2018 enacted level. The PRC budget supports essential 
health care services from non-IHS or non-Tribal providers. In FY 2015, 
PRC denied over $423.6 million in services--that is 92,354 needed 
health care services that AI/ANs were denied from receiving. This core 
funding is still a top priority for the Tribes, as some service Areas 
rely heavily on PRC dollars, and we hope to see it continued as a 
priority in FY 2019. These deferrals are real lives. The shortage of 
PRC funds directly contributes to the opioid crisis in Tribal 
communities. The deferral of care due to funding and workforce 
shortages has pushed more and more Tribal members towards prescription 
opioids to treat health conditions that would otherwise successfully be 
treated with non-opioid therapies. This endless cycle of deferral and 
opioid dependency is a direct result of the underfunding of the IHS 
system, and must be stopped.
    Mental Health--In FY 2018, Tribes are recommending $207,791 
million. This is $107.9 million above FY 2018 enacted. This significant 
increase is needed to enhance the capacity of Tribal communities to 
develop innovative and culturally relevant prevention programs that are 
greatly needed in Tribal communities. Research has shown that AI/ANs do 
not prefer to seek mental health services that rely solely upon Western 
models of care; which suggests that AI/ANs are not receiving the 
services they need. \3\ For example, NIHB spoke with a young woman from 
the Pine Ridge Reservation who courageously shared her story about her 
multiple suicide attempts. She went to an inpatient psychiatric 
facility in Rapid City, but did not feel that she received healing. It 
wasn't until she attended a Lakota cultural healing camp that her life 
turned around. She said, ``It made me feel powerful. I got to learn 
about my culture and it made me feel closer to who I am.'' But the camp 
operates through donations and community support. Congress should 
provide dedicated funding for these types of activities. The geographic 
remoteness of most Tribal communities demands unique and innovative 
treatment options to address comprehensive mental health, substance 
abuse and psychiatric services.
---------------------------------------------------------------------------
    \3\ Beals, J., Novins, D.K., Whitesell, N.R., Spicer, P., & 
Mitchell, C.M., & Manson, S.M. (2005). Prevalence of mental disorders 
and utilization of mental health services in two American Indian 
reservation populations: Mental Health disparities in a national 
context. American Journal of Psychiatry, 162, 1723-1732. Walls, M. L., 
Johnson, K. D., Whitbeck, L. B., & Hoyt, D. R. (2006). Mental health 
and substance abuse services preferences among American Indian people 
of the northern Midwest. Community Mental Health Journal, 42, 521-535.
---------------------------------------------------------------------------
    Alcohol and Substance Abuse--In FY 2019, Tribes recommend $207.8 
million for the Alcohol and Substance Abuse budget. This is $100 
million above the FY 2018 enacted level. Of the challenges facing AI/AN 
communities and people, no challenge is more far reaching than the 
epidemic of alcohol and other substance abuse. For instance, the state 
of Minnesota reported that pregnant AI/AN women were 8.7 times more 
likely to be diagnosed with maternal opioid dependency, and that AI/AN 
infants were 7.4 times more likely to be born with neonatal abstinence 
syndrome (NAS)--meaning that the repercussions and trauma of this 
crisis are intergenerational. Other secondary impacts include the undue 
burdens imposed on many AI/AN families struggling with opioid and 
substance use disorders, the children forced into foster care, and the 
kinship care networks that are strained beyond their ability. As NIHB 
recently testified before this committee, the current opioid and 
substance abuse epidemic represents one of the most pressing public 
health crises affecting Tribal communities. While this epidemic is 
affecting many communities throughout America, it has 
disproportionately impacted Tribes and has further strained the limited 
public health and healthcare resources available to Tribes. Successful 
treatment approaches include traditional healing techniques that link 
the services provided to cultural practices and spiritual support. 
However, we now know that inadequate funding for alcohol and substance 
abuse services has a ripple effect on other services, such as 
overloading the agency's outpatient clinics, urgent care departments, 
and emergency departments with unnecessary visits (typically funded by 
Hospitals and Health Clinic funds and third party collections).
    Dental Health--For FY 2019, Tribes recommend $251.9 million for 
Dental Health. This is $56.6 million above the FY 2018 enacted level. 
In the general U.S. population, there is one dentist for every 1,500 
people, but in Indian Country, there is only one dentist for every 
2,800 people. Nationally, American Indian children have the highest 
rate of tooth decay than any population group in the country. On the 
Pine Ridge Reservation, the W.K. Kellogg Foundation found that 40 
percent of children and 60 percent of adults suffer from moderate to 
urgent dental needs, including infections and other problems that could 
become life-threatening. Nationally, 59 percent of AI/AN adult dental 
patients have untreated decay, this is almost three times as much as 
U.S Whites. It is not uncommon to hear stories of elderly patients 
waiting out in the cold for one of just a few dental appointments 
available in one day. Or, for patients to wait for months to get an 
appointment. Patients get frustrated with this system and often abandon 
the search for care altogether. This delayed or deferred care has long-
term impacts over a patient's overall health and wellbeing.
    NIHB and the Tribes continue to support the expansion of Dental 
Therapists (DTs) to Tribes outside of Alaska as a safe, reliable, cost-
effective means for Tribal members to access oral health services. Some 
Tribes in the lower 48 have created programs outside of IHS funding to 
allow them to utilize DTs, but sadly, provisions in the Indian 
Healthcare Improvement Act (IHCIA) \4\ make it difficult to use IHS 
resources to use these effective providers. People with healthy teeth 
and healthy smiles feels better about themselves and experience better 
overall health outcomes. Our communities need our people and especially 
our youth to smile again. We encourage the Committee to work with the 
other relevant authorizing Committees to repeal this section of the law 
so that IHS and Tribes can utilize scarce discretionary dollars in the 
most cost-effective way possible.
---------------------------------------------------------------------------
    \4\ 25 U.S.C. 1616l(d)
---------------------------------------------------------------------------
    Facilities: In FY 2019, Tribes recommend prioritizing facilities 
funding in FY 2019. Increases will be used to increase maintenance and 
improvement on IHS facilities, speed up the funding of projects on the 
IHS Healthcare priority list, and improve sanitation conditions in 
Tribal communities. IHS facilities represent some the oldest health 
facilities in the nation and at current rates of funding, a new 
facility built today would not be replaced for another 400 years. \5\ 
Investments in facilities will allow the care provided in our 
communities to be on par with other health systems in the United 
States. In Alaska, for example over 5,000 rural homes are considered 
unserved by running water and wastewater. Individuals, instead, must 
rely on ``honey buckets'' to dispose of waste. This is just 
unacceptable. The FY 2019 Budget Request proposes a decrease of $361.7 
million from the FY 2018 enacted facilities budget. NIHB emphatically 
opposes this decrease and encourages Congress do continue to build 
funding for facilities in FY 2019.
---------------------------------------------------------------------------
    \5\ ``Federal Indian Trust Responsibility: The Quest for Equitable 
and Quality Indian Healthcare--The National Tribal Budget Formulation 
Workgroup's Recommendations on the Indian Health Service Fiscal Year 
2018 Budget.'' June 2016. P. 64.
---------------------------------------------------------------------------
FY 2019 President's Budget Request
    The FY 2019 President's Budget Request includes $5.4 billion for 
the IHS discretionary spending in FY 2019. This represents $113.7 below 
the FY 2018 enacted budget. While we appreciate the proposals to 
increase funding for direct care and substance abuse, several items in 
the FY 2019 request are of particular concern for NIHB and the Tribes.
Community Health Representatives/Health Education:
    The FY 2019 request eliminates funding for the Community Health 
Representative and Health Education programs. Tribes are unambiguously 
opposed to this cut. While the budget notes that the cut was proposed 
in order to ``prioritize direct health care services,'' it is important 
to note that CHRs are direct care. CHRs provide services like in-home 
patient assessment of medical conditions, providing glucose testing or 
blood pressure tests to determine if the patient should seek further 
care, and providing transportation for medical care. They also help 
interpret prescriptions which is critical to patient safety and the 
elimination of this program would be detrimental to the health and 
wellbeing of many Tribal communities. There are more than 1,600 CHRs 
representing over 250 tribes in all 12 IHS Areas and exported CHR 
program data in FY 2016 demonstrated that CHRs conducted 340,270 home 
visits and provided 1,102,164 patient contacts/services on a variety of 
health related conditions. However, it is likely that there are far 
more contacts are made in reality but not reflected in data due to 
reporting challenges associated with the RPMS system.
    The purpose of the Health Education program is to provide 
preventive health education, emergency response and public health, 
chronic and communicable disease education. In addition, health 
educators serve as liaison between individual, health care providers, 
and community organizations to coordinate resources and services to 
promote health education programs). IHS receives little funding for 
preventative efforts, and these programs represent one of the few 
consistent investments in an essential public health service--helping 
to provide education efforts to community members in remote areas who 
may never otherwise encounter a health professional.
    In March 2018, NIHB sent a survey to Tribes to collect information 
on the importance of CHRs and Health Educators in their communities. We 
received a record 370 responses. Over 92 percent of respondents noted 
that that could not provide health services at the same level without 
CHRs. As one survey participant noted,

         Both [CHR and Health Education] programs are essential to the 
        communities they serve. Without their services preventive 
        education and screenings will not be known. There would be no 
        other resource for community members to go to for information 
        or to have their questions answered quickly. It is extremely 
        hard for patients to ask questions to their provider, because 
        there is a time limit on one patient visit. Many of our elders 
        and youth will fall through the cracks and chronic diseases 
        will increase significantly.

    In FY 2019, the TBFWG recommends CHRs are funded at $92.2 million, 
which is an increase of $29.3 million above the FY 2018 enacted level. 
The group recommends that Health Education is funded at $35.9 million, 
an increase of $16 million from FY 2018 enacted budget.
Special Diabetes Program for Indians:
    The FY 2019 President's budget also proposes to move the Special 
Diabetes Program for Indians (SDPI), and other health programs, from 
the mandatory side of the budget to discretionary funding. This major 
policy shift was made with no consultation with Tribes, and the budget 
offers no explanation of this change. NIHB and the Tribes remain 
concerned that this shift will make this highly successful program have 
less stable funding opportunities, and create additional pressure on 
the already strained IHS discretionary budget. Without a commensurate 
increase in other areas of the discretionary side of the budget, or to 
the 302(b) allocation of the Interior, Environment and Related Agencies 
Appropriations Subcommittee, SDPI funds are at serious risk. With a 
decrease of 54 percent in End Stage Renal Disease of for AI/ANs over a 
20 year period, SDPI represents one of the greatest public health 
success programs this country has ever seen. It is simply irresponsible 
to make such a major shift without first understanding the 
ramifications that such a change would have. NIHB opposes this proposal 
and encourages Congress to fully reject it as well.
Opioid Funding and use of Competitive Grants
    The FY 2019 President's Budget Request also proposes $150 million 
in competitive grants to ``combat the opioid epidemic and address 
serious mental illness.'' This is part of the total $10 billion that 
the Department of Health and Human Services would receive. Firstly, 
this funding is a mere 1.5 percent set aside for AI/ANs despite the 
disproportionate disease burden in Tribal communities and the federal 
trust responsibility to Indian Country. Instead, the budget should 
focus on including at least 10 percent set aside for Tribes across all 
opioid related programs.
    Secondly, Tribes are universally opposed to this funding being 
distributed in the form of competitive grants. The health needs of 
Indian people are chronic and multi-faceted; such needs deserve to be 
addressed through committed, stable funding. In contrast, grant 
programs are temporary, unreliable, non-recurring, and unable to 
address the ongoing critical needs of Tribal communities. Under the 
grant making process, some Tribes receive assistance and benefit from 
somewhat consistent increases, while other Tribes do not. This creates 
two pools of Tribes--those that have technical experience and financial 
resources receive funding, while many others without this capacity see 
no benefit in appropriated increases. The strings attached to federal 
grants in terms of reporting, limitations on use of funds, and 
timelines distract from patient care. Since 2008, 50 percent (about $40 
Million) of the increases to the total Behavioral Health budget (Mental 
Health and Alcohol & Substance Abuse Programs) is due to a growth in 
special grant programs and initiatives rather than increases to 
existing Behavioral Health programs. Instead of project or disease 
specific grant funds, the IHS needs to prioritize flexible, recurring 
base funds.
    Grants create a ``disease de jour'' approach, where the funding is 
tied only to an identified hot topic issue. For instance, if a patient 
presents with an ``unfunded'' diagnosis that is not covered by grants 
for specific disease categories that patient is left without many 
alternatives. This does not bode well for the many chronic diseases 
from which AI/ANs disproportionately suffer. For example, a large focus 
on the methamphetamine epidemic 10 years ago may have distracted from 
the rise in patients addicted to prescription pain medicine, thus 
contributing to the opioid crisis in Indian Country today. While the 
United States generally is now facing an opioid crisis, a particular 
service unit in one IHS area may struggle most with alcohol addiction 
and under the grant making process cannot redesign the available 
programs and services to meet Tribal community needs. As such, IHS 
should never use a grant program to fund ongoing critical Indian Health 
needs.
Other Sources of Indian Health Funding
Medicaid
    While the above recommendations address the IHS budget, the federal 
trust responsibility for health extends beyond the IHS. For example, 
Medicaid system is a critical lifeline in Tribal communities. Moving 
Medicaid to a block grant system, as proposed in the President's FY 
2019 Budget Request, will have major fiscal impacts on Tribal health 
reimbursements, and would devastate Tribal health. Decreasing Medicaid 
decrease scarce resources available to cover our cost of care, and 
further restrict the eligible patient population. This puts an unequal 
burden on the IHS budget which is so reliant on these resources to make 
up our funding shortfalls. We urge Congress to ensure that American 
Indians and Alaska Natives are exempt from any burdens put on Medicaid 
like work requirements, so that fiscal strain doesn't unintentionally 
fall back to the IHS. American Indians and Alaska Natives already have 
access to health care through the IHS, so work requirements only serve 
to inhibit the use of Medicaid in Tribal communities.
Good Health and Wellness in Indian Country
    The President's FY 2019 Budget request eliminated substantial 
funding from the National Center for Chronic Disease Prevention at the 
Centers for Disease Control and Prevention (CDC) along with zeroing out 
the Good Health and Wellness in Indian Country (GHWIC) program 
(currently funded at $16 million). The Good Health and Wellness in 
Indian Country Program is CDC's largest investment in the wellbeing of 
American Indian and Alaska Natives. GHWIC funding must be restored. The 
twelve Tribes and eleven Tribal organizations in the program have 
utilized community-driven, culturally adapted strategies to improve 
public health in their communities. GHWIC is a lifeline for these 
communities who would otherwise have no public health investment. In 
fact, it is the only dedicated funding for AI/ANs at CDC. CDC has told 
Tribal leaders on March 1, 2018 that they are replacing GHWIC with the 
proposed ``America's Health Block Grant.'' That funding has no 
indicated set aside for Tribes or epi-centers so there is zero 
guarantee that this funding would reach AI/AN communities. Instead, 
Congress should reject this elimination of GHWIC and double the size of 
the program to $32 million in FY 2019.
LIHEAP and SNAP
    In addition, NIHB remains concerns about the proposed cuts in the 
FY 2019 budget to the Low Income Heating and Energy Assistance Program 
(LIHEAP) and the Supplemental Nutrition Assistance Program (SNAP). 
LIHEAP is a critical resource for low-income AI/ANs to heat their homes 
which contributes to the health and well being of AI/ANs. There are 153 
Tribes and tribal organizations who receive these funds directly in the 
amount of approximately $37 million. The budget would also make major 
changes and cuts to SNAP which would cut 22 percent of the program and 
$213.5 billion over the next decade. The proposal would also would 
redesign SNAP by using a portion of benefits to buy and deliver a 
package of commodities to SNAP households. Indian Country knows all too 
well the scourge of using nonperishable commodities instead of fresh 
food, and it is reflected in high rates of diabetes, heart disease and 
other chronic health issues among AI/ANs. Instead, Congress should 
grant authority to empower tribes to run their own SNAP programs 
through self-governance and support funding and programs targeted at 
local agriculture, community gardens, and access to fresh food.
Conclusion
    Thank you again for holding this important hearing and for the 
opportunity to offer testimony for the record. You can find a more 
detailed FY 2019 IHS Budget Request at www.nihb.org.
                                 ______
                                 
 Dwayne Herrera, Governor; Everett P. Herrera, Lt. Governor
                                 Cochiti Pueblo, NM. April 16, 2018
Congressman Steve Pearce,
Rayburn House Office Building, Washington, DC.

Congresswoman Michelle Lujan Grisham,
Cannon House Office Building, Washington, DC.

Congressman Ben Ray Lujan,
Rayburn HOB, Washington, DC.

Senator Tom Udall
Hart Senate Office Building, Washington, DC.

Senator Martin Heinrich,
Hart Senate Office Building, Washington, DC.
Re: the Elimination of IHS Community Health Representative 
(CHR) and Health Education programs in President's 2019 IHS 
                                                    Budget.

Dear Honorable Senators, Congresswoman, Congressmen:

    As the Governor of the Pueblo de Cochiti, I write this letter based 
on the understanding that the President's 2019 IHS Budget has 
eliminated the Community Health Representative (CHR) and the Health 
Education line items. In a small rural reservation like Cochiti Pueblo, 
I know the CHR program allows us the only health providers that we have 
to address almost all of our health issues. They are the only health 
providers that live in our community and provide all types of services 
or give the community the knowledge and access to services. This Pueblo 
only receives 2 primary care clinic days a week from the Indian Health 
Service. The CHRs are available for many and any health questions we 
have as tribal leaders and educate us about Obamacare, Medicare, IHS, 
MCOs and any research and outside providers giving our community 
members health care. They have been doing this since the program was 
started in 1968. We recently testified about the CHR program 
elimination at the DHHS tribal consultation but to date, have not heard 
any response from the agency. Therefore let me re-emphasize some 
critical points of both line items by the following points:

  <bullet> The CHR program is a 50 year old line item in the IHS. The 
        CHR program is authorized under the Indian Health Care 
        Improvement Act (IHCIA) and this legislation is now permanent 
        federal legislation. Attached is the NMSCCHRA testimonies and 
        the Pueblo wholeheartedly support both testimonies. As tribal 
        leaders we expect federal agencies to follow funding guidelines 
        established by Appropriations Committees especially those line 
        items that have a significant tribal impact nationally.

  <bullet> The CHR program is familiar to all tribal members and use 
        the CHRs for their various health issues and needs. The Cochiti 
        CHR program has always been administered, operated and staffed 
        by `Commtmity based' tribal health providers under our Public 
        Law 93-638 contract The CHR program is a basic public health 
        service providing direct medical services, prevention and 
        intervention under the Pueblo's management structure. We have 
        daily access to our CHR staff as they speak our tribal language 
        and know all the community members of Cochiti Pueblo. The 
        Cochiti staff serve as dental assistants, enrollment guides for 
        Medicaid, Medicare and Private insurance, Emergency Management 
        coordinators, health educators, transportation to dialysis/
        medical appointments, translators, homecare advocates and many 
        other community health services that are started and completed 
        by the staff.

  <bullet> Cochiti is a small Tribe and not a gaming Tribe. We rely on 
        federal funds to not only provide services but also have 
        benefitted from the PL 638 funding including Contract Support 
        Costs funding--Direct Contract support and Indirect Cost on a 
        yearly basis. The overhead funds pays for the Tribal 
        leadership, HR, Finance, Housekeeping salaries in addition to 
        facilities and Other administrative costs such as audits, 
        trainings, travel, supplies out of Indirect costs. For a small 
        Pueblo like Cochiti, it sustains and impacts our Tribal 
        government immensely. I can attest to the fact that I rely on 
        the CHRs on assistance and clarification when outside health 
        agencies, governments, vendors, MC0s, IHS, Veterans 
        Administration and other interested health partners approach 
        our tribal administration. Our staff are community members and 
        I trust their input on health matters and services.

    The elimination of the two line items will have a major impact to 
the Pueblo de Cochiti as our PL 638 contracted programs. As the 
Governor of Cochiti Pueblo, I respectfully request the CHR and Health 
Education line items remain in the IHS budget and be increased in the 
overall IHS budget.
        Respectfully submitted,
                                            Dwayne Herrera,
                                       Governor, Pueblo de Cochiti.
                                 ______
                                 
        Santo Domingo Tribal Council--Resolution No: 04-2018-15
    continued support of and reinstatement of the community health 
representative (chr) and health education line items in the president's 
                   2019 indian health service budget
    WHEREAS, the Santo Domingo Tribe is a federally recognized tribe 
with inherent sovereign authorities to develop laws, plans, and 
essential health programs to meet our community needs, and has 
successfully administered the Community Health Representative Program 
(CHR), Emergency Medical Services (EMS), and Behavior Health Services 
funding through the Indian Health Service (IHS) under PL 93-638 Indian 
Self-Determination Act and as authorized under the Indian Health Care 
Improvement Act (IHCIA); and
    WHEREAS, Santo Domingo Tribe has provided direct medical services, 
patient care, delivery of patient medication, non-emergency 
transportation for appointments, health education & prevention, 
interfacing with other public health & environmental services at the 
local community level and language interpretation by local staff; and
    WHEREAS, the CHR has been and continues to be a focal point and 
cornerstone of most medical, public health, behavioral, environmental, 
emergency patient care in our tribal community with working knowledge 
of our community cultural values, norms and activities; and
    WHEREAS, the CHR funding has supported, since its inception in 
1968, the most essential primary healthcare, education, and 
environmental services that has become a crucial and important 
institutional and effective community-based health program; and
    WHEREAS, Santo Domingo's CHR program has recently provided 4,184 
home visits, 1085 non-emergency transports to health facilities, and 
hosted 325 educational and special events in our community; and
    WHEREAS, the tribal leadership has relied on the CHR's for health 
interpretation, evaluations, input, health literacy, health insurance 
issues, health education, federal and state partnership initiatives; 
and
    WHEREAS, the CHR's are the only health providers and advocates when 
the local limited clinic hours and service providers are not available 
or accessible for health services and emergencies; and
    NOW THEREFORE, BE IT RESOLVED that the Santo Domingo Tribe directs 
the 2019 President's Indian Health Service budget reinstate the CHR and 
Health Education line items and increase the current funding amounts 
including the overall Indian Health Service budget; and
    BE IT FUTHER RESOLVED that the US House of Representatives and US 
Senate assure that the mainstay of basic healthcare providers in our 
local tribal communities remain in the IHS budget and support the 
overall IHS budget as long as the United States has a responsibility to 
provide health services to the Native Americans under the various 
federal laws and federal protections afforded to Tribes.
CERTIFICATION
    The foregoing resolution was enacted by the Santo Domingo Tribe 
Tribal Council on April 23, 2018 by a unanimous vote at a duly called 
meeting which a quorum of the Tribal Council was present.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. Tom Udall to 
                          RADM Michael Weahkee
Opioids and IHS Clinical Services
    Question 1. The Centers for Disease Control and Prevention recently 
reported that the rate of Hepatitis C infections tripled between 2010 
and 2015--mostly due to the use of needles by a growing number of drug 
users. Does IHS have any data on changing numbers of IHS patients 
presenting with opioid use-related bloodborne infection diseases like 
Hepatitis C and HIV/AIDS?
    Answer. IHS does not have data on the changing numbers of IHS 
patients presenting with opioid or substance abuse-related blood borne 
infectious diseases like hepatitis C (HCV) or HIV/AIDS. Moreover, IHS 
does not have the ability to monitor this correlation with its existing 
EHR infrastructure or personnel. However, IHS, in collaboration with 
the Centers for Disease Control and Prevention (CDC), is currently 
undertaking a vulnerability study looking at the risk of HIV or HCV 
transmission from injecting drug use.

    Question 1a. Does IHS have any statistics on how rates of neonatal 
abstinence syndrome have changed over the course of the ongoing opioid 
crisis?
    Answer. IHS has a limited capacity to evaluate American Indian and 
Alaska Native neonatal abstinence syndrome or neonatal opioid 
withdrawal syndrome rates. The majority of American Indian and Alaska 
Native births occur at tertiary referral hospitals making data sharing 
between the referral hospital and IHS challenging. IHS is currently 
evaluating the prospect of future collaborations and strategies to 
capture this data from other available data sets and partnerships.

    Question 2. Your testimony states that IHS sought to ``prioritize 
direct clinical health care services''. Please explain how that 
priority--and the Department's priority of addressing the opioid 
crisis--would allow tribal communities to respond to substance abuse-
related health complications?
    Answer. Efforts to prioritize direct clinical health care services 
are important for helping tribal communities address the health 
complications of substance abuse. As part of this process, IHS will 
continue working with tribes, through consultation and collaboration, 
to improve access to prevention, treatment, and recovery support 
services, including medication-assisted treatment. For many patients, 
primary care is the first point of entry into the health care system. 
Primary care and direct clinical health care enable patients to gain 
access to behavioral health support and other supports necessary for 
evidence-based care. IHS has a holistic approach, integrating physical, 
mental, spiritual, and cultural components. Additionally, direct care 
can help patients gain access to overdose-reversing drugs and support 
more effective methods of dealing with pain without using prescription 
opioid medications. Most importantly, as opioid use disorder is treated 
more effectively, we know from research and experience that secondary 
health complications decrease dramatically.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                              John Tahsuda
Colorado River Indian Tribe, Arizona
    Question 1. Water resources are critically important to western 
Tribes and my home State of Arizona. I understand that the Colorado 
River Irrigation Project (CRIP) on the CRIT reservation is operating at 
53 percent efficiency. According to CRIT, the BIA is responsible for 
conducting priority maintenance in the CRIP system but failed to so 
from December 2017, and January and February of this year. Can you 
explain why BIA proceeded with the ``dry-up'' of the CRIP but did not 
conduct the maintenance work covered in the irrigation plan?
    Answer. The BIA Colorado River Agency (CRA) Irrigation Project did 
complete a significant amount of the maintenance identified in the 
Tribe's Draft Plan, as submitted. Maintenance activities were conducted 
on approximately 9 laterals and several sub-laterals, and included 
inspections; adjusting, repairing, or removing and replacing turnout 
check gates; cleaning, adjusting or replacing staff gauges; identifying 
additional gates to replace; repairing canal lining with placement of 
approximately 400 yards of gunite material; adding headwalls; replacing 
a major culvert on 6th Avenue; and re-grouting existing turnout rings 
and placing new turnout rings.
    The Tribe's Five Year Plan was submitted to the BIA in final draft 
as a deliverable for the Irrigation Engineering & Support Services 
Program, Self-Determination Contract (No. A15AV00449) between the BIA 
and the Tribe. The attached chart, derived from tables submitted in the 
draft plan, shows the status of the recommended maintenance items after 
maintenance work was conducted during the 2017 and 2018 dry ups.

    Question 1a. Were there any BIA staffing shortages associated with 
the delays in repairing the CRIP system?
    Answer. The Project is currently operating with 32 staff positions 
filled out of the total 64 approved positions. We have been moving to 
fill many of the vacate positions. All Irrigation System Operator (ISO) 
and Heavy Equipment Operator vacant positions are currently advertised 
on USAJobs and will continue to be until filled, which is a new 
approach. Applications will be reviewed every two weeks, and eligible 
candidates will be referred to the hiring official for consideration 
until all positions are filled.

    Question 1b. The Tribe has asked BIA to increase its maintenance 
fees for CRIP. What is the status of those increases?
    Answer. The Tribe provided a comment on May 26, 2017, in response 
to 2017 Proposed O&M rate (FRN 82-18774) recommending the O&M rate be 
increased from $54/acre to $60.25/acre. The BIA Irrigation System 
Manager determined there was adequate project funding for maintenance 
and rehabilitation work during 2017, and thus made the decision to 
postpone a Project O&M assessment rate increase for 2018. BIA will 
evaluate the Tribe's recommended rate increase during the required 
budget planning process with the project water users, taking into 
consideration additional staff hired in the interim. The Tribe's 
request will be included for discussion during that rate setting 
process.
White Mountain Apache Tribe, Arizona.
    Question 2. As you may know, the WMAT is on high-risk status for 
failing to submit audits to the BIA on 638 services. The tribe is 
currently on a cost-reimbursement basis with BIA. My understanding is 
that the Tribe is working to provide the needed audits, but is still 
seeking information from BIA on how to be removed from the agency's 
high-risk list and avoid re-assumption of services. Please provide a 
letter to the WMAT indicating what remaining steps the tribe must take 
to achieve compliance.
    Answer. The BIA will provide this information to the Tribe in the 
near future.
    Attachment
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]    
                                 ______
                                 

*RESPONSES TO THE FOLLOWING QUESTIONS WERE NOT AVAILABLE AT THE TIME 
        THIS HEARING WENT TO PRINT*

           Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Aaron Payment
Infrastructure
    Question 1. Interior's budget includes a new ``The Public Lands 
Infrastructure Fund,'' the aim of which is to provide up to $18 billion 
to address what Interior calls the department's ``deferred maintenance 
backlog,'' according to a press release from the agency. The fund would 
support necessary repairs and improvement in national parks, national 
wildlife refuges, and BIE schools. Does NCAI have priority areas for 
this Infrastructure Fund, if enacted?

    Question 2. The President's FY 2019 budget proposal for the 
Department of Housing and Urban Development (HUD)'s Indian Housing 
programs administered by the Office of Native American Programs (ONAP) 
proposes significant cuts to Indian housing programs($131.2M in cuts 
overall). One specific program, the Indian Community Block Grant (ICBG) 
was zeroed out because the Administration believes the program is 
duplicative of other HUD programs such as the Native American Housing 
Block Grant under NAHASDA. The ICBG is used by tribal housing 
authorities to leverage NAHASDA dollars for critical infrastructure 
improvements to homes. Does NCAI believe the ICBG program is 
duplicative or simply not needed?
DOI Reorganization
    Question 3. Secretary Zinke proposes dividing Interior's various 
bureaus into 13 geographic regions across the country based on 
watershed and other natural resource boundary lines, an idea modeled on 
John Wesley Powell's proposal that state boundaries follow watersheds. 
Interior intends for these changes to improve agency collaboration and 
efficiency by shifting more authority from Washington to communities 
out West and by aligning regional offices for agencies like the 
National Park Service and the Bureau of Land Management.

    a. Does NCAI have views on Interior's proposed reorganization, 
especially its potential impact on BIA regions and other agencies that 
service Indian tribes, such as the Bureau of Land Management?

    b. Has NCAI formally communicated these views to Interior?
Natural Resources Management
    Question 4. Tribes manage 11 million more acres of land than the 
entire National Park Service (with 95 million acres of land managed 
either by tribes or the United States). Cuts to these natural resource 
management programs will affect everything from agriculture and 
forestry to water resources and wildlife and fish conservation.
    Yet Interior's proposed budget would cut funds for natural 
resources management by $46 million. Please explain why it is important 
that the federal government fully fund these natural resources 
programs.

    Question 5. Previously funded at $9.9 million in FY 2017 and FY 
2018, the BIA Tribal Resilience Program (formerly the ``Tribal Climate 
Resilience Program'') provides federal resources to Tribes to build 
capacity and resilience through leadership engagement, delivery of data 
and tools, training and tribal capacity building. Direct funding 
supports goes to tribally designed resilience training, adaptation 
planning, vulnerability assessments, supplemental monitoring, capacity 
building, and youth engagement. Interior's budget proposal eliminates 
this program. Please explain NCAI's views on the Tribal Resilience 
Program?
Opioids
    Question 6. The President's FY 2019 Budget Proposal includes a 
number of steep cuts to Indian Programs (e.g., -$131 million in HUD 
Native Housing Programs from FY2017 levels, -$22 million in cuts to BIA 
human services programs from FY 2017 levels, and -$27 million in cuts 
to BIA public safety and justice programs). How do cuts to federal 
funding for tribal housing, human services, and public safety programs 
impact tribes' ability to continue efforts to combat the opioid and 
substance abuse crisis facing many communities in Indian Country?

    Question 7. Within HHS, the President's FY 2019 Budget Proposal 
lists addressing the opioid epidemic as the first priority discussed in 
its Budget in Brief document for the Department. The proposal also 
includes reserving $150 million of the total $10 billion in proposed 
opioid funding for the Secretary's use in Indian Country. The Centers 
for Disease Control and Prevention recently reported that the rate 
ofHepatitis C infection tripled between 2010 and 2015--mostly due to 
the use of needles by a growing number of drug users. What impact would 
lack of sufficient funding for IHS clinical and preventive health 
combined with repeal of the Affordable Care Act and Medicaid 
Expansion--one of the President's FY2019 Budget Proposals for CMS--have 
on tribes?
                                 ______
                                 
           Written Questions Submitted by Hon. Tom Udall to 
                           Hon. Robert McGhee
Infrastructure
    Question 1. Interior's budget includes a new ``The Public Lands 
Infrastructure Fund,'' the aim of which is to provide up to $18 billion 
to address what Interior calls the department's ``deferred maintenance 
backlog,'' according to a press release from the agency. The proceeds 
within the fund would go towards 150 Bureau of Indian Education schools 
in 23 states. The FY19 proposal cuts BIE funding from $885M to $741M, a 
reduction of $144M (or about 16 percent). Does USET support cutting 
infrastructure line items and replacing them with this Fund?
DOI Reorganization
    Question 2. Secretary Zinke proposes dividing Interior's various 
bureaus into 13 geographic regions across the country based on 
watershed and other natural resource boundary lines, an idea modeled on 
John Wesley Powell's proposal that state boundaries follow watersheds. 
Interior intends for these changes to improve agency collaboration and 
efficiency by shifting more authority from Washington to communities 
out West and by aligning regional offices for agencies like the 
National Park Service and the Bureau of Land Management.

    a. Does USET have views on Interior's proposed reorganization, 
especially its potential impact on BIA regions and other agencies that 
service Indian tribes, such as the Bureau of Land Management?

    b. Has USET formally communicated these views to Interior?
Public Safety
    Question 3. The Bureau of Indian Affairs distributes funding for 
law enforcement in Indian Country based on historical allocations. The 
BIA considers a number of factors to determine the budget increases to 
meet the areas with the greatest need. These factors include 
population, size of land base, staffing levels/shortages, violent crime 
rate, volume of calls, and prevalence of drug/gang activity. But law 
enforcement in Indian Country is severely underfunded and many tribal 
communities face high violent crime rates. The Administration is 
proposing a 7 percent cut to law enforcement funding in Indian Country. 
This cut will affect the hiring of more officers and worsen the 
response time to victims of crime. In addition to restoring funding and 
increasing budget allocations, how can Congress ensure that tribal 
communities are safer?
Natural Resources Management
    Question 4. Tribes manage 11 million more acres of land than the 
entire National Park Service (with 95 million acres of land managed 
either by tribes or the United States). Cuts to these natural resource 
management programs will affect everything from agriculture and 
forestry to water resources and wildlife and fish conservation. Yet 
Interior's proposed budget would cut funds for natural resources 
management by $46 million. Please explain why it is important that the 
federal government fully fund these natural resources programs.

    Question 5. Previously funded at $9.9 million in FY 2017 and FY 
2018, the BIA Tribal Resilience Program (formerly the ``Tribal Climate 
Resilience Program'') provides federal resources to Tribes to build 
capacity and resilience through leadership engagement, delivery of data 
and tools, training and tribal capacity building. Direct funding 
supports goes to tribally designed resilience training, adaptation 
planning, vulnerability assessments, supplemental monitoring, capacity 
building, and youth engagement. Interior's budget proposal eliminates 
this program. Please explain NCAI's views on the Tribal Resilience 
Program?
Opioids
    Question 6. The President's FY20 19 Budget Proposal includes a 
number of steep cuts to Indian Programs (e.g., -$131 million in HUD 
Native Housing Programs from FY 2017 levels, -$22 million in cuts to 
BIA human services programs from FY 2017 levels, and -$27 million in 
cuts to BIA public safety and justice programs). How do cuts to federal 
funding for tribal housing, human services, and public safety programs 
impact tribes' ability to continue efforts to combat the opioid crisis?

    Question 7. Within HHS, the President's FY 2019 Budget Proposal 
lists addressing the opioid epidemic as the first priority discussed in 
its Budget in Brief document for the Department. One of the key pieces 
of combatting the opioid epidemic is putting more resources towards 
prevention--both addiction prevention and prescription misuse. But 
IHS's proposed budget would cut preventative health funding by $71 
million from FY 2017 levels--including a complete zeroing out of IHS 
health education funding. Is there a misalignment between the 
Administration's stated goal of addressing prevention as part of its 
opioid response plan and its cutting of preventative health at IHS?

    Question 8. Within HHS, the President's FY 2019 Budget Proposal 
lists addressing the opioid epidemic as the first priority discussed in 
its Budget in Brief document for the Department. The proposal also 
includes reserving $150 million of the total $10 billion in proposed 
opioid funding for the Secretary's use in Indian Country. The Centers 
for Disease Control and Prevention recently reported that the rate of 
Hepatitis C infection tripled between 2010 and 2015--mostly due to the 
use of needles by a growing number of drug users. What impact would 
lack.of sufficient funding for IHS clinical and preventive health 
combined with repeal of the Affordable Care Act and Medicaid 
Expansion--one of the President's FY 2019 Budget Proposals for CMS--
have on tribes?

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
